<html>
<title> - OPERATION FAST AND FURIOUS: THE OTHER SIDE OF THE BORDER</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
        OPERATION FAST AND FURIOUS: THE OTHER SIDE OF THE BORDER

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 26, 2011

                               __________

                           Serial No. 112-100

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
72-802                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 26, 2011....................................     1
Statement of:
    Gil, Darren, former ATF Attache to Mexico; Jose Wall, ATF 
      Senior Special Agent, Tijuana, Mexico; Carlos Canino, ATF 
      Acting Attache in Mexico; Lorren Leadmon, ATF Intelligence 
      Operations Specialist; William Newell, former ATF Special 
      Agent in Charge, Phoenix Field Division; and William 
      McMahon, ATF Deputy Assistant Director for Field Operations 
      West, including Phoenix and Mexico.........................    10
        Canino, Carlos...........................................    23
        Gil, Darren..............................................    10
        Leadmon, Lorren..........................................    30
        McMahon, William.........................................    46
        Newell, William..........................................    37
        Wall, Jose...............................................    18
Letters, statements, etc., submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    57
    Canino, Carlos, ATF Acting Attache in Mexico, prepared 
      statement of...............................................    25
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    80
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     8
    Gil, Darren, former ATF Attache to Mexico, prepared statement 
      of.........................................................    13
    Issa, Chairman Darrell E., a Representative in Congress from 
      the State of California, prepared statement of.............     4
    Leadmon, Lorren, ATF Intelligence Operations Specialist, 
      prepared statement of......................................    33
    McMahon, William, ATF Deputy Assistant Director for Field 
      Operations West, including Phoenix and Mexico, prepared 
      statement of...............................................    47
    Newell, William, former ATF Special Agent in Charge, Phoenix 
      Field Division, prepared statement of......................    40
    Wall, Jose, ATF Senior Special Agent, Tijuana, Mexico, 
      prepared statement of......................................    20


        OPERATION FAST AND FURIOUS: THE OTHER SIDE OF THE BORDER

                              ----------                              


                         TUESDAY, JULY 26, 2011

                          House of Representatives,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
(chairman of the committee) presiding.
    Present: Representatives Issa, Burton, Jordan, Chaffetz, 
Walberg, Lankford, Amash, Buerkle, Gosar, Labrador, Meehan, 
DesJarlais, Gowdy, Ross, Guinta, Farenthold, Kelly, Cummings, 
Maloney, Norton, Kucinich, Tierney, Connolly, Quigley, Davis, 
Welch, Murphy, and Speier.
    Staff present: Robert Borden, general counsel; Steve 
Castor, chief counsel, investigations; John Cuaderes, deputy 
staff director; Carlton Davis, Henry J. Kerner, Jonathan J. 
Skladany, and Jessica L. Laux, counsels; Kate Dunbar, staff 
assistant; Adam P. Fromm, director of Member liaison and floor 
operations; Linda Good, chief clerk; Jean Humbrecht, 
professional staff member; Ashok M. Pinto, deputy chief 
counsel, investigations; Laura L. Rush, deputy chief clerk; 
Ashley Etienne, minority director of communications; Carla 
Hultberg, minority chief clerk; Justin Kim, Scott Lindsay, 
Donald Sherman, and Carlos Uriarte, minority counsels; Dave 
Rapallo, minority staff director; and Susanne Sachman Grooms, 
minority chief counsel.
    Chairman Issa. The hearing will come to order.
    Today's hearing continues the committee's ongoing 
investigation into the reckless program known as Operation Fast 
and Furious.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that the 
money Washington takes from them is well spent; and second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to protect these rights. Our solemn responsibility 
is to hold government accountable to taxpayers because 
taxpayers have a right to know what they get from their 
government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and to 
reform the government's bureaucracy. Thus far, the committee 
has heard testimony from ATF agents who reported that they were 
ordered to let guns destined for Mexican drug cartels to walk 
away from the hands of known criminals.
    Today this committee will have the opportunity to question 
supervisors of these agents who knew about and believed these 
tactics were appropriate. The committee will also hear from ATF 
agents who worked in Mexico and who were horrified to learn 
ultimately about this program.
    The task before the committee is very serious. The acting 
director of ATF in a transcribed interview with investigators 
has said that the Justice Department is trying to push all of 
us away from its political appointees. Indeed, the Justice 
Department continues to withhold key information and has 
inappropriately interfered with this investigation.
    Let me be clear, the Justice Department is not our partner 
in this effort. They are the subject of this investigation, and 
their continued interference will not be allowed to derail the 
committee's work.
    Last month, members of this committee traveled to Mexico on 
a factfinding mission where we were briefed on how the United 
States and Mexican law enforcement agents are working together 
to fight the drug lords who are responsible for more than 
34,000 deaths in the last 4\1/2\ years.
    That effort cannot be derailed by the fallout of Fast and 
Furious. One of our goals is to ensure that the Mexican 
Government can have confidence in its partner here in the 
United States from this date forward that we in fact will not 
let guns walk, that we will be as open and transparent as 
possible.
    In the time ATF officials in Mexico have been increasingly 
alarmed by both volume and location of weapons that have been 
recovered, after reporting these concerns to ATF and Justice 
Department officials in Washington, these agents were told 
nothing about Fast and Furious. Again, our trip to Mexico City 
taught us that ATF agents and, more importantly, likely DEA 
agents and likely two U.S. Ambassadors were not informed about 
a program that was causing an increase in violence and an 
increase in guns arriving throughout Mexico, from Tijuana to 
Mexico City to Sonora and beyond.
    We have before us today witnesses who worked in Mexico for 
years, and they will tell the committee their frustration about 
being kept in the dark by officials in Washington and in 
Phoenix and about what really happened as a result of Operation 
Fast and Furious. They are going to have the opportunity to 
tell this committee about what happens when the Justice 
Department intentionally lets weapons flow across the border 
and how Mexican officials reacted when they began to learn the 
truth.
    The committee will also offer ATF supervisors the 
opportunity to publicly explain why they thought it was okay to 
let weapons flow from Phoenix to Mexican drug cartels without 
making an effort to interdict them.
    The committee is eager to know why one particular suspect 
was permitted to purchase 685 weapons before he was arrested. 
We are also eager to hear justifications for decisions that 
have created deep divisions within the ATF and outrage in both 
the United States and Mexico.
    We have yet to--we have not yet seen the end of the 
violence from Operation Fast and Furious. The deadly 
consequences of this irresponsible program could last for years 
to come. Today the committee estimates at least 1,600 weapons, 
including .50-caliber sniper rifles, are still out there 
waiting to kill. The possibility that administration officials 
perhaps at the highest level of the Justice Department approved 
this strategy and are now trying to cover up their own 
involvement by stonewalling the committee is alarming.
    Today we are focusing primarily on the effects of Fast and 
Furious in Mexico. President Obama is keen to talk about who 
didn't know about the program and who didn't authorize it. But 
the American people have a right to know once and for all who 
did authorize it and who knew about it.
    The ranking member and I both pledged the Terry family that 
we would focus our efforts on finding out who was responsible 
for Fast and Furious. Until we have those answers, the 
committee will remain focused on these basic questions.
    And with that, I yield to the ranking member for his 
opening statement.
    [The prepared statement of Chairman Darrell E. Issa 
follows:]

[GRAPHIC] [TIFF OMITTED] T2802.001

[GRAPHIC] [TIFF OMITTED] T2802.002

    Mr. Cummings. I want to thank the chairman for this 
hearing. And I want to thank all of our witnesses for your 
service to our country and for what you do every day to protect 
so many lives.
    We have an important responsibility in this committee to 
thoroughly investigate allegations of waste, fraud and abuse 
and to follow evidence wherever it may lead and to base our 
conclusions on the evidence before us.
    The committee has now been investigating allegations 
relating to Operation Fast and Furious for 5 months. The 
committee staff have conducted 16 transcribed interviews of ATF 
managers and field agents in Phoenix, Washington and Mexico.
    During these interviews, officials at various levels have 
acknowledged mistakes in the planning, execution and oversight 
of this operation. That is most unfortunate.
    Although key questions remain, I would like to make four 
points. First, the head of ATF Acting Director Ken Melson 
stated during his transcribed interview on July 4th that he did 
not become aware of any allegations about so-called gun walking 
until they were reported publicly. And this is what he said: 
That issue had never been raised; it had never been raised to 
our level by the whistleblowers in Phoenix that stayed in-house 
down there.
    Second, the officials interviewed by the committee did not 
support the allegation that the controversial tactics allegedly 
employed in this operation, such as suspending surveillance or 
failing to interdict weapons, were part of a top-down strategy 
devised by senior ATF management or the Justice Department. 
Again, Acting Director Melson said that no Justice Department 
officials ever told him or anyone at ATF that these tactics 
were part of a new strategy to let guns go. He stated, ``we 
never discussed those types of tactical strategies.''
    William Hoover, the acting director of the ATF, is the 
principal liaison between ATF and the Deputy Attorney General's 
Office. He also rejected this allegation. When asked whether 
these tactics were part of a top-down policy, he responded, 
``no, sir, it is my firm belief that the strategic and tactical 
decisions made in this investigation were born and raised with 
the U.S. Attorney's Office and with the ATF and the OCDETF 
strike force in Phoenix.''
    He added, ``there's been reports that deputy attorney--the 
department attorney general's office was aware of the 
techniques being employed in Fast and Furious; that's just 
not--that's not the case, because I certainly didn't brief them 
on the techniques being employed.''
    Third, although these tactics may not have originated in 
headquarters of ATF or the Justice Department, the evidence 
before the committee indicates that after receiving briefings 
in March 2010, Deputy Director Hoover and other senior ATF 
officials became seriously concerned about the number of 
weapons being trafficked by the suspects. As a result, Deputy 
Director Hoover ordered an exit strategy, those are his words, 
to close the case and seek indictments within 90 days.
    Although this exit strategy was developed, there were no 
indictments until this past January. One question I hope to 
explore today is why it took nearly 10 months, from March 2010 
to January 2011, to close this operation and bring indictments.
    Finally, nearly all of the officials interviewed by the 
committee strongly supported additional law enforcement tools 
to combat the flood of high-powered military grade assault 
weapons from the United States into Mexico. Mexico is our 
neighbor, our ally and our friend; yet U.S. weapons are arming 
the world's most violent and powerful international drug 
cartels, costing the lives of 40,000 Mexicans in the last 4--5 
years.
    While I will continue to work with Chairman Issa to 
investigate the facts of Operation Fast and Furious, we must 
also examine opportunities for reform. And I look forward to, 
again, following the evidence where it may lead.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T2802.003

[GRAPHIC] [TIFF OMITTED] T2802.004

    Chairman Issa. I thank the ranking member.
    All Members will have 7 days to submit opening statements 
and extraneous material for the record.
    We now recognize our first panel of witnesses. Darren Gil 
is a former ATF attache in Mexico. Jose Wall is ATF Senior 
Special Agent in Tijuana, Mexico. Carlos Canino--I'll get 
better in time--is the ATF acting attache in Mexico. Lorren 
Leadmon is the ATF team leader, Field Intelligence Support Team 
Southwest Border. William Newell is the former ATF Special 
Agent in Charge of the Phoenix Field Division. And William 
McMahon is the ATF Deputy Assistant Director For Field 
Operations West.
    And I apologize, as usual, for never getting names quite 
right.
    Pursuant to the rules of this committee, all witnesses must 
be sworn.
    Would you please rise and raise your right hands to take 
the oath?
    [Witnesses sworn.]
    Chairman Issa. Let the record reflect that all witnesses 
answered in the affirmative.
    Thank you. Please be seated. Now, even for this committee, 
this is a large panel, so if each of you take 5 minutes, we 
have 30 minutes. If you take more than 5 minutes, the guy next 
to you will also take more than 5 minutes. So, please, observe 
the green, yellow and red light. Realize that any official 
material or even additional material you choose to submit will 
be put into the record. So you can provide us what is exactly 
in your opening statement, which often happens, read in a 
verbatim way, or you can summarize and get it all done in 5 
minutes or less. It is your choice. And I appreciate your 
staying within the time so that we can have maximum time for 
questions.
    Mr. Gil.

 STATEMENTS OF DARREN GIL, FORMER ATF ATTACHE TO MEXICO; JOSE 
WALL, ATF SENIOR SPECIAL AGENT, TIJUANA, MEXICO; CARLOS CANINO, 
ATF ACTING ATTACHE IN MEXICO; LORREN LEADMON, ATF INTELLIGENCE 
OPERATIONS SPECIALIST; WILLIAM NEWELL, FORMER ATF SPECIAL AGENT 
  IN CHARGE, PHOENIX FIELD DIVISION; AND WILLIAM MCMAHON, ATF 
DEPUTY ASSISTANT DIRECTOR FOR FIELD OPERATIONS WEST, INCLUDING 
                       PHOENIX AND MEXICO

                    STATEMENT OF DARREN GIL

    Mr. Gil. Thank you, Chairman Issa, Ranking Member Cummings 
and----
    Chairman Issa. You're going to have to pull the mic close. 
They're deliberately designed to be somewhat insensitive, so 
you almost have to kiss them to make them work.
    Mr. Gil. Very well. Well, thank you again for inviting me 
to the conference hearing this morning.
    First, I offer my sincere condolences to the families of 
agents Brian Terry and Jaime Zapata. I'm deeply sorry for their 
loss and for the grief that this ill-conceived operation may 
have caused.
    Also, I thank ICE Special Agent Victor Avila for his 
services and sacrifices in fighting the narco-violence in 
Mexico and along the border. I can only imagine the horror of 
helplessly watching a brother law enforcement officer die in 
the line of duty.
    As a former head of ATF in Mexico, I also would like to 
apologize to my former Mexican law enforcement counterparts and 
to the people of Mexico for Fast and Furious. I hope they 
understand it was kept secret from me and my colleagues.
    Unfortunately, as a result of this operation, it is the 
Mexican people who will continue to suffer the consequences of 
narco related firearms violence. I have no doubt, as recent 
media reports have indicated, that American citizens will also 
face more firearms related violence as a result of this 
operation.
    I would like to provide the committee with a brief 
description of my background. I received a bachelor's degree in 
criminology from the University of Maryland, a master's degree 
in criminal justice from the University of Alabama and am 
currently completing my dissertation at the University of 
Southern Mississippi focusing on international affairs and 
security studies.
    I've been in service to our Nation since my enlistment in 
the U.S. Army in 1980. After service in the Army I joined the 
Las Vegas Metropolitan Police Department and later received my 
commission as an ATF Special Agent in 1987. I then served for 
23 years in various positions in ATF, including intelligence 
and assignments and as attache to Mexico, until I recently 
retired.
    I chose ATF because it was a small organization with a 
focused mission, combatting the most violent offenders in 
America. During my first 12 years as a field agent, I 
participated in or directed investigations that targeted the 
worst of the worst. For the remainder of my career, I 
supervised, managed and led agents who conducted similar 
investigations.
    Throughout my career, not once never did firearms walk from 
any investigations I directed or fell under my command. This 
includes my services as ATF attache in Mexico. To put it 
bluntly, it is inconceivable in my mind or the mind of any 
competent ATF agent to allow firearms to disappear at all. 
Furthermore, it is even more inconceivable that a competent 
agent would allow firearms to cross an international border 
knowing that they are destined for the worst of the worst 
criminals in the Western Hemisphere.
    I recall my first days at the ATF academy where it was 
drilled into us that under no circumstances would any firearms 
in any investigation leave the control of ATF. Instructors 
stressed that even if a weapon was lost by accident, the agent 
was still subject to termination.
    My point is that ATF agents don't allow and ATF as an 
organization has not tolerated firearms to disappear. Yet 
apparently that happened here.
    After retiring from ATF, I started receiving inquiries from 
former colleagues, including Special Agents Vince Cefalu and 
Jay Dobyns, as well as from the press. They all wanted to know 
whether I was aware that ATF had allowed firearms to walk into 
Mexico. I advised my former colleagues that I was not aware but 
I refused to speak to the media without a complete 
understanding of the issue.
    After talking with several agents, I became convinced that 
firearms might have been walking to Mexico by ATF. Thankfully, 
Congress and the media continued to investigate, and Fast and 
Furious began to receive greater notoriety. Nonetheless I 
remained reluctant to speak out about what I had come to 
suspect since retiring from ATF but was never told about this 
operation.
    When I later learned that ATF executive staff would not 
make statements exonerating my former staff in Mexico of any 
knowledge of the gun walking aspects of this operation, only 
then did I decide to speak to the press. My understanding is 
that my initial interview with Sharyl Atkinson of CBS News did 
have some calming effect on relations between the Mexico 
government and ATF personnel in Mexico. To this day, I do not 
understand the failure of ATF executive staff to provide their 
own support in this matter to their personnel in Mexico.
    During dissertation research, I came across a study 
entitled ``The Waco, Texas, ATF Raid and Challenger Launch 
Decision: Management, Judgment and the Knowledge Analytic.'' 
The paper's title could have been substituted ``Operation Fast 
and Furious'' for ``Waco, Texas, ATF Raid,'' and the 
conclusions would have been the same, namely poor management, 
poor judgment and poor leadership resulted in disaster.
    Operation Fast and Furious is indeed a disaster. I'm here 
today to answer the committee's questions, but I also have a 
few questions of my own. For example, who actually presented 
this operation for implementation? What was the objective? My 
staff was already working with Mexico in tracing thousands of 
firearms recovered from crime scenes. Why the need to introduce 
even more firearms into a country that is seized by narco-
violence? Why did ATF leadership fail to exercise oversight of 
this disaster? And why were ATF personnel in Mexico kept in the 
dark from this operation, which has now imperiled trust and 
cooperation between United States and Mexican law enforcement 
at a time when trust and cooperation is more essential than 
ever?
    During my tenure in Mexico, I observed firsthand the 
extraordinary changes occurring there. The heads of the 
agencies leading these changes are some of the bravest people I 
ever met. As a result of their leadership, they have become 
targets of Mexican drug organizations. I find it grotesquely 
ironic that as a representative of U.S. law enforcement in 
Mexico, my staff and I were asked to expose ourselves and our 
families to the same sort of risks while speaking to our 
American counterparts of integrity, rule of law, honor and duty 
in policing. Meanwhile, members of our own ATF and Department 
of Justice, for whatever reason, appear to have refused to 
follow the same principles.
    As a career Special Agent, I believe in the mission of 
people of ATF. The men and women of ATF go to work every day 
with a strong sense of duty. I hope that once all the facts are 
known about this operation, that ATF will emerge a stronger, 
more effective organization, focused on its core mission, 
taking the worst of the worst armed violent offenders off the 
streets.
    Thank you, Mr. Chairman and members of the committee. I'll 
be happy to answer your questions.
    [The prepared statement of Mr. Gil follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.058
    
    [GRAPHIC] [TIFF OMITTED] T2802.059
    
    [GRAPHIC] [TIFF OMITTED] T2802.060
    
    [GRAPHIC] [TIFF OMITTED] T2802.061
    
    [GRAPHIC] [TIFF OMITTED] T2802.062
    
    Chairman Issa. Thank you.
    Mr. Wall.

                     STATEMENT OF JOSE WALL

    Mr. Wall. Thank you, Chairman Issa, Ranking Member Cummings 
and members of the committee for inviting me to speak today.
    I am saddened by the circumstances that bring me here 
today. As an employee of ATF, I know that this situation is an 
anomaly and not reflective of the good work that ATF does in 
the service of this country. And I am hopeful that this process 
will shed light on what has occurred so that we in ATF do not 
have to travel down this path again.
    This year marks my 26th year of Federal service and my 19th 
as an ATF Special Agent. During my years as an ATF Special 
Agent, I have been involved in hundreds of firearms trafficking 
investigations. These investigations date back to the early 
1990's. I have seen firearms trafficked internationally from 
the United States to countries as diverse as the Netherlands, 
Canada and Macau. These international investigations were as 
unique as the places to where the guns were going. However, one 
aspect shared by most of these investigations was the fact that 
most international gun trafficking is being done in the 
interest of organized crime.
    In late 2007, I became the border liaison officer for the 
Phoenix Field Division. My duties allowed me to develop a 
working relationship with Mexican authorities and to travel 
into Mexico to examine guns or meet with officials. It was at 
this time that the struggle against the drug trafficking 
cartels was started by the government of Mexico. Large scale 
gun battles and murder became a daily occurrence in Mexico.
    To me and other agents, it became apparent that the level 
of firepower being used was more than we had ever seen. As the 
level of firearms trafficking increased, we in the Phoenix 
Field Division realized that this was an arms race between the 
various cartels, an arms race that could very well determine 
the future of Mexico and tremendously impact our own country's 
future.
    Phoenix agents initiated many good investigations during 
this time. These investigations served to disrupt the 
trafficking of guns and prevented them from reaching Mexico, 
but the urgency displayed by the agents in stopping these gun 
traffickers was not apparent in the prosecution of these cases. 
As we saw, some of our best trafficking cases languish at the 
U.S. Attorney's Office.
    In an effort to do more against this tide of weapons, in 
the fall of 2009, I transferred to the newly opened ATF field 
office in Tijuana, Mexico. There I worked closely with ATF and 
other agents. I also traveled to some of the most heavily 
fought for areas in Mexico. In these contested areas I examined 
hundreds of firearms. Among these, I examined some that can now 
be traced to the Fast and Furious investigation.
    The majority of these firearms had been seized from 
criminals engaged in drug trafficking, kidnapping, extortion 
and other crimes. Having firsthand knowledge of the reality in 
Mexico, I was skeptical when the first whistleblower came to 
this committee with allegations of hundreds, maybe thousands of 
guns being allowed to walk into the country of Mexico. I could 
not believe that someone in ATF would so callously let firearms 
wind up in the hands of criminals, but it appears that I was 
wrong, that hundreds and quite possibly thousands of guns have 
been allowed to reach the hands of organized crime in Mexico, 
and that this activity has seemingly been approved by our own 
Justice Department and ATF management in the misguided hope of 
catching the big fish.
    Having had enough experience with gun trafficking 
investigations, I can only imagine that once the DOJ OIG report 
was released, a report that was critical of ATF efforts in 
stopping gun trafficking, the emphasis changed to following the 
food chain up to the leaders. What the persons approving this 
debacle failed to realize is that the end does not justify the 
means.
    These firearms that are now in the hands of people who have 
no regard for human life pose a threat to all of us, a threat 
to which none of us is immune. I am especially concerned for 
the brave law enforcement officers and military in Mexico and 
here in the United States. I fear these firearms will continue 
to exact a terrible toll long after these hearings are over.
    Finally, I have a request of this committee that the 
serious problem of gun trafficking not be forgotten. I don't 
believe we need another toothless law. What we need is vigorous 
enforcement and prosecution of those that would traffic in 
firearms. A policy of no tolerance for straw purchasers and a 
change in the sentencing guidelines that would dictate 
mandatory sentences for these crimes would go a long way in 
curbing this criminal activity. I thank you.
    [The prepared statement of Mr. Wall follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.063
    
    [GRAPHIC] [TIFF OMITTED] T2802.064
    
    [GRAPHIC] [TIFF OMITTED] T2802.065
    
    Chairman Issa. Thank you.
    Special Agent Canino.

                   STATEMENT OF CARLOS CANINO

    Mr. Canino. Thank you, Chairman Issa, Ranking Member 
Cummings and members of the committee for inviting me to speak 
today. I want to thank you for taking the time and effort to 
visit Mexico last month to get a boots-on-the-ground 
perspective.
    On behalf of Charge' John Feeley, I want to convey his deep 
appreciation for your interest in Mexico and U.S.-Mexico 
relations. I'm not here today to lay blame, point the finger or 
assign punishment; that will be for others to determine. I am 
simply here to discuss these events as I know them and let the 
committee and the American people know what the ATF Mexico 
Country Office, referred to as the MCO, knew and when we knew 
it.
    During my 22 year career with ATF, I proudly spent 15 years 
as a street agent investigating violent crime and gun 
trafficking and the last 7 supervising others doing the same. 
I'm a recipient of the U.S. Attorney General's Award for 
Excellent Law Enforcement, two ATF Distinguished Service Medals 
and two Medals of Valor. I mention this not to boast but to 
illustrate my recognized dedication to ATF and public service. 
I paid my dues.
    I can say with authority that walking guns is not a 
recognized ATF investigative technique. These guns went to 
ruthless criminals. U.S. law enforcement and our Mexican 
partners will be recovering these guns for a long time to come 
as they continue to turn up at crime scenes in Mexico and the 
United States. It infuriates me that people, including my law 
enforcement, diplomatic and military colleagues, may be killed 
or injured with these weapons.
    In my professional opinion, this investigative strategy was 
flawed. It was allowed to continue due to ineffective oversight 
in the Phoenix Field Division and possibly beyond. It's alleged 
that over 2,000 guns were trafficked in this investigation. To 
put that in context, upon information and belief the U.S. Army 
75th Ranger Regiment has approximately 2,500 rangers. That 
means that as a result of this investigation, the Sinaloa 
cartel may have received almost as many guns that are needed to 
arm the entire regiment. Under these 2,000 weapons, 34 were 
.50-caliber sniper rifles. That is approximately the number of 
sniper rifles a Marine infantry regiment takes into battle; 
that's 3,000 men.
    For the MCO, this case is one of the many ATF traffic 
investigations with a U.S.-Mexico nexus. I would like to inform 
this committee and the American public that I believe what 
happened here was inexcusable and we in Mexico had no part in 
it. We were aware of this investigation, but we were never 
aware of the policy to walk guns in this investigation.
    Since these questions have surfaced, I have become aware 
that critical details were deliberately kept from the MCO as 
well as ATF's Office of Strategic Intelligence. I have reason 
to believe that we were kept in the dark because the ATF 
leadership in Phoenix feared that we would tell our Mexican 
partners.
    Reasonable people can disagree on investigative techniques, 
but there is no room for walking guns. This goes against 
everything we are taught at ATF. And I hope the committee gets 
to the bottom of these allegations.
    In Mexico, ATF has been doing great work, and I'm proud of 
our efforts in combatting violent crime with our Mexican 
counterparts. The whole point of law enforcement mission in 
Mexico is to liaise with Mexican government officials and 
support their efforts to combat the transnational organized 
crime that plagues both our countries and threatens the 
security of our people. These allegations stemming from this 
case that a few ATF agents and supervisors deliberately allowed 
guns to walk have destroyed ATF's credibility with our Mexican 
law enforcement partners and the Mexican public.
    As this committee knows, Mexico is plagued by terrible 
violence. Time and again, my Mexican counterparts blame the 
United States for contributing to that violence. But paramount 
to ATF, they blame us for an uncontrolled flow of weapons that 
end up in the hands of Mexican criminals.
    I do not endorse the view of the Mexican government that 
American indifference is responsible for the violence and 
deaths. I make mention of it because it is what I hear on a 
daily basis in my dealings with my Mexican colleagues. However, 
in this particular case, with these specific guns, I'm unable 
to defend this position.
    This case has made my life more difficult for me 
personally. Imagine my shame when my mother called me on the 
telephone and said, please tell me you weren't involved in 
this. My mother is a very wise person. She may not know much 
about law enforcement, but she knows right from wrong. Even at 
great risk--even at great distance, she could see that walking 
guns was a terrible risk.
    The public safety must always come first. Please remember, 
regardless of good intentions, walking guns will never be 
right.
    The ATF rank and file know this, and we have not been given 
a satisfactory explanation for what happened. So what I would 
like to say to my ATF colleagues is simply this: Stand tall. 
Hold your heads high. We work for a great agency. Look around, 
because there are heroes at ATF. We do not quit. We will not 
lie down. We will continue to honor our commitment to each 
other and to the public.
    I thank you for your time, and I welcome any questions the 
committee may have.
    [The prepared statement of Mr. Canino follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.066
    
    [GRAPHIC] [TIFF OMITTED] T2802.067
    
    [GRAPHIC] [TIFF OMITTED] T2802.068
    
    [GRAPHIC] [TIFF OMITTED] T2802.069
    
    [GRAPHIC] [TIFF OMITTED] T2802.070
    
    Chairman Issa. Thank you.
    Mr. Leadmon.

                  STATEMENT OF LORREN LEADMON

    Mr. Leadmon. Good morning, Chairman Issa, Ranking Member 
Cummings and designated--excuse me, distinguished members of 
the committee.
    My name is Lorren Leadmon, and I'm honored that you've 
summoned me here today to serve as a witness for the citizens 
of the United States. I'm an intelligence operation specialist 
with the Bureau of Alcohol, Tobacco, Firearms and Explosives 
and a law enforcement veteran with 40 years of dedicated 
service.
    I'm appearing before you today with a heavy heart, laden 
with sorrow, to provide this committee with testimony that I 
hope will prove to be useful.
    First, I would like to express my grief by extending a 
sincere apology on behalf of myself and likeminded ATF 
colleagues to the family of Border Patrol Agent Brian Terry.
    Likewise, I offer an apologize to all Mexican law 
enforcement officers and military personnel placed in harm's 
way while confronting the violent criminals armed by the 
targets and their associates in the Fast and Furious 
investigation.
    I started my employment with ATF in December 2004 in the 
Office of Strategic Intelligence and Information. I was 
designated to support ATF's Project Gunrunner from the 
inception of the initiative in April 2005. In July 2008, I 
became the team leader of the newly established Field 
Intelligence Support Team For the Southwest Border. The team 
works in partnership daily with OSII personnel assigned to the 
El Paso Intelligence Center and ATF personnel working in 
Mexico.
    Each of the partners work toward a common goal to determine 
the location and circumstances surrounding firearms recovered 
throughout Mexico, identifying the criminal element associated 
with the firearms, collecting intelligence pertaining to the 
criminal elements and ensuring the firearms are traced. The 
team coordinates the information with case agents and the field 
intelligence groups. A major function of the team is to 
identify the firearms trafficking trends and patterns and to 
establish links between firearms trafficking cases and seizure 
events in Mexico.
    The team is dedicated to ATF's strategic mission as set 
forth in the 2007 Project Gunrunner Southwest Border Initiative 
Report that is summarized as follows: Working with its domestic 
and international law enforcement partners ATF will deny the 
tools of the trade to the firearms trafficking infrastructure 
of the criminal organizations operating in Mexico through 
proactive enforcements of its jurisdictional areas in the 
affected border States in the domestic front, as well as 
through assistance and cooperative interaction with the Mexican 
authorities in their fight to effectively deal with the 
increased violent crime.
    The report had the following strategic outcome: Suppression 
of the firearms and explosives related violence occurring on 
both sides of the border through effective law enforcement 
collaboration involving the focused training, investigation and 
interdiction of the illicit trafficking and illegal use of 
firearms, explosives and ammunition.
    The Southwest Border Team first learned of the Fast and 
Furious investigation November 20, 2009. I had located the 
seizure event in Sonora. The Mexican authorities had recovered 
42 guns from two transporters in a vehicle that just crossed 
the border from Arizona. With the assistance of the U.S. 
Immigration and Customs Enforcement, I was able to obtain the 
information on the firearms, submit traces, and the results of 
the--ascertain the results of the investigation.
    From those firearms, there were 37 that related back to the 
Fast and Furious investigation. And the information--this 
information became the foundation for the fact that all the 
firearms obtained in the Operation Fast and Furious 
investigation were potential crime guns and murder weapons 
predestined to be utilized by outlaws and assassins affiliated 
with a violent criminal organization in Mexico.
    In the months leading up to February 2010, the Fast and 
Furious purchasers were buying the types of firearms preferred 
by drug trafficking organizations in record numbers. By this 
time, they had purchased over 1,000 firearms and some of the 
purchases were procuring them in lots of 10 to 20 at a time. At 
the same time, approximately 200 firearms in this investigation 
were recovered in the United States and Mexico.
    The types of firearms and the volumes of the purchases, the 
seizures and circumstances surrounding the seizures, along with 
the information provided by our law enforcement partners fully 
corroborated the fact that these firearms were being acquired 
by a violent criminal organization in Mexico.
    In December 2009, I began--to the beginning of March 2010, 
I conducted numerous briefings on the investigation with the 
ATF senior management staff in headquarters. During each 
briefing, I provided detailed information depicting the 
progression of the acquisition of firearms and described the 
location, number, type and identity of the purchaser for each 
firearm recovered.
    I provided the briefing to acting director--the acting 
director in the first part of 2009 concerning firearms 
trafficking to Mexico in which he was briefed on the upstart of 
the Fast and Furious investigation. He later attended one of 
the field operations briefings in the first part of January. In 
March 2010, I conducted a video conference briefing with the 
managing officials from the four ATF border divisions; an 
attorney from the Department of Justice and every one of the 
ATF senior management staff, except for the acting director.
    With the assistance of the group supervisor in charge of 
the Fast and Furious investigation, I provided a briefing 
outlining the amount of firearms purchased and the expenditures 
up to the end of February along with the number of firearms 
seized and seizure locations. The totals briefed were the same 
as previously stated here. The issue of the firearms not being 
seized by the case agents was brought up briefly and discussed. 
From this point on----
    Chairman Issa. If you could summarize, the rest will be 
placed in the record.
    Mr. Leadmon. All right. So, basically, what we are talking 
about is by the end of it, we had the 2,000 guns. To date, 
there's about 590 that have been recovered; 363 in the United 
States; 227 in Mexico. And they're still coming.
    I would just like to say at the end here, the strategy of 
the Fast and Furious investigation did not take into account 
the public safety of the citizens of the United States and 
Mexico and blindly concentrated only on the goals of the 
investigation. The blatant disregard for public safety has had 
tragic consequences that will continue in the unforeseen 
future. And the rest of my testimony you can see.
    [The prepared statement of Mr. Leadmon follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.071
    
    [GRAPHIC] [TIFF OMITTED] T2802.072
    
    [GRAPHIC] [TIFF OMITTED] T2802.073
    
    [GRAPHIC] [TIFF OMITTED] T2802.074
    
    Chairman Issa. I thank you very much.
    Special Agent Newell.

                  STATEMENT OF WILLIAM NEWELL

    Mr. Newell. Thank you, Mr. Chairman.
    Chairman Issa, Representative Cummings and distinguished 
members of the committee, I am William Newell of the Bureau of 
Alcohol, Tobacco, Firearms and Explosives. As a former Special 
Agent in charge of the Bureau's Phoenix Field Division from 
June 2006 to May of this year, I oversaw ATF operations in the 
States of Arizona and New Mexico, which includes 552 miles of 
the U.S.-Mexico border.
    I appear before you today to discuss ATF's Operation Fast 
and Furious, an ongoing and active OCDETF strike force 
investigation of a large-scale firearms trafficking 
organization. For the past 23 years, I fully dedicated myself 
to confronting violent crime, especially firearms related 
violent crime along the Southwest border.
    Having served 15 of these years along the Southwest border 
combatting firearms trafficking, I am keenly aware that this 
violence, fueled largely by Mexico's drug cartels, poses a 
serious challenge for U.S. law enforcement--United States and 
Mexican law enforcement, threatens the safety of innocent 
civilians and law enforcement personnel on both sides of the 
border.
    At the conclusion of every investigation of this magnitude, 
a thorough review is appropriate in order to determine whether 
tactics--whether changes in tactics and strategy are in order. 
With that in mind, I recognize that in this case and future 
large-scale investigations, it is imperative that there exists 
an effective flow of information between the field and 
headquarters elements to ensure that critical investigative 
information is being shared timely.
    Second, in retrospect, in a case of this magnitude it is 
incumbent upon me to communicate a greater sense of urgency to 
my staff and the U.S. Attorney's Office as to the need for the 
return of expeditious charges.
    Finally, I now recognize that in these types of 
investigations, more frequent risk assessments would be 
prudent. Firearms trafficking investigations are not always 
easy to conduct for a variety of reasons, including a lack of a 
Federal statute that specifically prohibits firearms 
trafficking related activity, the fact that firearms, unless 
altered in some way, are not in and of themselves contraband, a 
lack of adequate punishment for straw purchasers, thus 
impacting our ability to identify the leadership of the 
criminal organization and the limited resources at our 
disposal.
    These types of investigations are made even more 
challenging when none of the individuals in the firearms 
trafficking chain are presumptively prohibited by law 
possessing firearms. Consequently, in order to identify and 
investigate the responsible higher-level individuals, agents 
must use a wide variety of investigative techniques. This can 
take time and considerable effort.
    Throughout this case conscientious and dedicated agents 
pursued numerous leads in order to determine who the 
decisionmakers of this organization were in an effort to get 
beyond the straw purchasers and thus potentially disrupt and 
dismantle the entire organization.
    Through experience, we have learned that the arrest and 
prosecution of straw purchasers alone does little to frustrate 
the capacity of the Mexican cartels to continuously obtain 
firearms, as new straw purchasers are easily recruited to 
replace those arrested and continue the cycle of purchasing 
firearms.
    Finally, our conduct of this investigation, as with any 
large scale OCDETF investigation, was coordinated with ATF's 
supervisor at headquarters in Washington, DC, and with Federal 
firearms prosecutors at the Phoenix U.S. Attorney's Office.
    In October 2009, the Department of Justice proposed a 
Southwest border strategy to combat Mexican cartels, which was 
finalized in January 2010 and which outlined successful 
strategies related to the identification, disruption and 
dismantlement of Mexican cartels through comprehensive multi-
agency criminal enforcement operations with an emphasis on 
impacting the leadership and command structure of such 
organizations in order to have a substantial and sustained 
impact.
    The DOJ strategy recognized the ineffectiveness of merely 
interdicting weapons absent identifying and eliminating the 
sources and networks responsible for transporting them. It was 
with this guidance in mind that Operation Fast and Furious 
originated.
    To be clear, Fast and Furious was a no-step operation 
designed to, one, identify the purchasers, financiers, 
transporters and decisionmakers in a Mexican cartel-based 
firearms trafficking organization; two, to interdict, when 
lawfully possible, firearms presumptively destined for Mexico; 
three, to share, when appropriate, relevant information with 
United States and Mexican law enforcement authorities; four, to 
develop intelligence on other firearms trafficking 
organizations; and five, to charge, arrest and dismantle the 
entire organization.
    In this regard, there are some key points I would like to 
make. One, it was not the purpose of the investigation to 
permit the transportation of firearms into Mexico, and to the 
best of my knowledge, none of the suspects in this case were 
ever witnessed by agents crossing the border with firearms.
    Two, our agents, in compliance with ATF policy, were 
engaged in the strategic effort to determine who the 
decisionmakers and actual purchasers of the firearms were in 
order to disrupt the entire criminal organization. The 
effectiveness of this strategy has been recognized by the 
Department of Justice Office of Inspector General in a review--
in their review of Operation Gunrunner.
    Three, we attempted to be innovative in tracking and 
seizing firearms purchased by the suspected straw buyers. Four, 
when appropriate during the investigation, we made reasonable 
effort to share and coordinate the relevant investigative 
details to our Mexican law enforcement counterparts.
    Finally, throughout my past 23 years in law enforcement, I 
have lost some very good friends to firearms related violent 
crime. I witnessed firsthand the grief and despair suffered by 
families who have lost loved ones in the law enforcement 
profession. That is why I take very seriously my responsibility 
and dedicated myself to doing everything within my authority to 
confront and curtail these criminal organizations that would 
seek to do harm to my peers and innocent civilians. I did not 
discard that responsibility in the conduct of this 
investigation.
    The death of Border Patrol Agent Brian Terry is one I will 
mourn for the rest of my life, as I do for all those brave 
heroes who have taken up the badge to serve and protect and 
then made the ultimate sacrifice.
    I express my deepest condolences to the Terry family and 
may our Heavenly Father bless him and the Terry family through 
this very difficult time.
    Distinguished Members, I now stand ready to answer your 
questions, and thank you for the opportunity to make this 
opening statement.
    [The prepared statement of Mr. Newell follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.075
    
    [GRAPHIC] [TIFF OMITTED] T2802.076
    
    [GRAPHIC] [TIFF OMITTED] T2802.077
    
    [GRAPHIC] [TIFF OMITTED] T2802.078
    
    [GRAPHIC] [TIFF OMITTED] T2802.079
    
    [GRAPHIC] [TIFF OMITTED] T2802.080
    
    Chairman Issa. Thank you.
    Special Agent McMahon.

                  STATEMENT OF WILLIAM MCMAHON

    Mr. McMahon. Good morning, Mr. Chairman, Ranking Member 
Cummings, and distinguished members of the committee.
    I am Bill McMahon, deputy assistant director, Office of 
Field Operations for of Bureau of Alcohol, Tobacco and Firearms 
and Explosives. Thank you for inviting me to this important 
hearing.
    Let me be clear from the onset, as the ATF senior executive 
in charge of the West Region, I share responsibility for 
mistakes that were made in the Fast and Furious investigation. 
The advantage of hindsight, the benefit of a thorough review of 
the case clearly points me to things that I would have done 
differently. However good our intentions, regardless of our 
resource challenges, and notwithstanding the legal hurdles we 
face in fighting firearms traffickers, we made mistakes.
    But know that I am very proud of the men and women who 
risked their lives investigating this case. Under tremendous 
pressure, they continue to work this case and many others we 
have in the American Southwest. Please do not let our failings 
impact their noble deeds.
    Mr. Chairman, I was the Assistant Special Agent in charge 
of New York City on September 11, 2001. Our offices were in the 
World Trade Center. I have witnessed great human suffering 
brought to bear by those to whom violence is a stock and trade. 
This is one of the reasons I was so committed to bringing down 
the complex network of criminals operating in our homeland and 
bringing violence on both sides of the southern border. But in 
our zeal to do so and in the heat of battle, mistakes were 
made, and for that, I apologize.
    Mr. Chairman, I am no stranger to the great and ultimate 
sacrifices made by my fellow law enforcement officers. I have 
lost friends in the line of duty, whether it was in the rubble 
of the World Trade Center, on the streets of our communities, 
or in the desert Southwest. Nothing hurts more than losing a 
fellow law enforcement officer in the line of duty.
    With that in mind, I want to express my sincere condolences 
to the Terry family. And while the investigation into his 
tragic murder remains ongoing, and because of this, I may not 
be able to comment on that investigation, please know that I 
honor his great sacrifice, and I am truly sorry for his 
family's loss.
    With that in mind, I appear before you today of my own free 
will to answer to the best of my ability questions you have 
regarding this operation and my role in it. Thank you.
    [The prepared statement of Mr. McMahon follows:]
    [GRAPHIC] [TIFF OMITTED] T2802.081
    
    Chairman Issa. Thank you all.
    Before we begin, I have been made aware that all of you, or 
presumably all of you, received from the Department of Justice 
counsel a letter that speaks specifically to your testimony 
here today, and it's from Barry S. Orlow. Did all of you 
receive that letter?
    Mr. Gil. No, sir.
    Chairman Issa. You did not?
    Mr. Gil. No, I did not.
    Mr. McMahon. No, sir. Those letters were only issued to 
people that were actually under subpoena. And that is normal 
for any case we have agents that are under subpoena by defense 
or others.
    Chairman Issa. Okay.
    I want to make some clarifications. The letter infers that 
you may not be able to answer certain questions here today. And 
I want to make sure it is clear that where it says, for 
example, you may not reveal any information covered by Rule 
6(e) of the Federal Rules of Criminal Procedure related to a 
manner that occurred before a Grand Jury, and it goes on, up 
and above.
    Now, we have a former 20-year defense attorney to my right. 
We have a former prosecutor in Mr. Gowdy down below; Mr. 
Meehan, a former U.S. attorney; and a number of other people 
who have worked before they came here in law enforcement. I am 
asking all of them, if a question occurs from any of us that 
clearly would lead to something believed to involve 
compromising the ongoing investigation or the actual chances of 
convicting somebody, that we take a pause. I am not beyond 
that.
    If you believe, any of you, that you are asked a question 
that in this format would, by it being open to the public, 
would compromise the ability to convict any of the 20 people 
now charged or others who you reasonably believe will be 
charged, I want you to take a pause.
    On the other hand, I want you to understand, every question 
we ask, you are compelled to answer, unless you assert your 
Fifth Amendment rights. There is no executive order or 
executive branch decision that can stop us from compelling that 
answer.
    If you believe that you are protecting the ability to reach 
convictions or to save somebody who is undercover in any other 
way would be harmed by your giving an answer in open hearing, I 
want you to assert that we need to be in executive session.
    The committee can go to executive session at any time by a 
simple vote of the committee or concurrence of the chairman and 
ranking member. We probably will not go to executive session at 
that moment but would pend that question until the end.
    So understand our intention is to be very clear. We know 
that in fact the cartels continue to operate. We do not want to 
have material here unreasonably disclosed.
    I want to make one other thing clear before we start, and 
then I will recognize the ranking member. This committee has 
been made aware that there were wiretaps in this Fast and 
Furious investigation. That was not by the Justice Department 
turning over material required by subpoena. We will not be 
going into the details of any subpoena in our questioning, and 
we do look forward to Justice providing the subpoenaed material 
in a timely fashion they have not yet done.
    But again, those are under seal. So their existence, which 
was obtained and has been fairly widely understood, is no 
longer under seal. But the details of those at this point, 
including Kenneth Melson's statement that when he read the 
details, he was sick to his stomach, is as far as we are going 
to go on the details of wiretap at this time.
    This hearing is about our relations with Mexico, what they 
knew in Mexico, what they didn't know, how the agency did or 
didn't communicate.
    That doesn't mean that we may not want other information 
from you in due time, but I think we want to be very careful 
that today we have no reason to go into some of these areas, 
and so we are going to avoid them.
    With that, if the ranking member has any comments.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Just some clarifying items. First of all, Mr. Chairman, I 
want to thank you for what you just said.
    I think that is a very balanced approach to take, and we 
are all concerned about ongoing investigations and putting 
people in jeopardy that should not be as a result of our 
efforts here.
    But I just want to, there may be some things, Mr. Chairman, 
where, say, for example, these gentlemen may not even know that 
they are crossing a line. And I know that we are looking into 
the Justice Department. I have no problem with that.
    But if we have a situation where Justice, and I understand 
we have some Justice attorneys here, where they think that 
there may be a crossing of the line, is there a way that we can 
at least pause and just make sure that we are not crossing over 
into some territory, the very type of territory you are talking 
about?
    Chairman Issa. And I appreciate the gentleman's question.
    Although I want that very carefully and sparingly used, and 
the Justice is not an invited guest here today, if you believe 
that a line of questioning is going down that way, we will 
entertain a request from representatives of Justice.
    Again, this investigation is about Justice. It is about 
your bosses. We believe that in fact there are people culpable 
for what happened for the mistakes, as Special Agent McMahon 
said, the mistakes that were made, besides Special Agent 
McMahon, so we do intend to get to those errors and mistakes.
    But for the ranking member, absolutely, we want to make 
sure that if somebody inadvertently starts down a line of 
questioning, whether you see it, somebody from Justice brings 
this to our attention, Mr. Gowdy, who certainly understands 
what it takes to preserve a prosecution, Mr. Meehan or anyone 
else, that I want this to be a little bit like the quality 
control line on a Toyota production, anybody can pull the stop 
if you see a mistake about to happen.
    Now, that doesn't change the fact that this letter is a 
little out of line, and it may be boiler plate, but it implies 
that you don't have to answer. Yes, you do have to answer, but 
we will use executive session or another setting to get 
additional information so as to ensure that what we must do 
does not get in the way of what you all must do.
    Mr. Cummings. Mr. Chairman, just one other thing.
    Chairman Issa. Of course.
    Mr. Cummings. I was just looking at the expression, 
particularly of Special Agent McMahon.
    I want to make sure that they understand what you just 
said. I mean, can you inquire? Do you all understand what he 
just said? All right. Very well. I just want to make sure.
    Chairman Issa. And I use the English language so poorly 
that sometimes my wife does mention that perhaps just because I 
say what I mean doesn't mean that they can figure out what it 
means, too.
    But again, set it off at the right tone because this is 
important that we get to where we have to get to, but do it in 
a respectful way for the fact that there are lives at stake on 
both sides of the border of many of your brethren.
    I will now recognize myself for a line of questioning.
    Mr. McMahon, you said that you made mistakes, that people 
made mistakes. Would you like to give us just one of those 
mistakes?
    Mr. McMahon. Sure. Again, as I said, after a thorough 
review of everything after the fact, I do see that one of the 
mistakes that I made personally was maybe more thoroughly 
reviewing some of the documents that were coming across my desk 
on this case. And I think that has been brought out in my 
review, and it is something that I know will not happen again.
    Chairman Issa. Special Agent Newell, as recently as 
yesterday, you called this, you said, Fast and Furious is a 
phenomenal program. Now, it was, I hope not is. Do you stand by 
that?
    Mr. Newell. I am sorry, Mr. Chairman?
    Chairman Issa. This was quoted in the Washington Post. It 
came out yesterday, that, and they quoted you by name as having 
called this a phenomenal program. Do you think--did you at one 
time think and do you think today that Fast and Furious was a 
phenomenal program?
    Mr. Newell. Chairman, that quote, I don't know the date of 
that quote, it wasn't yesterday, it was--I am sorry.
    Chairman Issa. But it came out. Okay. Let me rephrase the 
question. This is back to my inability to work with the English 
language. Did you ever think that Fast and Furious was a 
phenomenal program?
    Mr. Newell. Well, Mr. Chairman, to answer your question, I 
believe that Fast and Furious was conceived with the idea of 
disrupting and dismantling an entire organization.
    Chairman Issa. But let's get into the details. Fast and 
Furious was at its heart about letting guns walk. Your agency 
knew that if you let guns leave--be bought by straw purchasers, 
who you knew in fact were straw purchasers, including two 
felons, and in the opening statement when people talk about 
people that had every right to buy them, felons at that moment 
that they bought them were criminals; they could have been 
stopped. They could have been arrested. There was an inherent 
crime. So at least in the case of two of the buyers, they were 
felons. They bought guns. They committed a crime by buying 
them. They were allowed to move on and eventually turn those 
weapons over to intermediaries who got them to the drug 
cartels. That was always part of the program. Do you think that 
that was in fact, whether you say phenomenal, do you think that 
that was a good idea?
    Mr. Newell. Well, Mr. Chairman, with all due respect, I am 
unaware of two felons involved in this case.
    Chairman Issa. I am informed they became felons during the 
pendency of the case, so I may not know the exact date. But 
let's go on beyond that.
    Even if they weren't felons, documents that we have seen 
provided by whistleblowers show that in fact all along in this 
program, you knew that the weapons purchased were destined for 
drug cartels. You knew all along that the weapons--that someone 
buying over 600 weapons was not buying them for sport hunting, 
especially 50 calibers. So do you, and my time is running lean 
on trying to get an answer, did you think it was a good 
program? It appears as though you thought it was a good program 
at some time.
    Mr. Newell. Sir, as I said in my statement, I acknowledge 
now that we did make some mistakes in this initiative, in this 
program.
    Chairman Issa. Okay. I think we all acknowledge that you 
are right on that.
    When I was in Mexico, I observed a lot of things. And, 
Special Agent Canino, my understanding, I was told in Mexico by 
a number of your colleagues--you were not there at the time--
that when they entered into the data base, into the trace data 
base Fast and Furious weapons, they got a system error. In 
other words, they didn't get a hit or a miss, they got a 
network error. Are you aware of that?
    Mr. Canino. Yes, sir.
    Chairman Issa. So when your agents, your Federal agents, 
with 20 or more years entered in the information that would 
have allowed them to contact a special agent in Phoenix, they 
did not get the information that would have allowed them to 
contact the special agent in Phoenix; isn't that correct?
    Mr. Canino. That's correct, sir.
    Chairman Issa. So you were blocked.
    Mr. Gil, and I have run over a lot of my time with the 
other questions, but for both you and Mr. Canino, if you had 
known about this program, were you or were you not obligated to 
tell the Ambassador?
    Mr. Gil. Sir, upon my arrival, I had discussions with the 
Ambassador about arms trafficking being the number one issue. 
The second call I would have made would have been on the 
Ambassador. The first call I would have made would have been 
directly to the Acting Director of ATF to find out exactly what 
this case was all about.
    Chairman Issa. So in my remaining time--and, Special Agent 
Wall, this would, of course, apply to Tijuana, too--if you are 
operating in a foreign nation as an American law enforcement 
individual, as a liaison invited on behalf of a government, not 
having law enforcement power in that country, don't you owe it 
to the Ambassador to keep him or her fully informed of anything 
you learn? Because you're not there to do law enforcement, 
you're there to help them do law enforcement through the 
embassy. So for all three of you, first three witnesses, isn't 
it reasonable to believe that one of the reasons that you were 
not told about Fast and Furious is had you been told, in 
addition to the Acting Director, the Ambassador and the rest of 
the State Department would have had to have been read into this 
program considering its magnitude?
    Mr. Canino. Sir, to follow what Darren said, we weren't 
aware of the technique that ATF agents were actually following 
known gun traffickers away and letting them go. That is insane. 
It was inconceivable. You would never think that because ATF 
does not do that. If I had known that that was, in fact, 
occurring, I would have called ATF headquarters. And if we did 
not get relief from them, we would have gone upstairs and told 
the Ambassador, and hopefully he would have been able to stop 
it.
    Chairman Issa. Thank you.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Gentlemen, from early on in this case, various ATF agents 
and officials raised concerns about the number of guns 
purchased by Fast and Furious suspects that were flowing from 
Arizona to Mexico. Mr. Leadmon, you testified in March 2010 
that you provided a detailed briefing about Fast and Furious to 
Acting Deputy Director Hoover, Assistant Director Chait, and 
several others; is that correct?
    Mr. Leadmon. Yes, sir.
    Mr. Cummings. Now, Mr. McMahon, after this March 2010 
briefing, Mr. Hoover directed the Phoenix field office to 
prepare an exit strategy to shut down the operation within 90 
days; is that correct?
    Mr. McMahon. That's correct, sir. We did ask for an exit 
strategy, a 30-60-90-day exit strategy.
    Mr. Cummings. And in his interview Mr. Hoover told the 
committee that this was the first time in his career he had 
ever asked for an exit strategy, but that he felt that he 
needed one because he was very concerned about the large number 
of guns being purchased by these suspects.
    Mr. McMahon, did you share Mr. Hoover's concern about the 
large number of weapons in this case with others?
    Mr. McMahon. Absolutely, sir. I think we were all concerned 
about the large number of case. But this magnitude of a case 
was something we had never encountered before in my career.
    Mr. Cummings. And did you ask Mr. Newell, Special Agent 
Newell, to provide with you an exit strategy?
    Mr. McMahon. I did, sir.
    Mr. Cummings. And when did the exit strategy envision 
indictments arriving?
    Mr. McMahon. We received the exit strategy, I believe, the 
end of March.
    Mr. Cummings. Of what year? Of 2010?
    Mr. McMahon. Of 2010, I am sorry. And we had a 30-60-90-day 
plan. If certain things were accomplished by 30 days, we would 
be able to seek an indictment. If certain things were 
accomplished by 60 days, we would obtain indictments. That sort 
of thing.
    Mr. Cummings. So you had more or less some sort of a time 
schedule; is that correct?
    Mr. McMahon. That's correct.
    Mr. Cummings. Were you following that schedule? In other 
words, were you checking back every 30 days, 60 days, whatever?
    Mr. McMahon. We were actually--I was checking back more 
than that. Bill and I were probably talking weekly about the 
activity of what was going on in the case and how much closer 
we were to completing our investigation.
    Mr. Cummings. Well, according to that strategy from the 
very beginning, what was the day that you expected, envisioned 
indictments arriving? You did it in March, what, 2010?
    Mr. McMahon. Correct. We were expecting indictments 
sometime in the summer of 2010.
    Mr. Cummings. Now, I want to understand why it took from 
March 2010, when Mr. Hoover ordered the operation to be shut 
down, until January 2011, when indictments were finally issued. 
Can you help with us that?
    Mr. McMahon. Well, again, we were working day to day with 
the U.S. Attorney's Office. And it is a partnership when you 
put a case like this together. And we thought we had enough. 
Obviously, we have to prove that to the prosecutors that we 
have enough, and that does take a little bit of extra time.
    Mr. Cummings. That was more than a little bit of extra 
time; was it not? I mean, you were talking initially, I guess, 
about the summer of 2010, and you end up January 2011. You're 
approaching a year as opposed to a few months. Is that right?
    Mr. McMahon. It was about 6 months, sir, yes.
    Mr. Cummings. Now, Mr. Newell, when did you eventually shut 
down ATF's investigative portion of this operation?
    Mr. Newell. Well, sir, the investigation is ongoing as we 
speak.
    Mr. Cummings. But at some point--I am talking about what we 
were just talking about, Special Agent Newell.
    Mr. Newell. Yes, sir.
    Mr. Cummings. There was a plan to shut this piece down, an 
exit strategy. And I am asking you to refer to what I just 
asked Special Agent McMahon, Mr. McMahon, about.
    Mr. Newell. Yes, sir.
    Mr. Cummings. What was the plan?
    Mr. Newell. The plan was end of July present to the U.S. 
Attorney's Office what we believed to be the evidence that we 
needed to secure the first round of indictments. And as the 
exit strategy said, the 30, 60, 90 days was not a firm, 
depending upon, you know, what type of investigative material 
or information we get, depending on each 30-60-90-day 
timeframe. So it was roughly about--I believe about mid-August 
when we felt that we presented to the U.S. Attorney's Office 
all the evidence we needed to secure the first round of 
indictments. So in essence we probably went over a couple of 
weeks.
    Mr. Cummings. So, I assume, Mr. McMahon, did you approve 
this going beyond the time period that you initially stated for 
the exit strategy? Is that right?
    Mr. McMahon. There was nothing to approve, sir. I was 
getting updates from Bill about his work with the U.S. 
Attorney's Office.
    Mr. Cummings. So basically if he said, look, we need more 
time, you just assumed you needed more time?
    Mr. McMahon. And he would give me a reason why we needed 
the more time. Correct.
    Mr. Cummings. And so Mr. Issa, Chairman Issa, said the 
purpose of the program was to let guns walk. And I just want 
Mr. Newell and Mr. McMahon to be clear. We are trying to get to 
the bottom of this. We have been going ring around the rosy 
forever. What was the purpose of this operation to the best of 
your knowledge, Special Agent Newell, and then yours, Mr. 
McMahon?
    Mr. Newell. Mr. Cummings, thank you for the question. The 
purpose of this investigation was to identify, and disrupt and 
dismantle an entire firearms-trafficking organization that was 
linked to Mexican drug cartels. That was the purpose. And to do 
so we needed an extraordinary amount of work on the part of the 
agents to, in fact, achieve that goal.
    Mr. Cummings. But it was not to let guns walk; is that 
correct?
    Mr. Newell. No.
    Mr. Cummings. Go ahead.
    Mr. Newell. No, sir. As I said in my statement, sir, one of 
the things that I--that frustrates me to some extent is there 
is that belief. And at no time in our strategy was it to allow 
guns to be taken to Mexico. No, sir.
    Mr. Cummings. I don't know if you heard Special Agent 
Canino, but he was almost in tears and very frustrated because 
he felt that all of this went against the very things that he 
stands for and these other agents stand for.
    With that, Mr. Chairman, I would just like Mr. McMahon to 
just answer my question, and then I'll----
    Chairman Issa. Without objection.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. McMahon. I totally agree with you, sir. That is not in 
the makeup of an ATF agent. We do not allow guns to walk. What 
we did in this investigation was investigate a large group of 
individuals that were breaking the law, and we were trying to 
put our case together so that we could actually make an impact. 
If we pick off these one or to two straw purchasers, they get 
replaced in a day, and we have even more guns going into 
Mexico. That was the plan.
    Chairman Issa. I thank the gentleman.
    We now recognize Mr. Burton for his 5 minutes.
    Mr. Burton. First of all, Agent Newell, what was the origin 
of this program? Who came up with this idea? Where did it come 
from?
    Mr. Newell. Well, sir, it was based on--it was based on the 
fact that when we--the OCDETF Strike Force was initiated, the 
idea of the OCDETF program is to disrupt and dismantle entire 
organizations.
    Mr. Burton. Who came up with this idea? Was it you or Mr. 
McMahon or somebody higher up the food chain?
    Mr. Newell. Idea for what, sir?
    Mr. Burton. For the whole program.
    Mr. Newell. It is one investigation, sir. Fast and Furious 
is one investigation.
    Mr. Burton. Where was--I mean, the selling of the guns, or 
the giving of the guns in Fast and Furious, where did that come 
from? Who made that decision?
    Mr. Newell. Well, sir, we have a policy that allows for the 
transfer of firearms in order to pursue targets in 
investigation, identify----
    Mr. Burton. As I understand it, there was as many as 2,000 
firearms; is that correct?
    Mr. Newell. That's approximately--yes, sir.
    Mr. Burton. And you were allowed--you allowed 2,000 
firearms to go in the system, this Fast and Furious program. 
How were you tracking those?
    Mr. Newell. Well, sir, Fast and Furious--I apologize, but 
Fast and Furious was not a program, it was an investigation 
that was----
    Mr. Burton. Okay. How did you track the weapons, the 2,000 
weapons?
    Mr. Newell. Depending on how the information got to us. 
Sometimes the information got to us after the sale. Sometimes 
it got to us through investigative means that firearms were----
    Mr. Burton. Did you have a set of records that showed who 
got them and who reported to you where they went and all that?
    Mr. Newell. Through our tracing system we have a way to 
determine when firearms were seized. And we also received 
information from----
    Mr. Burton. On all the firearms did you get this 
information?
    Mr. Newell. No, I don't believe so, sir, no.
    Mr. Burton. Why not?
    Mr. Newell. Why not we didn't get all the information?
    Mr. Burton. Yeah. If you have 2,000 firearms that are out 
there that are going in the program or the investigation, and 
you're putting them out there, it seems to me you would want 
to--if you are trying to make a case, you would want to track 
those and know where all of them went.
    Mr. Newell. Well, we did track the ones that we knew about, 
yes, sir.
    Mr. Burton. Well, there were 2,000 firearms. Did you have 
control of those at any time?
    Mr. Newell. We seized, sir, over approximately 300 guns in 
this case in the United States through our efforts. And the 
other firearms we put into our suspect gun data base.
    Mr. Burton. I must be missing something. You had 2,000 
firearms.
    Mr. Newell. Yes, sir.
    Mr. Burton. You put them into the system, into the 
investigation, correct?
    Mr. Newell. I did not, no, sir.
    Mr. Burton. Who did?
    Mr. Newell. Agents in the group, agents in Group VII.
    Mr. Burton. Okay. Who kept records of that? The agents that 
were doing it, did anybody keep records who they were giving 
the guns to?
    Mr. Newell. Sir, I am a little--the weapons were being 
purchased by a criminal organization.
    Mr. Burton. Okay.
    Mr. Newell. So when we found out about that information, be 
it through weapons seizures, or through cooperating dealers, or 
through other means, we would keep track of that, yes, sir.
    Mr. Burton. So you have a record of all of the weapons that 
were put into--that were sold.
    Mr. Newell. To this day we are still discovering more, 
because this was a very prolific firearms-trafficking 
organization. When we first initiated this investigation in 
November 2009, I believe the number was--they had already 
purchased that we believe to this date, and the number changes, 
something like 400 firearms. By the time we initiated our 
OCDETF strategy to focus on the entire organization, I think it 
was close to 1,000 firearms by the time we opened up our 
OCDETF.
    Mr. Burton. I must have missed something, because it seems 
to me if there were 2,000 weapons that were sold and went into 
the--and you were investigating this, and you were trying to 
find the criminals that were buying them, that there would be a 
record of all of the weapons that were sold.
    Mr. Newell. We have a record of----
    Mr. Burton. All of the weapons that were sold.
    Mr. Newell. No, sir, because we are still to this date 
discovering firearms that were purchased by these individuals 
that we weren't aware of.
    Mr. Burton. Okay. So do you have a record of the ones that 
purchased those weapons, the individuals that purchased those 
weapons?
    Mr. Newell. The ones we are aware of, yes, sir, we do have 
them.
    Mr. Burton. You have the records of all those?
    Mr. Newell. I do believe so, yes, sir.
    Mr. Burton. And you're still in the process of making the 
case on this?
    Mr. Newell. Because we are identifying additional suspects 
as we go, yes, sir.
    Mr. Burton. I will yield to you.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T2802.005
    
    Chairman Issa. Would the gentleman yield?
    Yes. So let me understand. From previous testimony, agents 
were there at the scene. Videotape or video observance, digital 
video observance, occurred as they bought them. The agents in 
many, many cases followed the suspect leaving with 6, 10, 20 
weapons for a period of time. And then they were ordered by 
this task force to break off and let those weapons continue 
going. And you have charged Mr. Acosta, one of the 20 
defendants, the only one that is not just a meth user, who was 
straw buying, you have charged him with being trafficking.
    When did you know that Acosta was trafficking weapons--his 
intent was to traffic weapons into Mexico? And when weapons 
occurred in Mexico that you knew Acosta had received from straw 
buyers, and they turned up at crime scenes in Mexico, then what 
did you do?
    Mr. Newell. Sir, regarding Mr. Acosta, I believe it was Mr. 
Acosta, sir, or----
    Chairman Issa. Acosta.
    Mr. Newell. Mr. Acosta.
    Chairman Issa. He is the money man.
    Mr. Newell. Actually Mr. Acosta in this investigation right 
now is the head of the Phoenix cell of this trafficking 
organization.
    Chairman Issa. Right.
    Mr. Newell. So----
    Chairman Issa. And you knew he was trafficking. You knew he 
was receiving these weapons. You knew these weapons were 
showing up at crime scenes. I am just trying to understand, and 
my time has expired, but why you couldn't seem to answer the 
gentleman's question straightforward? You knew guns that you 
had watched be delivered or bought to be purchased went to 
third parties and ended up in Mexico, and yet this program 
continued as though you somehow didn't know they were--that the 
purchasers, the same purchaser who had purchased guns that were 
already in Mexico, was purchasing more.
    I yield back. Who do we have next? Mr. Davis is next for 5 
minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Leadmon, you have been at ATF for 7 years studying gun 
trafficking on the southwest border. Before that you were a 
homicide detective here in Washington, DC, for many years. Can 
you describe to us briefly how the Mexican drug cartels get 
firearms from the United States?
    Mr. Leadmon. Yes, sir. I guess one way to kind of summarize 
this, this came to light to me several years ago when an 
individual describing it to me put it as follows: He says the 
Mexican people have been trafficking drugs into the United 
States since 1880. They have also been buying Sam Colt's guns 
since 1880. So that kind of gives you a groundwork of the 
culture and the reason why we have this problem, because we 
have these firearms being sold, and the Mexicans are coming up, 
these cartels, and they are purchasing these weapons. That is a 
fact.
    Mr. Davis. In your experience, what type of weapons are in 
demand by the cartels?
    Mr. Leadmon. Like I alluded to in my written testimony, 
which I didn't get to finish, but there is a--we have actually 
gone in and identified a lot of what we call DTO-preferred 
weapons. And these are usually your AKs, your ARs. They like 
the .38 Supers, the .45s. We have a list of them. And in this 
particular case, the firearms are being purchased by--all the 
firearms being purchased by these individuals were----
    Mr. Davis. Let me ask you, why do you think they focus on 
these type weapons?
    Mr. Leadmon. Because they are weapons to use to--one, they 
have to protect theirselves against their rivals. Two, they are 
confronted by law enforcement in Mexico and the military, so 
they need this type of firepower and that heavier firepower to 
exist down there.
    Mr. Davis. Thank you.
    Mr. Wall, you have spent the last 19 years as an ATF 
special agent and have most recently served as the ATF 
representative in Tijuana, Mexico. We have heard a lot today 
about the problem of gun trafficking in Mexico, and I am hoping 
that you can help me better understand the problem. Based on 
your experiences in Mexico, where are the cartels' guns coming 
from?
    Mr. Wall. From my experience, the majority come from the 
United States.
    Mr. Davis. Are you seeing a representative sample of all 
guns used in crimes in Mexico, or are the Mexican authorities 
just maybe showing you firearms that they believe come from the 
United States?
    Mr. Wall. They make them available to us. In the last 4 
years since 2007, I have probably looked at slightly over 2,000 
firearms in Mexico. These are firearms that I went out, and 
soon after they were seized at a crime scene or a stash house, 
I went out and examined the guns. And of those 2,000, less than 
50--let's just say 50 of them I could tell were from foreign 
manufacture, meaning outside the United States, possibly from 
South America, guns that maybe were tied back to even the 
guerilla wars in Central America.
    Mr. Davis. So you believe that these statistics are 
accurate, that they are real?
    Mr. Wall. I know guns, and I know what I see. And I am the 
person on the ground, yes, sir.
    Mr. Davis. Are you finding many of the weapons coming from 
Central America? Some people seem to think that some actually 
are coming from Central America. Do you think that many of them 
are?
    Mr. Wall. Some do, yes, especially with some groups. 
Certain cartels have more of a tendency to acquire their 
firearms in Central America or South America, possibly even 
from guerilla groups. However, the other cartels, the ones that 
I am familiar with, most of their firearms are U.S.-sourced 
firearms.
    Mr. Davis. So you think the United States is the main 
source of these weapons?
    Mr. Wall. Yes, sir, I do.
    Mr. Davis. Thank you very much, Mr. Chairman. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Utah Mr. Chaffetz for 5 
minutes.
    Mr. Chaffetz. Thank you, Chairman.
    Agent Newell, when did you first become aware, know, 
anticipate, or maybe even suspect that these firearms in this 
program were being transported or transferred into Mexico?
    Mr. Newell. Sir, I think we started getting the first 
traces I want to say I believe sometime in November 2009, yes, 
sir.
    Mr. Chaffetz. So in November 2009 you believed they were 
being transferred or transported into Mexico. Did that cause 
you any concern?
    Mr. Newell. Yes, sir. It always does.
    Mr. Chaffetz. But you say here the program continued on, 
knowing full well that these guns were going to Mexico. You 
said in your opening statement here, it is not the purpose of 
the investigation to permit the transportation of firearms into 
Mexico.
    Mr. Newell. When we were lawfully able to seize firearms in 
this case, and the many, many firearms-trafficking cases we 
conduct in Phoenix and Arizona and across the southwest border, 
we take every effort to stop that, yes, sir.
    Mr. Chaffetz. But in January, coming out of your office, in 
a January 2010--I mean, you testified today in your opening 
statement it was not the purpose of the investigation to permit 
the transportation of firearms into Mexico. That's today.
    Mr. Newell. Yes, sir.
    Mr. Chaffetz. Yet in March--I am sorry, January 8, 2010, in 
this memo, point number 13, you write, or it is written, 
``Currently, our strategy is to allow the transfer of firearms 
to continue to take place, albeit at a much slower pace, in 
order to further the investigation and allow for the 
identification of additional coconspirators who would continue 
to operate and illegally traffic firearms to Mexico drug-
trafficking organizations.'' So it was the goal, it was the 
intention of the program to allow guns to be trafficked to 
Mexico based on this memo; is that correct?
    Mr. Newell. No, sir.
    Mr. Chaffetz. What is wrong--that is from your statement. 
It also says in here, a number of different seizures in Mexico. 
It seems very inconsistent, at best, to suggest that it was not 
the purpose to allow them to go to Mexico, yet you know in 2009 
that they are going to Mexico, and you put it in a memo in 
2010, January 2010. How are those statements compatible?
    Mr. Newell. Well, sir, if I may, and I am glad I am given 
the opportunity to clarify that paragraph that has been 
obviously well publicized. The wording in that, the way my 
understanding was when that briefing paper was drafted, was 
that our efforts to allow the transfer to identify additional 
coconspirators was so that we could further the investigation, 
take out the whole organization. Otherwise, these individuals 
would, in fact, continue as part of a larger----
    Mr. Chaffetz. So you allowed is it hundreds or is it 
thousands of weapons to continue to flow through this program 
and go into Mexico?
    Mr. Newell. I am sorry, can you repeat the question, sir?
    Mr. Chaffetz. How many hundreds or thousands of weapons did 
you allow to be purchased, knowing that they were going to 
Mexico?
    Mr. Newell. Sir, the purchase was being done by a criminal 
organization, a large----
    Mr. Chaffetz. But you facilitated it. You allowed it; did 
you not? I mean, that was part of the program, allow these 
straw purchases to happen so that the guns could end up in 
Mexico. And you know in 2009 that that is happening.
    Mr. Newell. Sir, again, the goal of the organization, the 
goal of the investigation was to disrupt and dismantle the 
entire organization.
    Mr. Chaffetz. I know. I understand the goal. But the 
problem is you're purposely, knowingly allowing the guns to go 
to Mexico, and you have information in 2009 that it is being 
successful, yet you never put a stop to it. It is meeting the 
goals and intentions you laid out in this memo in January 2010, 
and it continued on and on. And consequently, there were 
thousands of weapons that ended up in Mexico, killing people. 
Killing people. That's the reason that we're here today.
    When did you first know or think that guns were walking?
    Mr. Newell. Sir, in this investigation, as best of my 
knowledge, we didn't let guns walk for that perspective.
    Mr. Chaffetz. When did you first think that they were?
    Mr. Newell. Were what, walking?
    Mr. Chaffetz. Walking, yes. Did you ever--have you ever 
thought that they were walking?
    Mr. Newell. Sir, the policy regarding transfer of firearms 
regards the fact that we were trying to develop an 
investigation.
    Mr. Chaffetz. I know what you are trying. When did you 
first think that guns were walking?
    Mr. Newell. Sir, again, the goal of the investigation----
    Mr. Chaffetz. When did you first think that guns were 
walking? Did you ever think that? Do you think that here today?
    Mr. Newell. I truly believe, as I have said before, that we 
didn't intentionally let guns walk.
    Mr. Chaffetz. Let's go to slide two, if we could, please. 
This is an email from Mr. Newell to Mr. McMahon on December 21, 
2010, 6 days after Brian Terry was killed. ``Since I don't like 
the perception that we allowed guns to walk, I had David Voth 
pull the numbers of the guns recovered in Mexico, as well as 
those we had a direct role in taking off here in the U.S.''
    So you're telling me you didn't suspect that the guns were 
walking?
    Mr. Newell. As my email says, it is about the perception. 
There was--I didn't want people to think there was a 
perception, because in my mind that was not the case.
    Mr. Chaffetz. How were guns not walking?
    Mr. Newell. Sir, knowing and proving that the transfer or 
purchase of firearms is illegal are two different things.
    Mr. Chaffetz. I am asking. This is 1 month before the 
indictments and 2 months before John Dodson went on CBS News 
with the accusations that the case was still an active 
investigation. Why did you have Mr. Voth pull the numbers 1 day 
after the Terry murder for the number of guns recovered in 
Mexico and the United States? Did you know Fast and Furious was 
about to come under massive scrutiny?
    Mr. Newell. I did not know at that time that it was going 
to come under this level of scrutiny, no, sir.
    Mr. Chaffetz. What is the difference--explain to me why you 
don't think that guns were walking. You obviously thought that 
others had that perception.
    Chairman Issa. Mr. Chaffetz, could you summarize?
    Mr. Chaffetz. My apologies. I am way over. Thank the 
gentleman.
    Chairman Issa. We now go to the gentleman from Vermont Mr. 
Welch for 5 minutes.
    Mr. Welch. Thank you very much.
    Mr. Newell, I am also trying to justunderstand the sequence 
here that some of my colleagues were asking about. As I 
understand it, agents would watch a straw purchaser purchase 
guns. Correct?
    Mr. Newell. Yes.
    Mr. Welch. They would follow the straw purchaser and come, 
in some places, to another location where they would observe 
that the guns were left. Correct?
    Mr. Newell. Left. Yes, sir. I believe.
    Mr. Welch. They were dropped off by the straw purchaser and 
delivered to whoever the middleman was. Right?
    Mr. Newell. Yes, sir.
    Mr. Welch. All right. And then on a couple of occasions the 
agents called in for permission to make an arrest, and they 
were denied that permission because of the overall objective of 
the plan. Correct?
    Mr. Newell. I am aware of that in one instance, yes, sir.
    Mr. Welch. All right. So the question I have, and I think 
Mr. Burton and Mr. Issa were asking this, what procedures did 
you have in place to follow where the guns went from that point 
where they were dropped off to wherever they ended up?
    Mr. Newell. I know we had surveillance teams out there that 
their job was to do that, yes, sir.
    Mr. Welch. But you got a report. I am an agent. I observe a 
straw purchaser. I watch the purchaser go to a delivery point. 
So the next step is following the guns from that delivery point 
to wherever they may end up. Now, I understand how this plan 
worked from the point of watching the straw purchaser make the 
purchase, watching the straw purchaser make the drop, but I 
don't understand what happened after that or what your system 
was in order to follow where those guns went.
    Mr. Newell. Well, sir, it wasn't my system, it was 
decisions that were made in the field by dedicated agents 
that----
    Mr. Welch. No, no. There has to be a system. What is the 
system? Whoever's system it is.
    Mr. Newell. Well, agents in the field do the best they can 
to follow firearms, follow loads and see where they are going 
and----
    Mr. Welch. I don't get that. Trained law--you guys have 
plans, right, about how you're going to execute a complicated 
and very dangerous situation? So I am just wondering what it 
is. A load of assault rifles has been delivered to a middleman. 
Was there an explicit plan by which you would follow where 
those guns went after the drop to the middleman?
    Mr. Newell. The best of my knowledge, we did everything 
possible to, in fact, do that with the resources we had out in 
the field.
    Mr. Welch. Right. But I am asking how you did it.
    Mr. Newell. With surveillance, with agents on the ground, 
boots on the ground.
    Mr. Welch. Well, if you had boots on the ground, how is it 
that you wouldn't know where those guns went from the drop to 
the next step?
    Mr. Newell. Because in some instances guns would go to a 
home. And unless we had any--unless we had any lawful basis to 
approach those individuals, we sat on surveillance as much as 
resources would allow. And then other priorities, other cases 
would take them away from that house.
    Mr. Welch. All right. So then basically there was not 
either the resources to follow those guns from the drop to 
wherever they ended up.
    Mr. Newell. Not in every instance, but in some instances, 
yes, sir.
    Mr. Welch. All right. Mr. Leadmon, in your testimony you 
discussed the 2007 Project Gunrunner. You highlighted the 
strategic mission of the ATF and the need to cooperate with 
domestic and international law enforcement partners to deny the 
tools of the trade to the firearms-trafficking infrastructure. 
Can you clarify one important issue about what happened? Do you 
have an opinion that it was a mistake in this operation to 
focus on the Mexican cartels, the criminal organizations that 
are trafficking firearms? Or was it a mistake or a failure to 
prioritize public safety as ATF targeted the cartels?
    Mr. Leadmon. It is not an opinion, it is my observation. 
What I will say is that I think there is a term here, everybody 
said, ``Let these guns walk.'' I personally believe our agents 
walked away from the guns as they were traveling down the road, 
similar to seeing something off at a train station.
    To skirt around this, to me, is ludicrous. These firearms, 
right, like I testified earlier, were crime guns, murder 
weapons. We knew it in 2009. We knew that based on our 
information out of Mexico. We knew where these guns were ending 
up by our partners in Mexico down there recovering them and 
researching them. There is no doubt that this was going to a 
criminal organization as early as 2009. As every day went on 
thereafter, it became more and more substantiated.
    My thing here is we have been talking about lawful ways of 
arresting or going in. Well, we have an obligation to the 
Mexican people and the U.S. Government and the citizens of the 
United States. There is other ways to stop the flow of guns 
other than arresting people. You can go and seize the guns. You 
don't have to arrest them. You can approach the people, right, 
and put an obstacle in front of them so they will stop the 
purchase of these firearms, instead of allowing thousands of 
guns to be purchased and try to tie the cases to make it a big 
case because you have big numbers.
    What we should have done is broke these people down as they 
came up before we let these guns go south, and then through our 
intelligence assets, and through our hard work of our other 
agents and networking from the other divisions, we could tie 
these cases together and go after and get the big people. 
That's how our law enforcement partners do it, and that's how 
we should do it.
    Mr. Welch. Thank you.
    My time has expired. I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from South Carolina Mr. Gowdy 
for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Special Agent Newell, you said firearms are not in and of 
themselves contraband. That's true unless they are sold to, 
possessed by, or acquired by a prohibited person, which would 
include a straw purchaser. So my question to you is this: Did 
ATF have contemporaneous or preknowledge of any straw 
purchasers purchasing weapons in Arizona?
    Mr. Newell. Well, sir, straw purchasers are not prohibited 
individuals unless they have been convicted of some crime.
    Mr. Gowdy. No, it is against the law to purchase a gun 
knowing you're going to transfer it to someone else to 
therefore get around the fact that the person you're going to 
give it to is a prohibited person. Agreed?
    Mr. Newell. Yes, sir.
    Mr. Gowdy. Okay. Well, that's a straw purchaser. Someone 
who is going to give the gun to a prohibited person is a straw 
purchaser.
    Mr. Newell. Yes.
    Mr. Gowdy. So now that we have that cleared up, did you 
know that anyone who was acquiring firearms from firearms 
dealers in Arizona were straw purchasers? Contemporaneous with 
the acquisition, did ATF know it?
    Mr. Newell. We have to prove that, in fact, that it's a 
violation, yes, sir. We presented to the U.S. Attorney's Office 
evidence that we believed that these individuals were, in fact, 
straw purchasers.
    Mr. Gowdy. Let's do it another way. The very first weapon 
recovered in Mexico through a trace, did you go back to the 
purchaser of that weapon and interrogate them?
    Mr. Newell. I did not, no, sir.
    Mr. Gowdy. Did anyone with ATF?
    Mr. Newell. I am not aware of that, no, sir.
    Mr. Gowdy. Why not?
    Mr. Newell. I don't know, sir.
    Mr. Gowdy. You've got a gun that was purchased in Mexico--
that was purchased in the United States that makes it into 
Mexico. You know through your trace that that's the gun. Did 
you go back to the person who purchased it? That's an old-
fashioned investigative technique. It is not as complicated as 
letting guns walk. It is more effective, though, to actually go 
interrogate the person who made the acquisition. Did you do 
that?
    Mr. Newell. Sir, as I stated earlier, in this 
investigation, realizing that if you take out one straw 
purchaser you're not making an impact on the greater 
organization----
    Mr. Gowdy. I want to ask you about the greater 
investigation, because I have read now four different times you 
have said ``disrupt, dismantle, destroy.''
    Mr. Newell. Yes, sir.
    Mr. Gowdy. How are you going to extradite drug kingpins 
from Mexico?
    Mr. Newell. We don't have plans do that, no, sir.
    Mr. Gowdy. So once the guns make it to Mexico, there was 
nothing you were going to do about those drug kingpins.
    Mr. Newell. Yes, sir, there was.
    Mr. Gowdy. What?
    Mr. Newell. One of the things we wanted to do was as soon 
as we had solid information on who the drug kingpin, if you 
will, was, to share that information with Mexico.
    Mr. Gowdy. But you didn't share the information with Mexico 
ahead of time. So they are supposed to trust American law 
enforcement, who has been conducting an investigation and knows 
firearms are going into Mexico, and you tell them after the 
fact, and they are supposed to thank you and be partners in 
this endeavor?
    Mr. Newell. Sir, it wasn't only until we had information on 
who the specific recipient or the drug kingpin was that we felt 
it was prudent to share that information, because we weren't--
--
    Mr. Gowdy. How are you going to dismantle Mexican drug 
cartels if you are not going to extradite the kingpins back to 
the United States?
    Mr. Newell. Because we hoped that the Mexican officials 
would, in fact, prosecute them for that.
    Mr. Gowdy. So you're doing this to help the Mexican 
criminal justice system. You're just not going to tell the 
Mexican criminal justice system about it.
    Mr. Newell. No, sir, I disagree with that premise.
    Mr. Gowdy. That's exactly what you just said, Special 
Agent, that you were going to tell them about it after the 
fact.
    Mr. Newell. We had to know it first. We had to know who the 
drug--we had--through this investigation, and as it continues--
--
    Mr. Gowdy. Okay. You have the first trace that tells you a 
U.S. gun is found in Mexico. Why did you not go interview the 
person who acquired the gun? Why not do the investigation the 
old-fashioned way, with car stops, with search warrants, with 
active surveillance? Why do it this way? It was never going to 
work.
    Mr. Newell. Well, again, years of experience have shown us, 
sir, that removing one straw purchaser will not have an effect 
on the larger investigation.
    Mr. Gowdy. Well, Special Agent, the only way it possibly 
could have worked would have been if Mexico had extradited 
these kingpins. If you want to disrupt, dismantle, destroy, the 
only way it could work is if you told Mexico--or I would have 
settled for you just telling your own fellow agents about it 
ahead of time. Because ATF and Mexico didn't know about it, did 
they?
    Mr. Newell. Well, sir----
    Mr. Gowdy. Yes or no? Did Mexico ATF office know about 
this?
    Mr. Newell. They were aware of the investigation, yes, sir.
    Mr. Gowdy. They were aware that weapons were going into 
Mexico and you knew about it?
    Mr. Newell. That we knew about it? Sir, weapons go into 
Mexico all the time.
    Mr. Gowdy. From straw purchasers that you knew about. Let 
me ask you this: If Mexico were to ask us to extradite the law 
enforcement officers who knowingly aided and abetted weapons 
going into Mexico, what would your reaction to that be?
    Mr. Newell. I would explain to them that our concern in an 
investigation of this type is to take out the whole 
organization so we have the greatest impact possible. If you 
just take off one straw purchaser, you're not having an impact 
on the greater effort, which is the whole organization.
    Mr. Gowdy. Special Agent, my time is up. I will just say 
this in conclusion. I worked with ATF for 6 years directly. I 
worked with ATF indirectly for 10 years as just a State D.A. 
This is one of the saddest days in my 6 months in Congress. It 
may be the saddest day. ATF has a wonderful reputation in South 
Carolina. We never once contemplated letting firearms walk 
ever. A first-year Quantico or Glencoe person knows that.
    I will yield back.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentlelady from California Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Special Agent Newell, what were you thinking? I think 
that's what we are all scratching our heads about here today. 
And the embarrassment that you have put on ATF generally, an 
outstanding organization of line agents, is deeply troubling to 
all of us. But what I am really concerned about is but for the 
fact that there were whistleblowers, but for the fact those 
whistleblowers went to Senator Grassley, but for the fact CBS 
did an investigation, this travesty would still be going on 
today. That's my big objection.
    Who did you tell? Did Mr. Melson know about this?
    Mr. Newell. About the investigation?
    Ms. Speier. Yes.
    Mr. Newell. My belief is yes. I briefed him and----
    Ms. Speier. When did he know about it? When you started it? 
When you were conceiving it?
    Mr. Newell. I am not exactly sure when the first time he 
was made aware of the investigation.
    Ms. Speier. Who did you make aware of the idea of this 
investigation?
    Mr. Newell. Well, when the investigation first initiated, 
in, I believe, November, we sent up--or I sent up a briefing 
paper, we sent up a briefing paper, I believe, the first part 
of December.
    Ms. Speier. To whom?
    Mr. Newell. To my supervisor.
    Ms. Speier. Who is?
    Mr. Newell. Mr. McMahon.
    Ms. Speier. And, Mr. McMahon, what did you then do?
    Mr. McMahon. When I was briefed on the initiation of this 
investigation, I passed it up the chain. This is the initiation 
of an investigation. We had a--pretty early on, that is why the 
title Fast and Furious came on it, we had a large group of 
people that were buying a lot of guns in a short period of 
time. And then we were having recoveries in Mexico. What we had 
was purchases in the United States, recoveries in Mexico. We 
didn't have what was in between, and that's what the agents in 
Phoenix were trying to prove.
    Ms. Speier. So you all thought this was a great idea.
    Mr. McMahon. To stop guns going into Mexico, yes, ma'am.
    Ms. Speier. No, this particular investigation of letting 
guns walk into Mexico.
    Mr. McMahon. We didn't have an investigation of letting 
guns walk. We had an investigation into a group of individuals 
who were breaking the law and trafficking guns into Mexico.
    Ms. Speier. All right. So 2,000 guns walked into Mexico. 
You have retrieved maybe 300; is that correct?
    Mr. Newell. I believe the current number is roughly 600 
firearms have been recovered.
    Ms. Speier. And my understanding is that the way you were, 
``surveilling them,'' is that you were putting GPS systems on 
them; is that correct?
    Mr. Newell. On the firearms or on vehicles? Depends on--we 
used all kinds of investigative techniques to further the 
investigation to try to determine if, in fact, the firearms 
were going into Mexico.
    Chairman Issa. Would the gentlelady yield? We have previous 
testimony that three times and only three times were any 
electronic tracking devices placed on the products.
    Ms. Speier. Only three times?
    Chairman Issa. That's correct.
    Ms. Speier. And that those batteries ran out is what I was 
told as well; Is that correct?
    Chairman Issa. Exactly.
    Ms. Speier. All right. What Peter Forcelli, the special 
agent, testified earlier said that in his opinion, you know, if 
we monitor money being wired to the Middle East, and we take 
down actual information about people who buy Sudafed, because 
we are concerned about meth labs, we know that gunrunning is 
coming from the United States into Mexico, that is the source 
of it, why aren't we required--why aren't we requiring people 
who purchase multiple long arms from reporting that? And my 
question to each of you is should we be doing that? We do it 
for things like Sudafed, but we don't do it for long arms.
    Mr. McMahon. I believe that we put forward a demand letter 
requiring gun dealers along the southwest border to report the 
sale of two or more firearms that fire from the shoulder at 
greater than .22-caliber that accept a detachable magazine.
    Ms. Speier. What's the penalty if they don't?
    Mr. McMahon. If the FFL doesn't? It would be part of the 
revocation process if they don't follow our rules.
    Ms. Speier. They would lose their license.
    Mr. McMahon. Correct.
    Ms. Speier. That's like a slap on the hand, isn't it?
    Mr. McMahon. That's all that we have at our disposal.
    Ms. Speier. I am asking you if there should be a law passed 
requiring the reporting of long arms that exceed a certain 
number.
    Mr. McMahon. I think that is the job of this body.
    Ms. Speier. No, we are asking you. You are out in the 
field. You are telling us that the gunrunning into Mexico, the 
drug cartels are getting those guns from the United States. 
They are originating here. So I want everyone on the panel to 
just answer that question.
    Mr. McMahon. Demand letter three that is going forward is 
going to be a great tool for us to combat this.
    Ms. Speier. All right. Mr. Newell.
    Mr. Newell. Thank you, Congresswoman.
    Yes. Yes, any tool that we have to assist us in detecting 
early on, to detect, help us assist to detect early on a 
firearms-trafficking organization that is trafficking in large 
quantities of multiple--of assault-type weapons would help.
    Ms. Speier. Thank you.
    Next.
    Mr. Leadmon. Yes, ma'am. I think that if we are going to do 
this, it should be in a balanced approach, maybe through 
legislation. But we also have to take in mind that we do have 
Second Amendment rights. And this needs to be balanced. And I 
think that we should approach this with caution.
    Ms. Speier. What does that mean? Either you think we should 
have one or we shouldn't.
    Mr. Leadmon. That means to me that there is a common good 
in this idea and this legislation, but there is a 
responsibility for us to balance it also.
    Ms. Speier. Next?
    Mr. Canino. Yes, ma'am, it would help.
    Mr. Wall. Yes, ma'am. I agree with Mr. Leadmon, though, we 
need to balance it with the Second Amendment rights. We require 
purchases of handguns within--two or more handguns within a 5-
day period to be reported to us. However, the situation in 
Mexico right now and along the southwest border, I think it is 
an exigency that we have some type of--well, some help along 
that line with the assault weapons or the long guns.
    Mr. Gil. I would disagree to some extent that that would be 
beneficial. I would rather have a relationship with the Federal 
firearms licensee for when an individual does come in and wants 
to purchase multiple weapons of any sort, handguns or long 
guns, that they would work with us on that. And that would 
provide us some information targeting those individuals. So I 
would somewhat disagree with that.
    Ms. Speier. My time has expired.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman Mr. Walberg for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And I thank you for 
also giving us the opportunity to go to Mexico City and meet 
with the officials down there, both our hardworking agents and 
agencies, as well as the Federal police in Mexico. I just--
hearing some of the responses this morning, I am kind of 
surprised that the Mexico Federal Police met us with such 
openness in providing information to us of what they are 
attempting to do when it is apparent we let them down.
    I guess to try to come at it from the other side to get 
some answers, let me ask Mr. Canino--and thank you for your 
service----
    Mr. Canino. Thank you.
    Mr. Walberg. When did you first learn that a large number 
of guns were being seized in Mexico and traced back to Phoenix?
    Mr. Canino. Well, sir, it was around November or so. My 
intel officer in Mexico reported to me that there was a large 
amount of weapons in the suspect gun data base.
    Mr. Walberg. What was your reaction to that?
    Mr. Canino. Well, sir, I looked at it. I thought three 
things about this case. Number one, I thought that the case was 
out of Phoenix. Anybody who has ever talked to any agents in 
Phoenix or worked in Phoenix knows that the U.S. Attorney's 
Office there has been reluctant to prosecute firearms cases. 
That's number one.
    Number two, I thought that our agents in Phoenix had 
stumbled upon a gun-trafficking group, and in their due 
diligence were finally realizing, okay, these guys have beat us 
for these many guns.
    And number three, I thought somehow our agents are losing 
these loads, or a combination of all three.
    Never, never in my wildest dreams would I think that ATF 
agents were ordered or participated in actually following known 
gun traffickers and just walking away. That is, to me, 
inconceivable. And to this day I still am trying to get my head 
around this.
    What happened in this case is this is the ATF gun 
trafficking book, something we have done since 1972, and we do 
it well, and they went in Phoenix to the shredder and shredded 
the best practices, all the techniques that you use to 
investigate a gun-trafficking case. It is not rocket science. 
If it was, I wouldn't be here.
    Mr. Walberg. Had you received any warning from ATF in 
Phoenix or Washington about the possibility of a spike in guns 
showing up in Mexico?
    Mr. Canino. No. I was talking with Lorren and the folks at 
the Office of Strategic Intelligence, you know. We became 
aware, okay, there is a gun-trafficking case in Phoenix. The 
first guns that I became aware of that were related to that 
case were in November 2009, where nine guns turned up in a 
seizure of 42 guns in Sonora, Mexico.
    Mr. Walberg. So no warning.
    Mr. Canino. Once those guns came up and we traced them, 
hey, okay, now we found out there was a case out of Phoenix. 
But out of that case, out of those nine guns, that person who 
purchased those nine guns purchased close to 700 guns. So in 
2009, we knew--``we'' meaning ATF, ATF Phoenix, ATF Mexico--we 
knew that at least one person involved in that case had guns 
recovered in Mexico. And like I said, that person was allowed 
to buy 700 guns.
    Mr. Walberg. Mr. Gil, let me ask you the same questions. 
When did you first learn that a large number of guns were being 
seized in Mexico and traced back to Phoenix?
    Mr. Gil. Sir, I learned actually during the same event that 
Mr. Canino just referred to. He and my chief analyst, Dennis 
Fasciani, came into my office. And I had just arrived in early 
October, and this event came across. So they briefed me at that 
time.
    Mr. Walberg. And your reaction to that?
    Mr. Gil. I picked up the phone. We discussed it. I picked 
up the phone. I called the Phoenix Field Division to find out 
what was going on with this investigation, we were recovering 
an abnormal number of weapons, and if they were aware of it, 
and if so, what was going on.
    Mr. Walberg. And you received no warning prior to that?
    Mr. Gil. No, sir.
    Mr. Walberg. In the few remaining seconds let me move over 
to Mr. Leadmon. What's eTrace?
    Mr. Leadmon. It is the ATF's electronic tracing system. It 
is the system we use to submit traces and to get the results.
    Mr. Walberg. Was the data base useful for tracing guns, or 
did you face obstacles with the tracing system?
    Mr. Leadmon. Well, within the tracing system we have a 
flagging system called ``suspect guns.'' And in that suspect 
gun data base, right, it is utilized to notify case agents when 
a weapon that they suspect is being used in a criminal--a crime 
gun, that it is flagged, and then the agent's notified.
    Mr. Walberg. Were they any delays in the uses of eTrace on 
this particular issue?
    Mr. Leadmon. No, the tracing comes out of--especially the 
Mexico guns or the U.S. guns--that comes from the recovering 
officers or their agency. But the flagging system has a 
mechanism in it--or it did in the inception of Gunrunner--
excuse me, project--this project, Fast and Furious, it had a 
system that was--we couldn't have it through our electronic 
system.
    Mr. Walberg. Why was that?
    Mr. Leadmon. It was just a matter of just merging the 
systems together. It is now part of our eTrace system, and it 
is all fully available.
    Chairman Issa. The gentleman's time has expired.
    We now go to the gentleman from Illinois Mr. Quigley for 5 
minutes.
    Mr. Quigley. Thank you, Mr. Chairman. I apologize. There is 
several committee meetings going on. So if I ask a question 
that's been answered, I apologize.
    But perhaps the most obvious, Special Agent McMahon, was it 
your intention to go back and get these weapons after this all 
took place? People left these stores with guns. Your intention 
was to go back and get all these weapons. Correct?
    Mr. McMahon. Our intention was to prove that they were 
doing something illegally when they bought those weapons, and 
that's easier said than done. Proving that someone's a straw 
purchaser actually means that you have to prove the day that 
they came in to fill out that form, that they lied when they 
answered one of the questions. And proving that, we had to 
prove that they knowingly lied when they filled out that form. 
So once we have determined that someone is a straw purchaser, 
yes, we want to be able to get the weapons that they are 
responsible for as quick as possible.
    Mr. Quigley. Did you believe that you could get these 
weapons back, if that was the case, regardless of where they 
went?
    Mr. McMahon. Again, I think our problem with this case is 
proving that a violation occurred in the United States and then 
determining how those weapons were being transported into 
Mexico. We know that of all the people we identified in this 
case that are purchasers, none of them were actually physically 
taking the weapons into Mexico. We were checking border 
crossings, all of those sort of things, and that was not 
happening. So there was a great unknown at the beginning of 
this case trying to figure out what the size of this network 
was and how it was operating.
    Mr. Quigley. Well, if you and Special Agent Newell have 
used the line, if we pick off one or two straw purchasers 
today, they simply get replaced, in your words, in your mind, 
why is that the case?
    Mr. McMahon. Well, because I think the way I understand 
firearms trafficking into Mexico, which is totally different 
than any type of firearms trafficking we have ever done 
before--I am from New York. I worked firearms trafficking cases 
all the time, but it is totally different in Mexico. What you 
will have is a plaza boss that orders guns from the United 
States. He will give someone in the United States, say, $70,000 
and says, I want $70,000 of guns. And he expects to get $70,000 
worth of guns.
    Mr. Quigley. How do they find each other typically?
    Mr. McMahon. That's an established network from the drug 
trade of drugs going north. So that individual----
    Mr. Quigley. I am sorry, so that relationship is already 
there because of the drug trade?
    Mr. McMahon. Absolutely.
    Then that person will recruit individuals that have clean 
records that are U.S. citizens to buy weapons. Now, if we start 
picking off one or two people, that hurts the money in the 
person in the United States, but the person in Mexico is still 
going to get his $70,000 worth of guns. And that's what 
happens. So knocking off straw purchasers one by one, yeah, it 
makes life hard on the money person in the United States, but 
it doesn't make an impact in Mexico. And that's the key to what 
we're trying to do at ATF. And there has to be that balance, 
obviously.
    As I said, the mistakes--in no way should we have ever 
allowed anyone to get up into the 600 purchases without talking 
to that person, trying to find out what they were doing, seeing 
if they would cooperate. But again, I think we learn things in 
every case we ever do, and we are learning an awful lot from 
this one.
    Mr. Quigley. Well, this is a network. People talk. So they 
would talk about what it is like to be a straw purchaser from 
an economic point of view. They encourage someone else, as you 
say, to do this. What would discourage someone from being a 
straw purchaser that we could do?
    Mr. McMahon. I think obviously, you know, stiffer sentences 
for some of these individuals. We are tied to--when we make a 
case against these individuals, obviously they have all clean 
records. The Federal system is tied into punish individuals 
that have a criminal history. Obviously, straw purchasers will 
not have a criminal history. That makes them viable to purchase 
weapons. That would help us an awful lot to have a hammer over 
their head to either cooperate or ultimately never do this.
    Mr. Quigley. We've heard the expression that many feel like 
this is doing 60 in a 55, or some reference to that, that it is 
not particularly strongly punished, and typically not with a 
jail term. Is that your understanding?
    Mr. McMahon. It is. It shouldn't be. Every time I talk 
about this, whether it is through the media, or other people, 
or Members of Congress, always trying to stress that these 
individuals that think they are just doing maybe a paper 
violation are actually causing havoc in another country or else 
here in the United States, because the people that need them to 
buy guns aren't using them to protect their store or protect 
their residence. They're using them to create mayhem.
    Mr. Quigley. And the last question. Editorials about the 
Second Amendment aside, if you go into a store, a gun store, in 
Arizona, how many AK-47-type weapons can you buy?
    Mr. McMahon. As many as he has.
    Mr. Quigley. Thank you.
    I yield back.
    Mr. Cummings. Would the gentleman yield?
    Mr. Quigley. Yes.
    Chairman Issa. Ask unanimous consent the gentleman have 30 
seconds.
    Mr. Cummings. Thank you very much.
    Special Agent Newell, I must tell you that your testimony 
has been quite frustrating, I think, for both sides. I just 
want you to answer one question. Mr. Leadmon said the way this 
should have been conducted. Do you remember hearing what he 
said? He said the way this should have been done.
    Mr. Newell. Yes.
    Mr. Cummings. I just wanted to know your reaction to that.
    Mr. Newell. Well, sir, as I said in my opening statement, I 
recognize that in retrospect there were mistakes made in how we 
handled this investigation. We should have--one of the things I 
said in my opening statement was it was incumbent upon me to 
have more risk assessments throughout the investigation. I 
acknowledge that. I acknowledge the fact that one of the things 
I should have done was more frequently throughout the 
investigation conduct risk assessments to ensure whether this 
was still a prudent strategy to occur.
    But I will tell you, sir, that from years and years of 
experience, as Mr. McMahon just said, these Mexican drug 
cartels are going to get their firearms. They're going to get 
them. So we have to do everything we can in terms of taking out 
the infrastructure that manipulates the straw purchasers. Straw 
purchasers are the lowest rung on the ladder. They are like a 
street-corner drug dealer. If you just focus your 
investigations on straw purchasers, you're not having a lasting 
impact.
    But to answer your question, sir, I acknowledge that yes, 
in fact, that there should have been more frequent risk 
assessments. I acknowledge that fact.
    Chairman Issa. Thank you.
    We now go to the gentleman from Tennessee, Dr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman. And I thank the 
panel for appearing here today.
    Regretfully, I have to attend a teleconference, but I would 
like to yield my time back to the chair, as it is very 
important we continue this discussion.
    Chairman Issa. I thank the gentleman for yielding.
    I would like to follow up somewhat along the lines that the 
ranking member was on. Mr. Patino bought 730 weapons is our 
best count right now. He worked through Mr. Acosta. For both of 
Special Agent Newell and McMahon, was there a time in which 
either one of you were aware that Mr. Acosta, buying weapons, 
the total of 730 from this particular straw buyer, who was on 
food stamps, who had no income--was there a time that you 
became aware Mr. Acosta intended on transporting those weapons 
to the drug cartels to sell them? You have charged 19 straw 
purchasers, who are all out on their own recognizance right now 
just waiting for trial sometime next year. You have charged one 
person with trafficking. Was there a time you became aware 
that, in fact, you had a known group of buyers, including Mr. 
Patino at 730 weapons, and you knew that the purchaser, the 
money man, intended on transporting those to Mexico? Was there 
ever a time that you knew that? Mr. McMahon first.
    Mr. McMahon. There was never a time that I knew that, no.
    Chairman Issa. Mr. Newell.
    Mr. Newell. There was never a specific time that we knew 
that, no, sir.
    Mr. Issa. Please stay awayfrom words like ``specific.'' 
They worry me. Was there ever a time? Did you get to an 
understanding that you had a known buyer buying from these 
people with an intent to traffic them to the cartels? Was there 
a time?
    Mr. Newell. Throughout the investigation we had information 
that----
    Chairman Issa. What was the first time that you had that 
information?
    Mr. Newell. That this group was trafficking firearms to 
Mexico?
    Chairman Issa. That you had a known buyer, Mr. Acosta or 
that group, and that the purchasers--some of the straw 
purchasers they were buying from were, in fact, providing to 
these people for their purpose of transporting?
    I ask you this question very simply. Now, wait a second. 
You have been here as a paid not answerer so far. And I 
appreciate that you have been here as a paid not answerer, but 
there comes a point where I go, wait a second, 730 weapons 
bought by a man who had no money. Every penny he bought with he 
had to get from somebody. You knew that at some point. You knew 
who was buying them, and you allowed it to continue.
    Now, there comes a point where, as we go through the rest 
of the investigation--and this was about Mexico, and I want to 
get back to that very quickly--but there comes a point where we 
have to have more than just mistakes were made. My 
understanding is you knew from credible information, your 
organization knew that, in fact, you had a buyer providing the 
money to Patino and others, that he was taking possession of 
those weapons, and you knew with specificity that those 
weapons, some of them had already ended up in Mexico; is that 
correct?
    Mr. Newell. Yes, sir.
    Chairman Issa. And what was the first date; 2009, what was 
the first date?
    Mr. Newell. Sir, to answer your question, throughout the 
investigation we had information that Patino was--Mr. Patino 
was working with Mr. Acosta throughout the investigation.
    Chairman Issa. Okay. So from day one you had a straw 
purchaser with no means of support buying hundreds of weapons, 
providing them to his intermediary, which meant that both of 
them were very much a part. You didn't have a buy and lie 
situation at this point, you had an individual who could be 
charged with his participation in the actual trafficking of 
weapons. You had somebody who was trafficking specifically for 
the intent of getting it to the drug cartels, providing huge 
amounts of information--I'm sorry, huge amounts of money. You 
had that early on. We're now 2 years later, and you've only 
charged 18 other people with buy and lie and the one person you 
knew early on was doing this.
    Where, quite frankly, is any semblance of roll-up or any 
semblance of going further? It looks like you knowingly allowed 
these to be sold, waiting to see if the other end in Mexico 
would give you information. It seems like you knowingly allowed 
these weapons to get out of your control knowingly to someone 
you knew was trafficking into Mexico. You saw the results, you 
allowed it to continue, and now you're telling us, we don't let 
guns walk.
    Well, I've got to tell you, before this investigation ends, 
I've got to have somebody in your position or at Justice admit 
you knowingly let guns walk, because right now your agents, 
both the agents here today from Mexico and the agents that were 
part of Phoenix and part of this program who became 
whistleblowers, had told us you were letting guns walk. It's 
only you and Mr. McMahon and other people at Justice who 
continue to come before this committee and say, we don't let 
guns walk. Are they lying, or are you lying?
    Mr. Newell. Sir, in this investigation it is my opinion 
that we did not let guns walk.
    Chairman Issa. You're entitled to your opinion, not to your 
facts.
    With that we go to the gentleman Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Wall, before you were transferred to the ATF field 
office in Tijuana, Mexico, you were in the Phoenix office; is 
that correct.
    Mr. Wall. Yes, sir, I was.
    Mr. Tierney. And you said in your written testimony that 
you personally saw some of the AFT's best trafficking cases 
languish in the U.S. Attorney's Office. Is that an accurate 
statement?
    Mr. Wall. Yes, that's accurate, sir.
    Mr. Tierney. Now, we also had other ATF agents tell us the 
same thing, that there was a lagging of proceeding on these 
cases in the U.S. Attorney's Office.
    When was that period of time that you were assigned to the 
Phoenix office?
    Mr. Wall. Well, I was working primarily gun trafficking to 
Mexico from 2007 until I left for Tijuana in 2009, fall of 
2009.
    Mr. Tierney. Mr. Newell, a number of ATF witnesses that the 
committee interviewed have said that this case was ready for 
indictment probably in August 2010, but the U.S. Attorney's 
Office didn't really seek the indictments until January 2011. 
Is that an accurate reflection of your memory?
    Mr. Newell. Yes.
    Mr. Tierney. Do you know why you experienced these delays?
    Mr. Newell. I think that's a question better asked of the 
U.S. Attorney's Office, sir.
    Mr. Tierney. Did they ever give you an understanding of why 
it was that they were seeking to delay?
    Mr. Newell. That they were continuing to put together 
information they needed to seek indictments.
    Mr. Tierney. And it was that broad an explanation, no 
certain specifics?
    Mr. Newell. Certain specifics regarding financial for the 
money laundering statutes that are in the--money laundering 
violations that are in the indictment.
    Mr. Tierney. Did you consider those reasons to be 
legitimate, or did you think that they were somewhat suspect?
    Mr. Newell. I believe that they were legitimate in the 
sense of the return on some subpoenas, yes, sir.
    Mr. Tierney. Now, Mr. McMahon, you said that a number of 
your agents were certainly frustrated from time to time with 
the U.S. Attorney's Office in Phoenix, correct?
    Mr. McMahon. That's what was being relayed to me from Bill, 
yes.
    Mr. Tierney. But you didn't have direct knowledge of that; 
agents hadn't expressed it to you?
    Mr. McMahon. I shouldn't say that. Yes, there is a personal 
friend that I had that works in Phoenix that I hired in New 
York. He did express his frustration with the U.S. Attorney's 
Office, yes.
    Mr. Tierney. Now, at some point in time when, Mr. Newell 
and Mr. McMahon, you thought that the case was ready for 
indictment, the August 2010 and after that, did you start using 
seizure warrants to interdict some of the weapons?
    Mr. Newell. Yes, sir. We started doing that, I believe, in 
September 2010 in an effort to seize firearms as we were 
waiting for the indictment.
    Mr. Tierney. All right. So----
    Mr. Newell. Civilly. Seize firearms civilly.
    Mr. Tierney. So once you thought that the case had been 
made----
    Mr. Newell. Yes.
    Mr. Tierney [continuing]. Then you started to take extra 
actions to make sure that the weapons didn't get beyond a 
certain point. All right. And when would you exercise the 
seizure warrants in relation to this whole trafficking activity 
that was going on?
    Mr. Newell. Well, sir, I thank you for the question. During 
the summer of 2010, we finally convinced certain individuals in 
the Judiciary that we had a very strong--we believe we had a 
very strong ability or theory on being able to seize firearms 
civilly in order to stem the flow, and we got that approved, I 
would say, September 2010.
    Mr. Tierney. Now, this problem with the U.S. Attorney's 
Office in Phoenix, the lag of time between when the people in 
the field thought that they had their case made and waiting for 
the indictments to go down, is that a problem that exists with 
the current U.S. attorney?
    Mr. Newell. I will say, sir, that having been there 5 years 
when I was there from 2006 to 2011, the current U.S. attorney 
has been much more aggressive and much more proactive than 
previous administrations, yes.
    Mr. Tierney. The previous administrations, however, were 
insistent in having that issue, a lag on that?
    Mr. Newell. Yes, sir.
    Mr. Tierney. Mr. McMahon, you told the committee that ATF 
agents had secured confessions from straw purchasers to develop 
certain cases, but that your agents presented those cases to 
the U.S. Attorney's Office in Phoenix, and the assistant U.S. 
attorney declined to prosecute and said there was no violation. 
Do you remember telling the interviewers that?
    Mr. McMahon. I do remember speaking about a single case 
that was relayed to me by Bill Newell, yes.
    Mr. Tierney. Can you give us some specifics of what it was 
you related?
    Mr. McMahon. What was told to me was we were working an 
operation at a gun show. Our agents observed someone that 
looked suspicious pushing a baby carriage with a couple of long 
guns in it. They followed her out to the parking lot where she 
actually transferred that to an individual, and our agents saw 
a transfer of money. We had other agents follow the car that 
had the guns now out of the parking lot, pulled him over, did a 
traffic stop, identified him as a multiple convicted felon with 
not only the two guns this woman gave him, but also a third 
gun. We also confronted the woman, and she confessed that she 
was paid to purchase these weapons. I believe it was a Saturday 
or Sunday when this happened. Bill relayed to me that it was 
presented to the duty agent in Phoenix, and they suggested that 
we take the case to State court.
    Mr. Tierney. Thank you.
    I'm going to yield back to the ranking member at this point 
in time.
    Mr. Cummings. Thank you very much.
    Chairman Issa. We will ask that you also have another 30 
seconds.
    Mr. Cummings. Thank you, Mr. Chairman.
    Special Agent Newell, I want to go back to something the 
chairman asked you, because I want to make--I want us to be 
real clear, and this is for the benefit of the entire 
committee.
    I've got a--I'm trying to figure out what your definition 
of ``walking guns'' is. Maybe that's part of the problem. I 
think we--because I think almost everybody up here has our 
opinion about this, and I'm just wondering if there's a 
difference between your definition of walking--allowing guns to 
walk and ours.
    Mr. Newell. Well, thank you. I appreciate the opportunity 
to answer that.
    My definition of walking, and I believe it's the common law 
enforcement term, is when a law enforcement agency, be it ATF, 
be it DEA, be it a State and local agency, actually puts some 
sort of evidence into the hands of a suspect in furtherance of 
an undercover operation, in furtherance of an investigation, 
and then does nothing with that property. That property, for 
instance, with ATF it can be a prop gun, one of our evidence 
guns. You put it in the hands of that suspect and then don't 
take--don't do the follow-up, don't attempt to determine where 
that gun is going.
    Mr. Cummings. So you don't think there was any walking 
allowed in this based on that definition in this case?
    Mr. Newell. Based on that definition, yes, sir.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Arizona Mr. Gosar for 5 
minutes.
    Mr. Gosar. Thank you, Chairman.
    Mr. Newell, one of my colleagues on the other side brought 
it up about new laws. Now, I want to emphasize, it wasn't the 
gun sales operator. And let me emphasize that again. It wasn't, 
was it, because they were alarmingly bringing forth these 
sales; were they not?
    Mr. Newell. I'm sorry, Congressman.
    Mr. Gosar. Oh, here we go again.
    Mr. Newell. Well, I didn't understand.
    Mr. Gosar. It seems like this is the Moe, Curly and Larry 
show, and we're looking for Larry. I mean, it's disruptive to 
actually see what I'm seeing here. As a business person coming 
from Main Street America to actually see what I'm seeing here, 
you've got to be disgusted about this. And to go round and 
round the corner, it's ridiculous.
    Agent Canino, I watch your body language. I'm a health care 
physician.
    Mr. Canino. Yes, sir.
    Mr. Gosar. I watch body language like crazy. Tell me what 
you disagree with that man right there.
    Mr. Canino. On this specific case?
    Mr. Gosar. Yes. Talking about records. Let's talk about 
records. Are there adequate records being kept?
    Mr. Canino. At the FFLs?
    Mr. Gosar. Yes.
    Mr. Canino. Yes, sir.
    Mr. Gosar. And how they relate between the sale of these 
guns and Mexico.
    Mr. Canino. I think ATF does a great job in regulating the 
firearms industry.
    Mr. Gosar. But in this case in tracking, were they actually 
able to track them? They had no idea where they were going, did 
they?
    Mr. Canino. No, sir. The reason--you've got to put this in 
context. Everybody is saying, oh, this case was so big, it was 
complicated. Firearms-trafficking cases are not complicated, 
sir, okay? They're not complicated. The reason this case was so 
big was because we didn't do anything, plain and simple. 
Everybody wants to make this bigger than it is.
    Like I said earlier, you don't have to--I spent 19 years, 
15 as a street agent, 4 leading a street group, okay? You don't 
have the luxury or the right, in my opinion, as an ATF agent to 
say, I like this law, I like that law, okay? That's you guys 
set the law; we follow it. Now, it's up to me as an ATF agent 
how best to make up an investigative technique and best 
practices so I can make a case and present it to the U.S. 
attorney. I've done my job. Now it's up to the U.S. attorney if 
he wants to prosecute it or not. I'm going to bring him the 
best case I can.
    In this case, like I said earlier, we have the ATF 
trafficking guidelines and best practices, and we just threw it 
out the window. Nobody got stopped. Like I said earlier, how 
can you let somebody buy 730 guns, and at what point are you 
going to stop them? I mean, I am embarrassed, sir. I have 
agents, guys who I consider American heroes, my friends, who I 
never thought I would hear this, who they've told me since this 
broke, Carlos, I'm ashamed to carry an ATF badge, to me. I have 
cried over that literally, and I'm unashamed to say that. This 
is not a job to me, it's a profession. I don't have a hobby. My 
hobby is being an ATF agent. I love this job. I hit the lottery 
when I came on. And I'm proud of what I do, and I'm proud of 
the ATF agents in this country. We have heroes, we really do. 
But--and I've been watching your body language, too, and Mr. 
Burton's. I'm sorry, sir, but that's all I could say. I have no 
other way to describe this.
    Mr. Gosar. Well, I mean, I look at this, and I look at--you 
know, when we're doing medical procedures, we look at what's 
our end game and what's all the processes in between, and 
there's collateral damage. And the problem is that collateral 
damages are crimes, and there are going to be deaths like we 
just saw, and there are going to be many more. And they're on 
this side, and they're on that side. And do you know what that 
tells me? That tells me that when you were in this planning 
stage, we've got a problem. It's not on the field, it's right 
there in the office, in the head office coming up with this. 
This was absurd to even have this idea. And to hear this merry-
go-round bantering back and around where we can't get an answer 
from Mr. Newell, I mean, the buck stops to somebody. Who is it? 
It's obviously to me. It's not these two gentlemen right here.
    I want to find out who Larry is. That's where we're going 
to have to go with this. But this is absurd. And the fact that 
we used people's lives and their--and our friends from Mexico 
as pawns in this without even discussing it, how absurd. It's 
reprehensible to even conceive of what's transpired here. And I 
hope the buck stops, and I hope you take accountability all the 
way through, because this can't go on again. This is--I mean, 
both sides of the aisle are furious, and the American people 
ought to be furious at you. If this is what you would get for 
higher ups in ATF or the Department of Justice, shame on you.
    And I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Virginia for his 5 minutes, 
Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And I'm sure all of 
our panelists are so pleased to be here today.
    I guess I have a slightly different take on the subject. I 
don't defend Fast and Furious, and I don't defend the actions 
of the U.S. Attorney's Office at the time in Phoenix, and I 
certainly believe that it was a botched attempt that led to a 
tragedy, perhaps many tragedies. And I think this committee and 
this chairman are right to raise those issues and to try to 
assign blame.
    But there's another part of the story I doubt very much the 
press will print in tomorrow's headlines, because it's so much 
easier to print who screamed the loudest at ATF and that you 
got beat up. But what the press won't print tomorrow, sadly, is 
the fact that Congress' hands are hardly clean on this subject. 
We have done everything to make sure that the ``F'' in ``ATF'' 
is nullified. We have made sure that you haven't got a 
permanent Director for 6 years. We laud the private sector. 
What private company would think it's okay to lack a permanent 
CEO for 6 years? We have done everything in our power in 
Congress to try to defang the ATF to make sure that it's 
toothless. We've done everything we can to fight your budget 
and reduce it so that you don't have the resources to do the 
job. We're not criticizing you for not doing well. We had 
testimony before this committee by one of your colleagues 
called by the committee majority who said there are more New 
York police officers per square mile in New York than there are 
ATF agents in all of the State of Arizona, and yet somehow 
we're going to stop the hemorrhaging of arms trafficking going 
into Mexico with that kind of paltry set of resources. But that 
won't be in the headline tomorrow.
    Some of the loudest critics of ATF today are also on a bill 
misnamed the Bureau of Alcohol, Tobacco, Firearms and 
Enforcement Act. What does that bill do? It allows firearms 
dealers to liquidate their inventories after having their arms 
dealer license revoked, and would decriminalize gun sale 
recordkeeping violations even if they contributed to cross-
border gun trafficking. How does that help ATF and its mission? 
Where is the accountability here in Congress on this subject?
    It's easy to beat up on you, it's easy to look for a 
scapegoat when the agenda really is to make sure that we make 
it harder, not easier, to enforce gun trafficking. We had 
testimony from one of your colleagues before this committee who 
said there's more regulation on over-the-counter Sudafed than 
there is in arms trafficking going into Mexico. And he 
testified, and was interrupted in this testimony because it 
wasn't welcome, that he believed we needed to toughen 
enforcement laws as a tool for ATF to be able to fulfill its 
mission along the border.
    So I have no doubt that we can all pile on, and correctly, 
criticizing ATF for a botched mission. But what isn't said, and 
sadly what the press isn't going to bother to write about, but 
they should, is the fact that Congress for 6 long years and 
maybe longer has done everything in its power to make sure, in 
fact, you can't do your job. And this set of hearings needs to 
explore that, too.
    With that I yield back the balance of my time to the 
ranking member.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T2802.006

    Mr. Cummings. There is no currently no Federal statute that 
criminalizes firearms trafficking. Instead traffickers are 
often prosecuted under 18 U.S.C. Section 922, which prohibits 
engaging in firearms business without a license. The need for a 
Federal firearms trafficking statute was also a common refrain 
of law enforcement agents interviewed by the committee, as Mr. 
Connolly said. They told us that a dedicated firearms 
trafficking statute would give them the ability to address 
patterns of activity by traffickers who divert firearms from 
legal to illegal commerce.
    Mr. Leadmon, based on your decades in law enforcement, do 
you believe a Federal firearms trafficking statute would be 
helpful in disrupting the flow of guns to Mexican drug cartels?
    Mr. Leadmon. Yes, sir. I have viewed your proposed 
legislation. I agreed with it wholeheartedly. One of the things 
I think that might be added to that is a little more emphasis 
on international trafficking. Maybe we can tighten it up a 
little bit as far as going to drug cartels. I, too, think that 
if you reach a certain amount of weapons, that can even be a 
life offense.
    Mr. Cummings. Thank you very much.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Texas Mr. Farenthold, also 
a Member who went to Mexico City.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    I would like to take a moment to address something I heard, 
before I asked the questions, from the other side. They were 
talking about how much more difficult it is and how much more 
regulated the purchase of Sudafed is. I don't see anywhere in 
the Constitution where we're guaranteed the right to bear 
Sudafed, but we are guaranteed the right to bear arms. So I 
think that is an inappropriate distinction.
    Mr. McMahon, when my friend the former prosecutor, the 
gentleman from South Carolina, asked you what the goal of this 
was, you said that it was to bring down a drug kingpin in 
Mexico. Is that a fair assessment?
    Mr. McMahon. Did I say that, sir?
    Mr. Farenthold. I'm sorry, I guess that was Mr. Newell.
    Did you say that, Mr. Newell.
    Mr. Newell. I believe what I said was the goal of the 
investigation was to disrupt and dismantle an entire firearms-
trafficking network, yes, sir.
    Mr. Farenthold. And so I believe you said a drug kingpin.
    Let me ask Mr. Gil--and to identify some drug kingpins. Let 
me ask Mr. Gil, does the Mexican Government know who the drug 
kingpins are in Mexico?
    Mr. Gil. Sir, they are aware of the heads of the 
organizations. To answer your question shortly, yes.
    Mr. Farenthold. And so let me go ahead and ask you another 
question there, Mr. Gil. In your time working with the Mexican 
Government as a former ATF attache in Mexico, did they ever ask 
us to do anything like that; you know, you let guns come across 
the border so they could track them or find or bring down 
government king--or drug kingpins?
    Mr. Gil. No, sir.
    Mr. Farenthold. All right. Let me go on to Mr. Canino. I 
want to applaud your service and your candor with this 
committee. We've heard that we're trying to bring down the drug 
kingpins, or whatever the words were, as far as stop the 
trafficking. If you were put in charge of developing an 
investigation to do that, how would you do that? Would your 
plan involve letting firearms move across the border, or how 
would you do it?
    Mr. Canino. To stop a drug kingpin?
    Mr. Farenthold. Or if you want to go even more simply with 
the firearms, stop the firearms trafficking?
    Mr. Canino. Well, to stop a drug kingpin, I would call DEA 
because that's what they do, number one. Number two, you work 
the traffic investigations paint by the numbers. It's 
frustrating to be an ATF agent. That comes with the badge, 
okay? Trafficking investigations, the laws, like I said, you 
have to be open-minded, I guess is the word I'm looking for. I 
don't know if that's the best description.
    But like I said, it's paint by the numbers. You have to 
work--it's like building a house. You start building a 
foundation; you work from the bottom up. In this case nobody 
got stopped. They didn't grab somebody and say, okay, hey, 
we're going to roll you. And I don't want to get into sources 
and methods, but there's a whole--you know, we have schools on 
this.
    Mr. Farenthold. If you watch a cop show, you know how it's 
done.
    Mr. Canino. Right.
    Mr. Farenthold. You follow the guns, or you arrest them at 
the first stop and try to flip them both. Or if you really want 
to partner with the Mexican Government, you follow the guns 
until it crosses the border and radio across to your colleagues 
in Mexico, and they move it up the line there. It seems like 
common sense to me.
    Let me ask--I want to ask this question to everybody on the 
panel, because I think this is really important. We've seen 
Operation Fast and Furious. We've recently heard about 
Operation Castaway, a similar program in Florida. Are any of 
you all aware at this time of any similar operations going on 
that allow guns to flow across the border to friendly countries 
now? Are you all aware of those, and if you are, are we doing 
anything to stop them? And if you could just come on down the 
line. We'll start with Mr. McMahon.
    Mr. McMahon. I am not aware of any case like that of 
friendly or unfriendly government, no.
    Mr. Newell. Neither am I, sir.
    Mr. Farenthold. Is anybody?
    Mr. Leadmon. No.
    Mr. Canino. No, sir. I'm unaware of any.
    Mr. Wall. No, sir.
    Mr. Gil. No, sir.
    Mr. Farenthold. And we only found out about this one 
through whistleblowers. And my prayer is that if there is 
anybody watching this committee hearing, ATF or another agency, 
that knows of something going on like this, that they let this 
committee know about it. This is one of the most shameful 
moments, I think, in our government's history when we are 
letting guns go across the border to our friends in Mexico.
    Let me just ask another--I only have 32 seconds left. I'm 
going to stick around for a second round of questioning, so 
I'll yield back my remaining 30 seconds.
    Chairman Issa. And I'll pick it up.
    Special Agent Newell, what did this program expend in 
money; millions of dollars, right?
    Mr. Newell. The program or the network?
    Chairman Issa. Well, Fast and Furious. Up on this side we 
think of it as a program, you think of it as a simple 
investigation. The investigation, you spent millions of dollars 
over the course of 2 years, correct?
    Mr. Newell. I don't believe it was millions of dollars, 
sir.
    Chairman Issa. Hundreds of thousands?
    Mr. Newell. Probably a couple hundred thousand dollars, 
yes, sir.
    Chairman Issa. Agents were camped out in some cases for a 
period of time at a drop location?
    Mr. Newell. Yes, sir.
    Chairman Issa. So when you were trying to do the big hit, 
the big fix, the big get the roll big guys, why is it that 
testimony shows us that only three times were there any kind of 
detection plants? And I don't want to get into sources and 
methods either, but only three times we have been told that 
they tried to do any detection, and one of these, GPS tracking, 
was a Radio Shack make-it-yourself. Why in the world would the 
quality and the quantity of agents and time, video cameras 
planted with Internet connections, etc., why is it there wasn't 
some tracking to track the weapons?
    Mr. Newell. We had trackers on vehicles, sir. We had the 
trackers you mentioned on weapons. But again, it goes to 
resources. I mean, it's resources. We have agents that are out 
there working 16-, 18-, 20-hour days.
    Chairman Issa. Unfortunately you have just made my case, 
and time has expired. Eighteen hours of an agent's time is so 
much more money than one of these tracking devices that you 
were penny wise and pound foolish by not having sophisticated 
devices.
    With that we go to the gentlelady from the District of 
Columbia for her 5 minutes. Ms. Norton.
    Ms. Norton. Well, suppose you had had a tracking device. 
Then what would have been the next step?
    Mr. Newell. Well, ma'am, it depends on how long the 
firearms stayed in the area. For instance, many of the--in many 
of the transactions here, the firearms never left the Phoenix 
area, and trackers, the battery life of a tracker is only good 
depending on----
    Ms. Norton. So if it didn't leave the Phoenix area, what 
could you charge this so-called trafficker? This law-abiding 
citizen who doesn't have a record, but he's buying many, many 
guns, what could you charge him with?
    Mr. Newell. There's nothing to charge him with at that 
point. We have to prove a violation has existed, has occurred.
    Ms. Norton. I just want to say, to sit in a hearing and 
hear people beat up on the ATF is very, very interesting to me. 
You sit in a Congress where the gun lobby controls the Congress 
of the United States. On the Republican side of the aisle, 
they're totally controlling; on my side of the aisle, they are 
virtually controlling. And the Second Amendment is cited as you 
try to do your job to keep guns from essentially bringing down 
the government of an ally.
    So when it comes to Mexico, let me ask you, what kind of 
gun control laws does Mexico have? Any of you know about their 
gun control laws? Yes, sir.
    Mr. Canino. Yes, ma'am, I do.
    Ms. Norton. Yes, sir. Would you speak up?
    Mr. Canino. Civilians could buy nothing greater than a .38-
caliber. Anything after that is for the exclusive use of the 
military and the police.
    Ms. Norton. So here is Mexico who does its job on its side 
of the border. It says--essentially it makes it very difficult 
for anyone except someone in law enforcement or the military to 
get a gun. So they come to the United States where trafficking 
is wide open.
    Let me ask you this: We are concentrating on Mexico now. 
Let me ask you about trafficking to Chicago. Let me ask you 
about trafficking to the District of Columbia, to Baltimore. 
Let me ask you about trafficking to L.A. Do these same 
traffickers operate as effectively in our country as we have 
now seen them operate taking guns to Mexico?
    Mr. McMahon. Well, I believe that the organizations are a 
little bit different. That's why I said earlier about we've 
never encountered an organization like this for Mexico. 
Trafficking in the United States, my experience anyway, is a 
little bit different. It's a little bit more association-
related. But obviously trafficking domestically is a major 
issue for us. And I spent the majority of my career working 
those kind of cases.
    Ms. Norton. If a person, let's say, buys 200 guns, and here 
you made mistakes. If I had a dollar for every mistake this 
Congress has made when it came to guns, I would be a very rich 
woman. You made a mistake. It was a fatal mistake, it was a 
mistake for which you are being held accountable. Let's say you 
hadn't made a mistake, that someone without a record bought 
guns. That's me. You found me with 200 guns. What could you do 
to me?
    Mr. McMahon. Nothing at all, ma'am.
    Ms. Norton. Did you feel disarmed in your fight against 
this wholesale movement of guns from our country to Mexico, or 
did you feel you were equipped to, in fact, by law enforcement 
to do what was necessary?
    Mr. McMahon. I think in my experience, ATF agents are very 
resilient. You have to be to make the case. And that's what our 
people do. And they do that every day, and they're out there 
doing that today.
    Ms. Norton. And they may design tactics to try to make 
them--to make themselves more effective on the ground?
    Mr. McMahon. I think that's what we should always be doing, 
yes.
    Ms. Norton. Could I ask each of you, would you feel better 
able to stop this traffic if the Congress passed a law that 
made it and added to our Criminal Code a section that 
prohibited the transfer of a gun when an individual knows the 
gun will be transferred to a person who is prohibited from 
carrying a gun or intends to actually use the gun illegally?
    Mr. McMahon. We currently do have a statute that does 
handle that. That's the whole ``lying on the Federal form'' 
violation.
    Ms. Norton. But lying on the Federal form gets you to 
where?
    Mr. McMahon. Gets us to--if we can prove that someone 
knowingly filled out that form incorrectly or lied----
    Ms. Norton. Can you seize guns? We've been talking about 
seizures here. In order to seize guns, what does the ATF have 
to show?
    Mr. McMahon. That a violation of law is committed with that 
firearm.
    Chairman Issa. The gentlelady's time is expired, but if 
anyone else wants to answer the question----
    Ms. Norton. What's the law that's been violated?
    Chairman Issa. If anyone else wants to answer.
    Mr. Newell. Yes, sir. Thank you, Mr. Chairman.
    We have to prove beyond a reasonable doubt that that 
firearm was somehow used in the violation of a--furtherance in 
violation of a crime or in violation of a crime. We can't just 
go out and randomly seize firearms from individuals. Firearm 
are in themselves not contraband. If we stop someone on the 
street with 5 AKs, 10 AKs, 20 AK-47s----
    Ms. Norton. Or 100 AKs.
    Mr. Newell [continuing]. Or 100, and they're not 
prohibited, as frustrating as that may be, and believe me it is 
extremely frustrating, but as frustrating as that may be, we 
may not have any legal ability to take those--to seize those 
firearms.
    Chairman Issa. Does anyone else want to answer that? Mr. 
Gil.
    Mr. Gil. Yes, Mr. Chairman.
    In my experience, and as I look around the room here, I've 
had the opportunity to work in pretty much every State of the 
Union, and I've always been able to use the current laws to 
success in investigations. Whether you're pulling somebody over 
with 100 AK-47s, I found that ATF special agents are very 
qualified in interviewing techniques; 99.9 percent of the time 
we'll get confessions from those individuals, we'll take those 
guns. And if not that case, then we would at least end up 
getting an abandonment from them for those weapons so they 
don't hit the streets.
    So there are other avenues to approach versus--that we 
could use under the current laws.
    Chairman Issa. Thank you.
    We now go to the most qualified person on the committee to 
ask questions, the gentleman from Pennsylvania Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    Special Agent, you're a trained special agent for ATF. Are 
you trained in the issue of walking guns?
    Mr. Canino. No, sir.
    Mr. Meehan. With regard to walking guns, when you are in 
training, what do you know about--what does ATF tell you about 
walking guns?
    Mr. Canino. You don't walk guns. Sir, I teach at the ATF 
National Academy, I teach at our first-line supervisor school, 
I teach at our command-and-control school for GS-15s and above.
    Mr. Meehan. Are you aware of anybody who has been 
disciplined for walking a gun in ATF?
    Mr. Canino. No, sir. But Darren was talking to me last 
night and put it in perspective. If you're an ATF agent, and 
you lose your gun, it's 3 days, no questions asked, up to 
termination on the circumstance if you lose your gun.
    Mr. Meehan. If you lose your gun.
    Mr. Canino. If it was your gun, it's 3 days.
    Mr. Meehan. What do you define as walking a gun?
    Mr. Canino. What exactly happened in this case.
    Mr. Meehan. In your words what do you think walking a gun 
is?
    Mr. Canino. Walking a gun is when you have custody and 
control of that firearm, and you let it get in the hands of a 
suspect, and you don't interdict that suspect. In this case we 
had cooperators at the gun stores, so they're acting as agents 
of the government. So it doesn't matter if those guns came out 
of an ATF prop vault or----
    Mr. Meehan. Thank you.
    Agent Newell, is that what you meant when you said that if 
ATF puts evidence into the hands of the gun--or into the hands 
of a suspect, there's a distinction somehow between a straw 
purchaser getting it or ATF putting it? Please explain to me 
what you talk--what you meant by the distinction of ATF putting 
it in the hands of a suspect.
    Mr. Newell. The distinction for me, Congressman, is that 
it's ATF actually putting evidence or some sort of prop firearm 
in the hands of a suspect.
    Mr. Meehan. So that's a distinction from a straw purchaser 
who goes and under your observation?
    Mr. Newell. In that aspect, yes, sir, it is.
    Mr. Meehan. So you're suggesting here that the distinction 
is because you did not put the hand--the gun in the hands of 
the purchaser here, that somehow there's a distinction from 
allowing a gun to walk?
    Mr. Newell. Well, Congressman, I disagree with something 
Mr. Canino just said regarding the fact that the FFLs were 
acting as agents of the government. My recollection of this 
case, two FFLs in particular were clearly instructed as to 
follow the letter of the law, to abide by the rules and 
regulations.
    Mr. Meehan. Let's move on because that's a distinction. The 
strategy. You were asked a specific question who defined the 
strategy for Fast and Furious?
    Mr. Newell. Well, a case like Fast and Furious goes through 
several levels of approval, sir.
    Mr. Meehan. Who originated the strategy for Fast and 
Furious?
    Mr. Newell. I believe it was at the street level.
    Mr. Meehan. Tell me who the person is who created the 
strategy for Fast and Furious? You are the special agent in 
charge of your area. It emanated from your district.
    Mr. Newell. Right.
    Mr. Meehan. Who originated the concept for Fast and 
Furious?
    Mr. Newell. Sir, it's not one person who did that, it was a 
group of individuals who looked at the set of facts in this 
case and determined that this was the best strategy to follow 
to take----
    Mr. Meehan. Where did it start? Where does the stream 
start?
    Mr. Newell. It starts----
    Mr. Meehan. Tell me who participated in that conclusion.
    Mr. Newell. Well, it's several individuals. It was a group 
supervisor, assistant special agent in charge, myself and 
individuals in headquarters.
    Mr. Meehan. Okay. So there were a number of people who were 
very learned in this process. Now, you testified here today 
earlier no part in the strategy to allow guns to be taken to 
Mexico. It was no part in the strategy to allow guns to be 
taken to Mexico; is that right?
    Mr. Newell. To knowingly allow guns to go to Mexico, yes.
    Mr. Meehan. To knowingly allow guns to go to Mexico.
    Mr. Newell. Sir, in this case we did everything. We had 
seizures in this case. When we had evidence----
    Mr. Meehan. I asked you a specific question. I said that 
there was no part in the strategy to allow guns to go to 
Mexico; is that accurate?
    Mr. Newell. Yes, sir.
    Mr. Meehan. Would Mr. McMahon have participated in any way 
in the development of this policy or this the Fast and Furious 
strategy?
    Mr. Newell. I know he was aware of it, yes.
    Mr. Meehan. He was aware of it.
    Mr. McMahon, you testified a plaza boss. He has $70,000, he 
wants $70,000 worth of guns. What's a plaza boss?
    Mr. McMahon. It's someone who controls an area for a 
cartel.
    Mr. Meehan. And where is that plaza boss?
    Mr. McMahon. In Mexico.
    Mr. Meehan. So you testified that part of the theory here, 
your words, is the plaza boss expects $70,000 worth of weapons.
    Mr. McMahon. Correct.
    Mr. Meehan. Mr. Newell, the strategy Mr. McMahon identifies 
that you expect, you understand that he expects $70,000 worth 
of weapons, where does that get in that there was no part in 
the strategy to allow guns to be taken to Mexico?
    Mr. Newell. Yes, sir. We still--during the beginning parts 
of this case, we did not know who the plaza boss was. We didn't 
know who----
    Mr. Meehan. That's not my question about who the plaza boss 
was. The question is is there a plaza boss? Agent McMahon just 
said he's in Mexico.
    Mr. Newell. Right.
    Mr. Meehan. And the plaza boss expects $70,000 worth of 
guns. Now you're saying no part of this strategy was allow the 
guns to go into Mexico. Who is right here?
    Mr. Newell. Sir, the strategy wasn't to allow guns to go to 
Mexico.
    Mr. Meehan. But what did Agent McMahon just say? This was 
an OCDETF case.
    Mr. Newell. Yes.
    Mr. Meehan. Who else participated in this, in the form of 
this going up the chain----
    Chairman Issa. I ask unanimous consent the gentleman be 
allowed to have another 30 seconds.
    Mr. Meehan. Thank you.
    Was this an OCDETF case?
    Mr. Newell. Yes, sir, it was.
    Mr. Meehan. Okay. That implies that at a certain point in 
time, it moves beyond your agency; does it not?
    Mr. Newell. Yes, sir.
    Mr. Meehan. What does that mean with regard to OCDETF? What 
kind of other participants were there as part of OCDETF?
    Mr. Newell. Well, there are other agencies who are involved 
in this.
    Mr. Meehan. Other agencies. What other agencies were 
involved in this?
    Mr. Newell. In this investigation, they were full partners 
in this case, was the Immigration and Customs Enforcement, now 
known as Homeland Security Investigations; we had Internal 
Revenue Service; and we had assistance to some level from DEA.
    Mr. Meehan. So are you saying DEA, IRS and ICE all knew 
about this program to participate in the OCDETF?
    Mr. Newell. They participated in the investigation, yes.
    Mr. Meehan. In the investigation. Were they aware that guns 
were being walked to Mexico?
    Mr. Newell. Sir, again, I'm assuming that they--I mean, I 
know they would know of the strategy.
    Mr. Meehan. They were aware of the strategy?
    Mr. Newell. Yes, sir.
    Mr. Meehan. Which included what Special Agent McMahon 
talked about, allowing $70,000 worth of guns to go to the plaza 
boss?
    Mr. McMahon. Sir, I never said that we were allowing 
$70,000 worth of guns to go on.
    Mr. Meehan. You said it was the expectation.
    Mr. McMahon. I was giving a scenario of how it works. 
There's a plaza boss in Mexico that's requiring $70,000 worth 
of guns. So if he's not getting it from the network we're 
investigating, he's getting it from somewhere else. It wasn't--
the $70,000 example I gave you wasn't specific to this 
investigation, it was an over-real generalization of how 
trafficking to Mexico works.
    Mr. Meehan. But we're talking about plaza bosses, we're 
talking about plaza bosses in Mexico.
    Chairman Issa. The gentleman's time has expired. We are 
going to have a second round in just a moment.
    The gentlelady from New York Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman.
    I'm uncertain as to where to start here because of what 
I've heard. I think that I'll start with Mr. Canino.
    Mr. Canino, your comments were that it's inconceivable to 
let guns go, it's not the way the ATF does things. So in your 
experience is what happened in Operation Fast and Furious an 
aberration from the usual way that ATF does business?
    Mr. Canino. This is the first time I've ever heard of 
anything like this in 20--I start my 22nd year on Friday. This 
is the first time I've heard anything like this.
    Ms. Buerkle. And during the course of this operation, were 
you advised that there was going to be--at one point did you 
become aware that there was going to be a different method of 
operation?
    Mr. Canino. Ma'am, I need to put this in context. I 
didn't--the first time I ever heard of someone accusing ATF 
agents of actually watching suspected gun traffickers just 
drive away was when Special Agent Dodson was on CBS. I had--and 
I didn't believe them, and I was very vocal about that. I 
didn't become aware until it started coming out little by 
little, talking to fellow agents. And then mid-April I saw some 
documents, and that convinced me that what Special Agent Dodson 
was alleging was, in fact, correct.
    Ms. Buerkle. Thank you.
    And the other special agents that are here, Mr. Gil, Mr. 
Wall, Mr. Leadmon, in your experience is this the first time 
you've ever seen ATF operate this way?
    Mr. Gil. Again, I recently retired. And after--going on 23-
plus years. It's inconceivable. And again, I didn't believe it 
even after seeing Mr. Dodson as well. And I still didn't 
believe it until after I talked with Mr. Dodson and others that 
then I became convinced that perhaps ATF did walk these 
weapons.
    Ms. Buerkle. And Mr. Wall.
    Mr. Wall. As I stated in my opening remarks, yes, it's the 
first time I have ever seen it. And I was very skeptical. I 
didn't believe Mr. Dodson at all.
    Ms. Buerkle. And Mr. Leadmon.
    Mr. Leadmon. Ma'am, part of my duties and functions is to 
look at the southwest border cases, all of them, and this is 
the first one I've seen.
    I would like to add something that the panel was asking 
earlier. You asked when we first became aware that Mr. Acosta, 
right, was involved as the leader of the straw purchasing ring 
and some of the other issues as to Mr. Patino. That was in 
2009, and it was early on. I briefed it to my senior directors 
January 2010. And we know this, and one of the driving forces 
behind how we know that these were going to Mexico and there 
were Mexico people involved is because our other law 
enforcement partners provided us with information, specific 
information, that allowed us to know exactly what was going on 
and to what cartel it was going to. This was not a mystery. We 
knew this in December 2009. I briefed it in 2010, January.
    Ms. Buerkle. Thank you, sir.
    So, Special Agent Newell and Special Agent McMahon, we'll 
get to you because you're his supervisor. So at some point, 
based on the IG's report and DOJ, they said, we're going to try 
something different here. I'm assuming, because that's the way 
things work in government, and maybe I'm wrong, that someone 
said, we need to have this operation, and we're going to make a 
determination that for the first time ATF is going to conduct 
business this way, we're going to let these guns walk. Now, 
maybe he didn't say it, but in essence that's really what 
happened, because this is a different way of conducting 
business with ATF.
    Where would that plan have come from? Somebody--and I know 
you said you sat down with this group, Mr. Newell, but somebody 
higher up than you made a determination that for the first time 
ATF was going to run this. We've heard from this panel, we've 
heard from the panel prior to today that this is a complete 
aberration from the way ATF has done business. Where would that 
have come from?
    Mr. Newell. Well, ma'am, in putting a strategy together for 
this case, the strategy came from several places. The 
Department of Justice issued originally in a draft in 2009, 
October 2009, and January 2010 about how to combat southwest 
border drug trafficking by Mexican drug cartels, and one of 
them dealt with firearms trafficking, which said through use of 
the OCDETF colocated strike forces, mere interdiction is not 
the answer; you have to go after the structure of the 
organization of the--whatever it be, firearms, human, drug-
trafficking organization to make the biggest impact.
    Ms. Buerkle. Okay. And who would that memo have come from?
    Mr. Newell. I do believe that memo came down from the 
Deputy Attorney General's Office.
    Ms. Buerkle. And then--so this is now we're going to change 
strategy. This is going to be a different way to conduct an 
operation. So you get your directive from them. And then these 
groups that you talked about, you sat down and you came up with 
a plan, or did that plan come from up on high?
    Mr. Newell. The plan figured into--or the memo figured into 
how we were going to address this. When we first looked at it 
in November 2009, it was already a very active, prolific 
firearms-trafficking organization, as Mr. McMahon testified. In 
my 23 years we have never seen an organization that was this 
prolific in buying firearms in such a short period of time. So 
we felt that at that time, in conjunction with the OCDETF 
Strike Force where this Group VII was located, that the best 
way to attack this organization was through the use of a 
multiagency, conspiratorial-type investigation would dismantle 
the whole organization.
    Chairman Issa. The gentlelady's time is expired.
    We now go to the gentleman from Michigan Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman. I'm going to yield my 
time to Mr. Gowdy.
    Mr. Gowdy. I thank the gentleman from Michigan.
    Mr. Leadmon, for those who are perhaps watching and not 
familiar with the full panoply of investigative techniques, 
surveillance is a tried and true investigative technique, 
correct?
    Mr. Leadmon. Yes, sir.
    Mr. Gowdy. What about consensual encounters where you just 
do a knock and talk, where you walk up to somebody and ask 
them? There's a reason Dostoevsky wrote Crime and Punishment, 
there's a reason Edgar Allen Poe wrote The Tell-Tale Heart. 
Sometimes people confess, don't they?
    Mr. Leadmon. Yes, sir. There's several tools in the 
toolbox, especially when you're faced with the fact that we 
know that these weapons are going to be used in such carnage 
down in Mexico and the United States. We should have pulled 
every tool out of that toolbox, not just to make our case. Our 
case should not have been the priority here. The stopping the 
flow of those firearms should have been the number one 
priority. And we should have reached into that toolbox, we 
should have conducted interviews, or we should have done 
interviews to surrounding people. We should have tracked these 
weapons better. We should have followed everything by the 
letter to stop them. I mean, just where do we stop with the 
number of guns; 1, 5, 10?
    Mr. Gowdy. Have you ever heard tell of a law enforcement 
officer stopping someone for speeding when really they may have 
had another purpose in mind?
    Mr. Leadmon. I have heard that----
    Mr. Gowdy. It happens from time to time, doesn't it? 
Crossing the yellow line?
    Mr. Leadmon. Sooner or later you are going to make a 
mistake.
    Mr. Gowdy. Exactly. And when you do a lawful, nonpretextual 
car stop, it also opens up a full panoply of other search 
options, right, like searching the vehicle or a pat-down?
    Mr. Leadmon. Yes.
    Mr. Gowdy. How about a proffer? Is that in your toolbox to 
go to a U.S. attorney and say, I would like to proffer this 
person, I would like to send them a grand jury subpoena?
    Mr. Leadmon. Correct.
    Mr. Gowdy. It's the same way you conduct every other 
investigation other than this one, right?
    Mr. Leadmon. Correct.
    Mr. Gowdy. From shoplifting to murder, we do them all the 
same way except this one?
    Mr. Leadmon. Correct.
    Mr. Gowdy. Special Agent Newell, I happen to think this was 
ill-conceived from its inception. You have testified repeatedly 
that the purpose was to destroy and dismantle drug cartels. So 
I'm going to ask you again, how would this ever have succeeded? 
What was your purpose? How would we have known, hey, this was a 
great investigation, it succeeded?
    Mr. Newell. Sir, you said to disrupt a dug cartel. The 
purpose of this investigation was to disrupt and dismantle a 
firearms-trafficking organization that was feeding firearms----
    Mr. Gowdy. In Mexico.
    Mr. Newell. In the United States. A firearms trafficking 
organization in the United States. Not only the straw 
purchasers; the middlemen, the transporters, the financiers.
    Mr. Gowdy. Well, then, when the guns were going into 
Mexico, you should have known that this was an abject failure, 
because that's not what you wanted, right?
    Mr. Newell. Absolutely. We didn't want any guns.
    Mr. Gowdy. So when you found out the first gun went into 
Mexico, why did you not abort the investigation?
    Mr. Newell. Because we were still putting the facts 
together to be able to convict all----
    Mr. Gowdy. When is the very first time you knew or should 
have known that firearms were going to Mexico?
    Mr. Newell. Well, I believe it was when I got the--when we 
got the first traces, I was advised of the first traces, which 
I believe was November 2009.
    Mr. Gowdy. 2009. And when did you abort the investigation?
    Mr. Newell. The investigation is ongoing, sir.
    Mr. Gowdy. Right. That's my point. So you knew the weapons 
were going to Mexico?
    Mr. Newell. Right.
    Mr. Gowdy. Were you at some point going to let Special 
Agent Canino know about it?
    Mr. Newell. Mr. Canino knew about the investigation.
    Mr. Gowdy. He knew that weapons were going into Mexico?
    Mr. Newell. Well, absolutely, yes.
    Mr. Gowdy. When were you going to let your Mexican 
counterparts know about it?
    Mr. Newell. I'm assuming they knew that firearms--because I 
have--you know, sir, one of the issues about that is there's 
only one field division in this country, only one, that has a 
PGR representative in it. That's the Mexican Department of 
Justice. In all my years of working with Mexico--I spent 4 
years in Bogota, Colombia, representing ATF in South America. I 
am very, very, very key on the fact that we need to share 
information with our foreign law enforcement partners.
    Mr. Gowdy. Well, you testified earlier that you were going 
to turn the information over to Mexican prosecutors and let 
them prosecute. Because I asked you were you also going to 
allow U.S. law enforcement officers to be extradited to Mexico 
for breaking their law, and you said no. So my question to you 
is this: How in the world are you going to get our brothers and 
sisters in law enforcement to trust--why would you trust the 
prosecution if you don't trust them during the investigation?
    Mr. Newell. Sir, to answer your question about the drug 
cartel, the kingpin, or--in your words, the kingpin that we're 
going to get the guns in Mexico, we did not have information 
until late in this case, an ongoing part of this case, who that 
individual was. And I invited with Mr. Canino, we invited in 
December 2010, as well as in January, Mexican prosecutors to 
come in. And I don't think that's ever been done before. And 
I'm the one that requested it.
    Mr. Gowdy. Did you debrief them on Fast and Furious?
    Mr. Newell. Yes.
    Mr. Gowdy. Did you tell them the guns were going into 
Mexico?
    Mr. Newell. Well, yes.
    Mr. Gowdy. You told them when?
    Mr. Newell. Well, my PGR representative that I have in my 
office who has been there for 2 years knew about this case, not 
in specifics.
    Mr. Gowdy. When the first gun showed up in Mexico that you 
knew was from Phoenix, the first one that was connected to this 
showed up in Mexico, did you go interview the straw purchaser?
    Mr. Newell. No, sir, we did not.
    Mr. Gowdy. Why not?
    Mr. Newell. Because, again, our strategy was that we, 
knowing from years of experience, you take off one straw 
purchaser, you're not having an effect on the greater 
organization, which is at that point--in November 2009 you have 
to realize it wasn't----
    Mr. Gowdy. Have you ever flipped a cooperating witness 
before?
    Mr. Newell. Yes, I have.
    Mr. Gowdy. How do you do it without asking them? How do you 
do it without interviewing him?
    Mr. Newell. It depends on what your goals in investigation 
are.
    Mr. Gowdy. Your goal is to bring down an organization. It's 
very compelling testimony to have someone from within the 
organization testify against his comrades, right?
    Mr. Newell. Yes, sir.
    Mr. Gowdy. So why didn't you go--why didn't you approach 
him?
    Mr. Newell. Approach who, sir, the one straw purchaser?
    Mr. Gowdy. Yes, the straw purchaser.
    Mr. Newell. Again, the goal, sir, in this case was to take 
out the whole organization. We felt that by just trying to flip 
one straw purchaser, if he, in fact, did flip, it would not 
affect the overall goal.
    Chairman Issa. The gentleman's time is expired. We'll have 
a second round.
    We now go to the gentleman from Idaho Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Special Agent Canino, I just think I just heard Special 
Agent Newell say that you knew about this gun walking. Can you 
please----
    Mr. Canino. Yes, sir. I want to make it perfectly clear to 
you, the American people, the Mexican Government, my family, my 
friends, at no time ever did I know that ATF agents were 
following known suspected gun traffickers, one of which bought 
700 guns, and we knew about his guns showing up in Mexico 6 
weeks after we opened up that investigation--never, ever would 
I imagine that we were letting that happen. We have 4,000 
investigations, plus or minus, with a Mexico-U.S. nexus. There 
are guns coming in. That's trafficking, that guns are coming 
into Mexico. I had no clue that we were allowing these guys to 
operate like this.
    Like Mr. Gowdy said, there was no interdiction to start any 
case. You have to--you have a toolbox. We have classes. Jose 
Wall teaches those trafficking classes. I've been to them. It's 
like building a house. You start from the bottom, and you try 
to work your way up, you know. At one point you're only going 
to reach so far. And then you come in and you have a meeting 
and you say, okay, how can we advance this? You meet with the 
U.S. attorney. From what I see here, none of this was done, or 
if it was, it wasn't very effective.
    Mr. Labrador. So when did you first realize that the gun-
walking allegations were true?
    Mr. Canino. April.
    Mr. Labrador. Of this year?
    Mr. Canino. Yes. April--I mean, I was starting to lean that 
way, and then I was at ATF bureau headquarters in April for a 
meeting, and I sat down with Mr. Leadmon, and he convinced me.
    Mr. Labrador. Did you come across any specific evidence to 
prove that ATF had taken part in these actions?
    Mr. Canino. One more time. Sorry.
    Mr. Labrador. Did you come across any specific evidence to 
prove that ATF had taken part in these actions?
    Mr. Canino. Well, from the totality of the circumstances, 
and then speaking with different agents and speaking with Mr. 
Leadmon, yeah. And, you know, the guns showing up in Mexico.
    Mr. Labrador. Did you review any documents or anything?
    Mr. Canino. You know, sir, when I visited Mr. Leadmon, I 
saw--I took a look at the management log, and if I read it 
correctly, there are three instances in the first two pages 
where we walk away from guns. At that point I was so disgusted, 
I didn't even want to look at the case file anymore.
    Mr. Labrador. And when was that?
    Mr. Canino. That was in mid-April or so of this year.
    Mr. Labrador. Why were you so upset with this information?
    Mr. Canino. Because it goes against everything we're 
taught. I mean, like I was explaining earlier, you don't do 
that. We're not taught to do that from the first day we walk 
into the academy all the way until you leave this job, like 
Darren said. It's not a recognized investigative technique. 
This is not a special case, this is just a trafficking case 
that we do. This is what we do, you know, amongst other things. 
But trafficking is what we do, especially on the southwest 
border. This was--this wasn't a one of, this wasn't a who done 
it. This was, you know--this was a ground ball.
    Mr. Labrador. Just a basic case?
    Mr. Canino. Yeah.
    Mr. Labrador. What you do every day?
    Mr. Canino. Exactly.
    Mr. Labrador. Special Agent Newell, do you know who Kevin 
O'Reilly is?
    Mr. Newell. Yes, sir.
    Mr. Labrador. What's the nature of your relationship with 
him?
    Mr. Newell. I've known Kevin for, I would say, probably 10 
or 12 years.
    Mr. Labrador. How often do you communicate with him?
    Mr. Newell. I haven't communicated with him in a while, but 
probably three or four times a year, something like that, or 
maybe more depending on him reaching out to me.
    Mr. Labrador. Isn't it a little bit unusual for a special 
agent in charge of an ATF field division to have direct email 
contact with the national security staff at the White House?
    Mr. Newell. He's a friend of mine.
    Mr. Labrador. How many times did you talk to him about this 
case?
    Mr. Newell. The specifics of this case? I don't think I--I 
don't think I had one specific conversation with him about the 
specifics of this case.
    Mr. Labrador. Who----
    Chairman Issa. Would the gentleman allow me to help him a 
little? Not that you need it. But could you take the word 
``specific'' out and answer the general, did you talk to him 
about this case?
    Mr. Newell. I might have talked to him about this case, 
yes, sir.
    Mr. Labrador. Do you know when that was?
    Mr. Newell. I was probably--as I recall, I think it was 
during the summer. It might have been the summer or early fall 
of 2010.
    Mr. Labrador. So, Special Agent McMahon, you took 
responsibility this morning here for the actions of the agency, 
and I appreciate that. Who at the highest levels--I can't 
imagine that this is something that you decided to do on your 
own. Who did you communicate with at the highest levels about 
this case?
    Mr. McMahon. I communicated to my chain of command within 
ATF. We were all very much made aware of this investigation and 
what was going on.
    Mr. Labrador. And who was aware at--who was aware that this 
investigation was occurring and that guns were being walked to 
Mexico?
    Chairman Issa. You can answer that question. The time has 
expired, but go ahead.
    Mr. McMahon. I mean, no one was aware that guns were 
walking at my level or above me. And again, we're getting 
caught up in this whole definition of ``walking.'' But even 
given whatever the definitions are, no one from my level up 
knew of any gun walking.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Florida Mr. Ross for 5 
minutes.
    Mr. Ross. Thank you, Mr. Chairman.
    Mr. McMahon, I had an opportunity to read your opening 
statement. I apologize, I have been in and out of here.
    First of all, appreciate your service. And I understand 
your remorse with what is going on here. I have to talk to you 
a little bit about your interview that you had, your 
transcribed interview. And I would like to review some of that 
with you.
    In fact, if I could get slide six brought up. This is a 
transcript of your interview that you had for the committee 
when you were asked whether you read the wiretap applications 
for the Fast and Furious. And you responded, ``No, I did not.'' 
Do you recall that question and that answer?
    Mr. McMahon. I do.
    Mr. Ross. Okay. Then you were asked if it was your job to 
sign off on the wiretap applications, you stated, ``No, I never 
signed off on a memo for a wiretap application.''
    Mr. McMahon. That is correct.
    Mr. Ross. That was your statement, and it is still today?
    Mr. McMahon. Yes, it is.
    Mr. Ross. Slide seven. Could we see slide seven? Okay.
    This is a memorandum dated February 5, 2005, addressed to 
you from the group supervisor of Phoenix Group VII. And the 
first line states, This memorandum serves to request 
authorization to initiate a Title III cellular telephone 
intercept. It is addressed to you. Do you recall that 
memorandum?
    Mr. McMahon. I recall seeing it just recently, yes.
    Mr. Ross. Just recently? You don't recall seeing it before?
    Mr. McMahon. I do not.
    Mr. Ross. At all.
    Mr. McMahon. I do not.
    Mr. Ross. Okay.
    Slide eight. If we could get slide eight up there.
    And this is an email from William Newell to you on February 
5, 2010. Attached to this email was an email--was a memo that 
we just saw in the past slide. And the email states that 
attached to the coverup memo requesting authorization to 
conduct a T-III intercept on the main suspect of the OCDETF 
Strike Force firearms trafficking case out of the Phoenix 
entitled, ``The Fast and Furious.'' I am FedExing that to you. 
Do you recall receiving that email?
    Mr. McMahon. I don't recall, but I mean, I obviously 
received that email, yes.
    Mr. Ross. Okay.
    Mr. McMahon. I don't specifically recall receiving this 
email, no.
    Mr. Ross. Do you recall seeing the attachment that was 
attached to it?
    Mr. McMahon. No, I do not. And I think our email records 
show they weren't able to scan the attachment because it was so 
large, and they said they were going to FedEx it.
    Mr. Ross. Who said that to you?
    Mr. McMahon. I think it says it here in this email.
    Mr. Ross. Told you it was too large?
    Mr. McMahon. That is what I read here. It says, I could not 
scan the actual affidavit due to its size, so I am FedExing it. 
So scanning it would mean attach it to this email.
    Mr. Ross. Now, this is a request for a wiretap. Yeah. This 
is a request for a wiretap that is attached to the email.
    Mr. McMahon. A wiretap is actually an affidavit that is 
prepared at the U.S. Attorney's office.
    Mr. Ross. Okay.
    So let's go to slide nine then. Okay. This is an affidavit 
prepared by Special Agent Hope MacAllister in support of an 
application for authorization to intercept wire communications. 
It is attached for your review.
    Now, the signature block is for Mark R. Chait, but there is 
someone else's signature there. Do you recognize that 
signature?
    Mr. McMahon. I do.
    Mr. Ross. Whose signature is that?
    Mr. McMahon. That is my signature.
    Mr. Ross. Okay. So you were aware of this request for a 
wiretap.
    Mr. McMahon. Absolutely.
    Mr. Ross. Okay. And having seen these documents now, is 
there anything you--would you like to clarify any of your 
testimony or your interview at all?
    Mr. McMahon. Not at all, no. I know that we forwarded the 
application for the wiretap through the legal counsel process 
to get their approval before it went back to the Phoenix U.S. 
Attorney's office and then on to the OEO in Main Justice.
    Mr. Ross. Okay. But you just testified just minutes ago 
that you weren't--don't recall ever requesting authorization 
for the T-III intercept.
    Mr. McMahon. No, I said that I never recall receiving this 
request. I did get the actual application for the wire--many 
wiretaps, and then they were forwarded on.
    Mr. Ross. And this is one of those requests for the wiretap 
that you authorized, the affidavit.
    Mr. McMahon. The last slide that you put up that had my 
signature for Mark Chait----
    Mr. Ross. Yes.
    Mr. McMahon [continuing]. That would transmit the actual 
application for wiretap, yes.
    Mr. Ross. Okay. Now, in your interview, were you asked 
about this?
    Mr. McMahon. Not this specifically, no.
    Mr. Ross. Okay. Did you volunteer it?
    Mr. McMahon. Not that I recall, no.
    Mr. Ross. Okay. Any reason why not?
    Mr. McMahon. I am trying to figure out what I need to 
volunteer. I think I did tell the staff when I was interviewed 
that I don't recall--I did recall receiving applications.
    Mr. Ross. You downplayed to Mr. Kumar your knowledge about 
any of this.
    Mr. McMahon. I downplayed to Mr. Kumar my knowledge about 
this?
    Mr. Ross. Yes. Didn't you?
    Mr. McMahon. No, that is not correct. I told Dan Kumar 
everything I knew about this case.
    Mr. Ross. When was that? In March 2010?
    Mr. McMahon. It was throughout this investigation. I think 
Dan sat in on some of the briefings. We discussed it.
    Mr. Ross. I see my time has expired.
    Chairman Issa. I ask the gentleman have an additional 30 
seconds.
    Would the gentleman yield that 30 seconds?
    Mr. Ross. Yes, sir.
    Chairman Issa. So if I am to understand, just as a lay 
person, I am one of the nonlawyers up here, so that is why I 
introduced the qualified people early on. But as a lay person, 
it looks to me like you had an intimate part in the wiretap 
request. Your signature was part of a request process. And yet 
when we asked you about your being involved in them, you did 
not volunteer to tell us about this part. You simply relied on 
you didn't actually sign the affidavit. Is that what you are 
saying? The truth was you didn't sign the affidavit, even 
though you signed this document and saw other documents and 
were sent other documents that you may not remember?
    Mr. McMahon. I signed this document that transmitted the 
application for the wiretap to our counsel's office for them to 
review.
    Chairman Issa. But you never looked at it?
    Mr. McMahon. No, I did not. Again, I think I said earlier 
on mistakes were made. And one of the first questions you asked 
me, sir, is what mistakes. And that mistake is not doing a 
thorough enough review of the documents that were coming across 
my desk. I accept full responsibility for that.
    Chairman Issa. I thank the gentleman.
    Would the gentlelady from New York like to have a round of 
questions?
    Mrs. Maloney. First of all----
    Chairman Issa. The gentlelady is recognized.
    Mrs. Maloney. Thank you very much.
    And I thank you and the ranking member for holding this 
hearing, and all of you for your service to our country. We 
appreciate it.
    We have had a series of hearings. I regret I was also in a 
hearing that we are having in Financial Services that I am 
ranking member on it, so I had to be there. So I wasn't here 
for most of it. But Mr. Cummings is going to brief me 
completely on everything that happened.
    But in one of our prior hearings, we had Special Agents 
that basically testified that the enforcement was not strong 
enough, that that was one of the problems on the border, that 
there wasn't an express law against trafficking in guns. And 
that a lot of times the penalties were, to use the terms of one 
of the agents, he called them toothless, that you really 
couldn't do anything with it.
    And they said that the penalties, even in trafficking guns 
and very serious offenses, and straw purchases and all kinds of 
things, really ended up in nothing more than probation. So, 
therefore, they didn't even feel like pursuing convictions 
because the penalties were so lax. And it was inadequate either 
to deter illegal purchases, and it wasn't strong enough to 
encourage the cooperation of suspects when they were 
cooperating. They had to have stronger laws.
    So I put in a bill with other members of this committee to 
make trafficking in guns a Federal crime. And I would like to 
ask Special Agent McMahon and Newell whether or not you think 
this would help in combating violence, drug trafficking, 
illegal gun trafficking at the border.
    Mr. McMahon. Currently, obviously, we have some laws that 
are in place that we are using and we are enforcing to the best 
of our ability. I think any extra tool is going to be helpful 
to us. I think when it gets more specific, as I think some of 
the legislation that has been presented would be more specific, 
would make things obviously easier.
    Mrs. Maloney. Do you think it would disrupt the flow of 
guns on the border? Do you think it would help in that way?
    Mr. McMahon. I think a tool like that would help, yes.
    Mrs. Maloney. And Newell, would you also like to testify on 
it?
    Mr. Newell. Yes, ma'am, I believe, as a matter of fact, the 
Congressional Research Service in July 2009 published a report 
which said, I believe the title of it was ``Gun Trafficking in 
the Southwest Border.'' And in there, they talked about the 
need for a specific statute to address the trafficking of 
firearms by a group of individuals that would aid law 
enforcement, a statute that would aid law enforcement in being 
able to address the specific activity that is currently not 
illegal. So any tool that we would have to assist us in that 
obviously would be welcome.
    Mrs. Maloney. Does everyone else on the panel agree? If you 
disagree, would you like to express why? Does everyone agree 
that this would be a tool that would be helpful or----
    Mr. Gil. I would somewhat disagree.
    As I stated earlier, I think the lying and buying, the 
straw purchase is by definition itself, you are buying a weapon 
or purchasing a weapon or obtaining a weapon for transfer to 
some other third party in and of itself is trafficking. We have 
some personnel that give outstanding trafficking courses 
throughout my career, certainly in the last few years. And we 
provided this training to State and locals, as well as to our 
Federal partners. And lying and buying, straw purchasing is of 
itself is trafficking. And that is what we promoted during 
these sessions.
    Now, I would agree with you that, by definition, a straw 
purchaser has no criminal history. Therefore, we would have to 
increase the penalty for those folks that are actually making 
the initial purchase.
    Mrs. Maloney. That is what the bill does. And I think 
oftentimes I listen to the people that are in the combat, that 
are on the streets trying to get the job done, which is our 
Special Agents. And in several panels, including today, they 
have said that a strong anti-gun-trafficking bill would help 
them do their jobs. So I think we should listen to them.
    One of the testimonies in our last hearing, one of the 
agents said that they were military-type weapons, that it 
wasn't--no one wants to inhibit a hunter for getting a gun to 
go hunting with or someone to protect themselves. But these 
were really the type of weapons, like AK-47s, that are used in 
military combat. And they were training and trading in these 
very deadly, deadly guns. And I understand even the protective 
equipment has to be reinforced for military-type guns.
    And the rule that was put in place to report on rifles that 
are being--long guns that are being sold was also, they 
testified, very helpful. And I would like to hear what your 
view is from the front lines, Mr. Newell and Mr. McMahon.
    Mr. McMahon. We were asked that question earlier. We all 
agreed that the demand letter reporting the multiple sale of 
those rifles would be helpful for us, yes.
    Mrs. Maloney. Is there any other tool that this Congress 
could give you that would help you save lives? We are all for 
the Second Amendment for a lawful person to own a gun. But for 
a criminal and a drug cartel to have easy access, I think the 
number was 40,000 deaths last year.
    Chairman Issa. The gentlelady's time has expired. Is there 
a question?
    Mrs. Maloney. Yes. I just want to know if there are other 
tools we could give you that would help you combat on the front 
lines the illegal sale of guns that is leading to the violence 
on the border.
    Mr. McMahon. I have testified before Congress a number of 
times. And it is not my place to ask. I know ATF will do 
whatever we can with the resources and the laws that Congress 
provides us.
    Mrs. Maloney. Any others?
    Chairman Issa. With that, we now go to the gentleman from 
Pennsylvania, Mr. Meehan.
    And this is a second round, folks.
    Mr. Meehan. Thank you, Mr. Chairman.
    And Mr. Newell, I am certainly struggling to find out who 
knew what, when, in the form of the not only formulation of 
this process, but the approvals as well. So it is my 
understanding that this was conceptualized in November 20, 
2009. Is that correct? Fast and Furious?
    Mr. Newell. No, sir. The investigation first began in 
November 2009 under the name of Jacob Chambers, who at that 
time was identified as one of the more prolific straw 
purchasers. As the case progressed, and I will say that in 
November, about mid-November 2009, when the Special Agents 
started looking into what appeared, obviously, to be some 
connected activity in terms of straw purchases, she did a 
phenomenal job in putting a bunch of pieces to the puzzle 
together, if you will, and noticed that one individual by the 
name of Jacob Chambers seemed to be at that time one of the 
more prolific straw purchasers.
    At that time, I think when she put all the pieces together, 
she knew at that time it was something like 350 guns that had 
been purchased by this group. As the case progressed through 
December and then early January, we were working out of the 
OCDETF strike force, I think she realized----
    Mr. Meehan. When did you begin the process of having this 
be an OCDETF strike force case?
    Mr. Newell. In mid-January, yes.
    Mr. Meehan. In mid-January 2010?
    Mr. Newell. We submitted it as an OCDETF proposal in 
January 2010, yes.
    Mr. Meehan. Okay, 2010. Okay.
    Mr. Leadmon, am I correct from your testimony, I just heard 
you make a comment with respect to you are an intelligence 
analyst, among other things. Isn't that correct? One of the 
things that you do is try to take a global perspective on how 
guns may be moving in the United States and Mexico and 
anywhere?
    Mr. Leadmon. Yes, sir.
    Mr. Meehan. Okay. So part of this is to follow the flow of 
guns. Your testimony was that within 6 weeks of the beginning 
of this, other law enforcement--yeah, other law enforcement 
providers provided us with information in December 2009, 
because you were concerned about guns that were in Mexico being 
found in Mexico.
    So, in essence, December 2009, prior to really the 
beginning of Fast and Furious, you as the analyst are already 
identifying for people that guns are being trafficked into 
Mexico that you are concerned are coming from Phoenix.
    Mr. Leadmon. Yes, sir. Let me kind of explain that a little 
bit and bring things in perspective. In November 20, 2009, 
there was an interdiction by the Mexican authorities in which 
there was approximately 41, 42 weapons, firearms recovered. The 
information we got through the assistance of ICE and so forth 
down there, they covered the interviews----
    Mr. Meehan. Was this in November 2009, 42 guns were seized?
    Mr. Leadmon. Yes.
    Mr. Meehan. So 42 guns were seized in Mexico.
    Mr. Leadmon. Correct.
    Mr. Meehan. And you are just beginning this OCDETF in 
January, which means you are moving up the chain and getting 
approvals from other people beyond you, Special Agent Newell, 
beyond you, Mr. McMahon. You are getting approvals to pursue 
this. You know 40 guns have already left Phoenix and gone into 
Mexico at that point in time. Mr. Newell.
    Mr. Newell. You are correct.
    Mr. Meehan. I am correct that in January, when you begin 
this, you were aware that those guns were trafficked from 
Phoenix into Mexico.
    Mr. Newell. Yes, sir. To be clear on that seizure, I 
believe Mr. Leadmon has better information. I think it was 
seven of those guns were Fast and Furious guns.
    Mr. Leadmon. Thirty-seven.
    Mr. Newell. Thirty-seven of those guns were Fast and 
Furious guns. And we did submit in mid-January, for OCDETF 
approval, of the Fast and Furious plan.
    Mr. Meehan. What was the plan then? Because you knew at 
this point in time--before you testified that there was no part 
of any plan that guns would be known to be going to Mexico. Now 
you are telling me that you are part of bringing in OCDETF 
because now you have confirmed that guns are going to Mexico 
and things are going well. So, at some point in time, I am 
trying to get clear when it was that you are now participating 
in helping to get authority from up higher for a broader 
investigation. OCDETF, as you said, is multiple agencies that 
are participating in this.
    Mr. Newell. Yes, sir, like I said, in mid-January 2010, we 
submitted for OCDETF approval the investigation, which 
eventually was approved by the Southwest Region OCDETF Office 
in Houston, I believe, the first week of February.
    Mr. Meehan. You testified before OCDETF, right here today, 
including in this OCDETF from DOJ, the Deputy Attorney General.
    Mr. Newell. Yes, sir.
    Mr. Meehan. Those are your words. At what point in time are 
you aware that the Deputy Attorney General became aware of any 
aspect of this investigation?
    Mr. Newell. I am not aware at what time he became aware, 
sir.
    Mr. Meehan. When do you believe that he became aware?
    Mr. Newell. I am not sure. I believe it was earlier this 
year, but I am not sure.
    Mr. Meehan. But you stated that OCDETF from the beginning, 
these are your words, as this was being conceived, this is your 
testimony today, it was not just--I asked you where this came 
from.
    Mr. Newell. Right.
    Mr. Meehan. And then in your subsequent testimony, you 
identified that this is from DOJ, the Deputy Attorney General. 
This is the conception phase, Mr. Newell, the conception phase. 
Your words. The Deputy Attorney General. So when did he know 
it? What did he know?
    Mr. Newell. Sir, what I mentioned about the Deputy Attorney 
General was that, in October 2009, a draft, and then 
eventually, in January 2010, a formalized strategy on the DOJ 
strategy to combat Southwest border violence, drug--Mexican 
drug cartel, Southwest border violence came out, which 
highlighted, among other things, how to attack different levels 
of criminality by the Mexican drug cartels, be it firearms, be 
it drugs, be it full cast smuggling.
    When it came to firearms, there was a strategy outlined 
there which said, you know, mere interdiction is not the only 
solution. You know, working with co-located OCDETF strike 
force, it is imperative that we attack the infrastructure, and 
the command and control infrastructure of these organizations 
to have a lasting impact. That's not verbatim, but it is 
something along those lines.
    Mr. Gowdy [presiding]. The gentleman's time has expired, 
the distinguished former U.S. Attorney.
    At this point, the chair would recognized the distinguished 
gentleman from Maryland, the ranking member of the full 
committee, Mr. Cummings.
    Mr. Cummings. Special Agent Newell, I want to pick up on 
the last questioning. You testified that Fast and Furious 
originated with street agents and local supervisors of Group 
VII. Do you remember saying that?
    Mr. Newell. Yes, sir.
    Mr. Cummings. And so what did you mean by that? I mean--go 
ahead. Because we have a lot of questions as to how this thing 
came about. And that seems to be leading us somewhere. And I 
just want to see where we are going.
    Mr. Newell. Yes, sir. Agents in the field, in pursuit of 
evidence in further of some investigation, some sort of 
criminality, be it a firearms case, an explosives case, an 
arson case, will open up an investigation, with their 
supervisor's concurrence, into whatever they believe to be, you 
know, some sort of criminality by one or more individuals. 
That's how a case is initiated, and that's how this case was 
initiated. It was initiated under the name of Jacob Chambers, 
et al.
    Mr. Cummings. Okay.
    And Special Agent Canino, you testified that you are a 
senior trainer and instructor for ATF agents, but have never 
heard of noninterdiction, or gun walking, as an approved 
tactic. It is just not done?
    Mr. Canino. No, sir. I've never heard of it.
    Mr. Cummings. And Mr. McMahon, did anyone at the ATF 
headquarters instruct Phoenix Group VII to conduct the 
investigation in the manner that we know it ended up being 
conducted in and to not interdict weapons of known straw 
purchasers?
    Mr. McMahon. No, sir, we did not.
    Mr. Cummings. That's a fact?
    Mr. McMahon. Yes, sir.
    Mr. Cummings. So this was not a new DOJ policy?
    Mr. McMahon. No, sir, it was not a new DOJ policy. I think 
what we got to realize is guns to Mexico from the United States 
has been a problem for an awful long time. We have been trying 
to make an impact, and it is something that we are continuing 
to try to do.
    Mr. Cummings. Now, going back to you, Special Agent Newell, 
you know, if we listen to all the testimony, this is what it 
boils down to. I listen to your definition of walking, and 
you're basically talking about a commission, and it sounds like 
we have an instance here of omission; in other words, failing 
to stop guns from going through. So but there is something 
bigger than that. And that is, it seems like we need to 
balance, knowing guns are going into Mexico, and this grand 
plan to try to get to the cartel, and the whole idea if we 
omit--you know, making sure that these guns don't go in--in 
other words, we let them go--they go in, let them go in, and 
stand by and watch them, where these guns end up and the harm 
that, when they got in the wrong hands, what they would do. Was 
there ever a balancing of that? Because that seems like what 
this boils down to.
    I mean, I think that is why these agents are so upset. They 
are trying to figure out, you know, did anybody say, okay, this 
is going against the policy that we normally do? Our number one 
goal is to make sure weapons don't get into the hands of the 
wrong people. But then they are trying to get their arms around 
it. Was there some greater, greater cause that was worth it, 
the risk to see these guns actually land in the hands of the 
wrong people? Can you comment on that? Do you understand the 
question?
    Mr. Newell. Yes, sir, I understand the question. And one of 
the things I said in my opening statement, sir, was that--one 
of the things I readily admit is that there should have been 
more--it was incumbent upon me that there should have been 
more, throughout the case, risk assessments to determine where 
we were in the investigation. Because as I've said before, the 
whole plan was to take out the whole organization. But I 
realize in retrospect that there were times when I should have 
conducted more risk assessments.
    Mr. Cummings. And to your fellow agents here, I think you 
would agree then that if you truly did a balancing situation, 
you probably would not have gone along with this the way things 
went. Is that right? In other words, the omission piece. You 
follow me?
    Mr. Newell. Yes, sir.
    Mr. Cummings. You know what bothers me here? You got agents 
here who are very emotional about this. I mean, and I 
appreciate these are honorable people who go out there and put 
their lives on the line every day. And then they've got you, 
who is more of a supervisor type, and they use I guess some of 
sort of a military style operation where you're supposed to do 
what the folks over the top of you tell you. But then you start 
looking at the folks over the top of you, and you say, well, 
you know, what is this about? So you can comment because I am 
running out of time.
    Mr. Newell. Like I said, Congressman, in my opening 
statement, was I realize now in retrospect there should have 
been more risk assessments. I realize that. I acknowledge that. 
And that was one of the mistakes that were made. I should have 
had more risk assessments throughout the case.
    Mr. Gowdy. I thank the gentleman from Maryland.
    Special Agent Newell, there has been some talk this morning 
and this afternoon about tools in the toolbox so to speak. What 
is the penalty for 924(c), first offense?
    Mr. Newell. Five years, 60months.
    Mr. Gowdy. What is the penalty for the second offense?
    Mr. Newell. I believe it is 15 years.
    Mr. Gowdy. What is the penalty for the third offense?
    Mr. Newell. I believe it is 30 years.
    Mr. Gowdy. And so you are quickly approaching 60 years with 
the 924(c)'s. And OCDETF, this was an OCDETF case, right?
    Mr. Newell. Yes, sir.
    Mr. Gowdy. What does the D stand for in OCDETF?
    Mr. Newell. Drug.
    Mr. Gowdy. And 924(c) is a Federal statute that proscribes 
the use of a firearm during the commission of a drug 
trafficking offense or other Title XVIII offenses, right?
    Mr. Newell. Yes, sir.
    Mr. Gowdy. So this had to have a drug connection, or it 
wouldn't have been an OCDETF case.
    Mr. Newell. Actually, sir, I believe in 2008, 2009, the 
OCDETF office issued guidance which said that you can in fact--
you can use the OCDETF program to attack firearms trafficking 
organizations because the other related crimes.
    Mr. Gowdy. These were drug cartels, though, right?
    Mr. Newell. The firearms trafficking organizations?
    Mr. Gowdy. Right.
    Mr. Newell. It was related to a drug cartel, yes, sir.
    Mr. Gowdy. What is the statutory maximum for lying and 
buying?
    Mr. Newell. The statutory maximum, I believe, is 5 years.
    Mr. Gowdy. What is the statutory minimum for 924(e)?
    Mr. Newell. Fifteen years.
    Mr. Gowdy. What is the statutory maximum for 924(e)?
    Mr. Newell. It can be up to life.
    Mr. Gowdy. Up to life. So if you can get up to life for 
924(e), you can get over 60 years in theory for 924(c)'s, and 
you don't think you have enough tools in the toolbox?
    Mr. Newell. I did not say that, sir.
    Mr. Gowdy. Do you believe you have enough tools in the 
toolbox?
    Mr. Newell. I believe the laws that we have now, the ones 
that we have, that's the ones we have to use. Any additional 
tool would be welcomed.
    Mr. Gowdy. Let me ask you this. When you begin a sentence, 
``You didn't get this from me,'' what does that mean to you?
    Mr. Newell. This means that you didn't get it from me.
    Mr. Gowdy. Well, but that's kind of a pleonasm, isn't it? 
Because you are getting it from them. So it's a--what do you 
mean by that, you didn't get this from me? I am referring to 
your email to Mr. O'Reilly.
    Mr. Newell. Well, obviously, Mr. O'Reilly was a friend of 
mine. And it's--I shouldn't have been sending him that. 
Obviously, I recognize that. Being a friend.
    Mr. Gowdy. What do you mean, ``you didn't get this from 
me?'' Does that mean you should not have been talking to him 
about it?
    Mr. Newell. Not that I shouldn't have been talking about 
it. He is a friend of mine. He asked for information, and I 
provided it to him.
    Mr. Gowdy. Well, then why wasn't it appropriate for you to 
give it to him? Why would you preface it by saying ``you didn't 
get this from me?'' Was it an improper communication?
    Mr. Newell. No, it wasn't an improper communication.
    Mr. Gowdy. Then why would you preface it by that?
    Mr. Newell. He has been a friend of mine for a long time, 
and he asked me for information. So I gave him information that 
just probably is an improper use of the term or phrase.
    Mr. Gowdy. Okay. I yield my remaining time to the chairman.
    Chairman Issa [presiding]. So following up on where Mr. 
Gowdy was, and I apologize, we are trying to keep going during 
the votes.
    Mrs. Maloney. Are there votes?
    Chairman Issa. Yes. You have 1 minute left. Actually, you 
have 36 seconds left. You sent something to somebody because 
they were a friend that works in the White House on the 
National Security Team who requested something about a rather 
esoteric single investigation. Why do you think he asked you 
for that information that you didn't get these from me? Why do 
you think he asked for that information you said he didn't get 
from you?
    Mr. Newell. Well, sir, the way I am reading the email now, 
and my recollection, he wasn't asking about a specific 
investigation, he was asking about our efforts during the 
Gunrunner impact team over the summer of----
    Chairman Issa. Why do you think he was asking?
    Mr. Newell. If I recall that email, he was asking for 
information to brief his boss, I believe, in preparation for a 
trip to Mexico, in our efforts along, in our area along what we 
were doing to combat firearms trafficking and other issues.
    Chairman Issa. Okay. So this is September 2010.
    Mr. Newell. Yes, sir.
    Chairman Issa. Wasn't it already a failed program that you 
had recognized needed to be shut down, that there was a 30, 60, 
90-day shutdown some time ago? Wasn't this after you had been 
frustrated by a U.S. attorney who couldn't seem to end this 
thing?
    Mr. Newell. Well, at this time, sir, I believe our case had 
been over at the U.S. Attorney's Office now for about probably 
2 to 3 weeks.
    Chairman Issa. Okay. Let me go on another line of 
questioning for you, because I have these ATF agents who don't 
see the world the way you, Bogota, and your other experience 
see it. And I just want to understand the difference. You saw 
this as necessary. You saw that you had to make your case. You 
saw that 30, 60, 90 days went by even after you recognized that 
an awful lot of guns had walked. You may not have said you 
walked them, but they walked. They are in Mexico. They are 
distributed broadly. So 2,000 weapons are gone and you still 
think this program was a good program. Right?
    Mr. Newell. Yes, sir.
    Chairman Issa. Okay. So you would do this program again?
    Mr. Newell. As I said earlier in my opening statements, I 
would do several things differently if we were to do something 
like this again.
    Chairman Issa. But you would do a program in which you 
contact federally licensed gun sales organizations, tell them, 
in response to what they believe are suspected straw 
purchasers, to go ahead and install video cameras, watch these 
people buy, and follow them to a location and then wait to see 
where they turned up.
    Mr. Newell. That would be one of the things in the risk 
assessments that I would seriously consider changing.
    Chairman Issa. What about the American people? You said 
risk assessment. You know, that sounds like the doctor telling 
you that you have non-Hodgkin's lymphoma and there is a zero 
percent chance, but we think we can operate and get you an 
extra month. Risk assessment.
    Mrs. Maloney, Ms. Norton, they are radically against the 
Second Amendment. They absolutely, positively do not want 
anyone having any guns. They are pretty straightforward about 
it. They will say they respect the Second Amendment, but they 
have never seen a gun limitation they don't want.
    In your case, your agency has a special, special 
obligation. Maintain the Second Amendment, law-abiding 
citizens' rights to keep and bear arms; stop bad people from 
getting them. Now, you said you need more laws.
    I am going to go to some of the other agents for a moment. 
Mr. Canino, if the U.S. attorney agreed to prosecute every 
case, or in a State where there were strong gun laws, if he or 
she only gave up that prosecution if the State agreed to 
prosecute, would we have dramatically reduced gun violence on 
both sides of the border if there was 100 percent prosecution 
of existing laws?
    Mr. Canino. Eliminate gun violence?
    Chairman Issa. No, I said greatly reduce.
    Mr. Canino. I don't think--what is the word I am looking 
for--I don't think Federalizing--I don't think Federalizing 
street crime is the answer. I think there's plenty of gun laws. 
Now, some of them are better than others. Some of them there's 
really no deterrence; there's no significant time that people 
are facing. That's the frustrating part.
    But in my opinion, you know, the political reality is that 
right now there is no appetite or will for any substantive 
legislation. I am an ATF agent. I can't worry about that. I got 
to worry about catching bad guys. And I'm going to do the best 
can with what I've got. And that's it.
    Chairman Issa. Agent Wall, you happen to be just south of 
the San Diego border right now. I am just north of it. 
President Bush fired Carol Lam to a great extent on my request. 
I don't worry about the other eight U.S. attorneys that got 
fired. I helped get her fired because she wouldn't prosecute 
trafficking in human beings, and she wouldn't prosecute gun 
crimes. She basically said, turn them over to the State, and 
then walked away, knowing that in most cases, they wouldn't 
prosecute. Does it make a difference if you have a U.S. 
attorney at each of those border areas who takes trafficking in 
human beings, trafficking in drugs, and trafficking in guns 
seriously enough to basically not let anyone walk away not 
being prosecuted just because they might only get 6 months or a 
year?
    Mr. Wall. Yes, sir. Unequivocally. Federal agents, police 
officers on the Federal task force, and agents in ATF, in my 
opinion, we have a tremendous effect on crime.
    However, when cases don't get prosecuted, when they 
languish, as I said in my opening statement, and the cases are 
either declined or given the minimal sentence, it doesn't send 
a message to the people engaged in this type of activity. Take, 
for example, gun trafficking. When you have individuals that 
aren't prosecuted, however maybe there was a search warrant 
served and guns were taken from them, all they are going to do 
is tell the next guy, hey, watch out for these guys that do 
this because this is how I got caught. But there is no 
deterrent. We need to prosecute people. We need to put them in 
prison for this. And we need to put them there for a while.
    Chairman Issa. Special Agent Canino, in your experience, if 
you have somebody dead to rights, you have them with the 
weapons, let's just take our 730 man, if you walked in and 
said, look, we've got you, we know who you've been selling to, 
we've got you, if you don't give us testimony right now, if you 
don't roll, you're not leaving here, and you're going away for 
a very long time; in your experience, is there a high 
likelihood that they're going to essentially flip on the next 
guy up in return for essentially the minimum charge of simply 
buying and lying? Is that an effective tool when you have what 
we had in this case? We knew that he had sold to a trafficker. 
We had hundreds. Any jury is going to consider him part of the 
trafficking charge you can bring. And we had evidence of 
exactly who he sold to, so we could tell him we already know 
who you sold to. But if you are not willing to testify, we are 
going to put you away with him. And by the way, people have 
died in Mexico. And then we are going to allow you to be 
extradited to Mexico. Does that technique--and I am not asking 
you for your techniques, I am giving you the NCIS one, because 
that way we are not get into sources and methods, but does that 
work?
    Mr. Canino. Yes, sir. I mean depending. Each individual is 
different. But if it is done correctly and respectfully, and 
you treat the person like a human being, and you honestly tell 
them, hey, you know, these are your choices----
    Chairman Issa. So here it is, I really don't want to hit 
you with the stick, but I will.
    Mr. Canino. Pretty much. I mean----
    Chairman Issa. Let me go to Mr. Leadmon for a second.
    On March 5, 2010, you did a briefing at ATF headquarters on 
operation Fast and Furious. At that time, did you brief that 
over 1,000 weapons had been sold?
    Mr. Leadmon. Yes, 1,026.
    Chairman Issa. Did you in that presentation brief and show 
the links between the straw purchasers and the Sinaloa cartel?
    Mr. Leadmon. I identified the cartel. And in the briefing, 
I showed the links toward the seizures in Mexico and how they 
moved from Sonora over to Juarez area.
    Chairman Issa. So was it clear on March 10th, when you gave 
that briefing, that everyone in the room that guns were going 
to gun dealers in Arizona and then going into Mexico?
    Mr. Leadmon. Absolutely.
    Chairman Issa. Who was in the room at that time?
    Mr. Leadmon. Everybody in senior management, ATF field 
operations, except for Mr. Melson.
    Chairman Issa. Were there representatives of the Department 
of Justice?
    Mr. Leadmon. Yes.
    Chairman Issa. Who?
    Mr. Leadmon. Mr. Joe Cooley.
    Chairman Issa. So Justice was fully informed that guns were 
walking?
    Mr. Leadmon. I don't think he is very high hanging fruit, 
but he was there.
    Chairman Issa. Did anyone express concern at this meeting 
that the number of weapons appearing in Mexico, or the number 
of weapons bought by straw purchasers seemed to be too high?
    Mr. Leadmon. Yes, someone on the other end of the--in the 
video, because we had a video conference, I believe it was 
somebody out of the Dallas Field Division voiced that concern, 
and there was some discussion.
    Chairman Issa. And we also have a memo that says we got to 
close this down, basically, at that same time. So at a 
thousand, it was too many.
    Let me ask our two defenders of this program. And I am 
sorry, but that does appear as how your role here today has 
been. Did it ever occur to either one of you after Mr. 
Leadmon's March 10th, or before, that you could let some of 
these walk and interdict others? Meaning, quite frankly, when 
somebody had already bought 100 of them and transported them to 
him, they weren't going to sell them to somebody different. You 
knew it was a straw purchaser. He basically usually had one 
customer. He has made the sale once, twice, 20 times. Did it 
ever occur to you to go ahead and at least stop these guns a 
few times?
    As you said, Mr. Newell, make it expensive by intercepting 
some of them?
    Just blind dumb luck they had to figure--and this is just 
me talking, but I think I have lived this thing long enough. 
The cartels had to realize at some point that you were helping 
them buy guns because they were having such a good batting 
average. Isn't that true? The fact that these guys weren't 
interdicting the guns almost had to be conspicuous at some 
point. Couldn't you have at least stopped some of these guns to 
make it look more real?
    Mr. Newell. Well, sir, as I said in my opening statement, 
that's one of the things I would do different.
    Chairman Issa. Well, we are going to take a short recess. 
There will be a little bit of voting. We will come back. And I 
know you have been patient.
    During the recess, our restrooms are available to you. I 
would suggest that on that side, there is a restroom where you 
don't have to go out and be accosted by the cameras and so on.
    But what I would like you to do, Special Agent Newell and 
Special Agent McMahon, but for all of you, I would like each of 
you, if you will agree, to give me back a list of the things 
that you would do differently.
    And Special Agent Newell, I would like your list because 
you're the one that has most said it.
    Special Agent McMahon, I would like yours because you 
oversaw it and you said some things. But each of the four of 
you, from your experience, would you each be willing to give me 
what would be done differently?
    Now, I know the easy thing is, I wouldn't have done the 
damn stupid thing. But short of that, case-by-case breakdown, 
what would have to be different if this would be done? Because 
this is the Committee on Oversight and Reform. The minority 
suggests that we pile on a bunch more gun laws. And maybe that 
will happen someday. But I am looking for answers that we can 
do to get effective work that you need to do, effective 
prosecution. And if it needs legislation, we are happy to look 
at it and put it into the mix. But I am looking for the kind of 
reform for the most part that doesn't just assume that a 
stronger gun law, selectively enforced by U.S. attorneys who 
lose interest in these cases, is necessarily the only answer.
    So, with that, we stand in recess until about 5 minutes 
after the last vote.
    [Recess.]
    Chairman Issa. The hearing will come to order.
    We now recognize the chairman emeritus, Mr. Burton, for his 
round of questioning.
    Mr. Burton. That means the old guy.
    Chairman Issa. Well, that, too.
    Mr. Burton. First of all, I want to start off by saying 
that the ATF, the FBI, the CIA, all of our intelligence 
agencies, we have high regard for all of you. And I know some 
of my colleagues indicated today that we were beating you over 
the head. We are not. We are investigating this issue. And we 
are certainly not investigating the good work that you guys do.
    And I know some of your colleagues have been killed; some 
of you have been injured. We know you lay your lives on the 
lines for us. And so you have our respect and admiration for 
what you do.
    Now, let me just say to Mr. McMahon and Mr. Newell, you 
know that you are under oath.
    Mr. McMahon. Absolutely, sir.
    Mr. Newell. Yes.
    Mr. Burton. Okay. Both of you know that. What I want to 
know is do you know who was involved in the decisionmaking 
process to start this whole program?
    Mr. McMahon. Again, I think this was not a program; this 
was a criminal investigation.
    Mr. Burton. Well, okay, this criminal investigation. Do you 
know who suggested or started this criminal investigation?
    Mr. McMahon. The agents on the street are the ones that 
will initiate the investigation.
    Mr. Burton. I know, but someone said this is what we are 
going to do. Who started it? Where did you get the instructions 
to do this?
    Mr. McMahon. We don't give our agents instructions to do 
things. They go out and produce cases on their own.
    Mr. Burton. So what you are telling me now is that this 
investigation that we are talking about, what is the name of it 
again? What is it called?
    Chairman Issa. Fast and Furious.
    Mr. Burton. Fast and Furious, this just came from an agent 
in the field, and that was it; nobody else had anything to do 
with it. You didn't get a letter of instruction or anything 
like that.
    Mr. McMahon. Absolutely not.
    Mr. Burton. What about this--you say you got a memo. There 
was a memo from a Deputy Attorney General about this. What was 
that?
    Mr. McMahon. I believe that Bill Newell was referencing a 
memo the Deputy Attorney General put out regarding our strategy 
on how we are going to combat firearms----
    Mr. Burton. Who was the Deputy Attorney General?
    Mr. McMahon. I believe that one came from Deputy Attorney 
General Ogden.
    Mr. Burton. Deputy Attorney General Ogden. When did that 
come?
    Mr. McMahon. It had nothing do with Fast and Furious.
    Mr. Burton. What did it have to do with?
    Mr. McMahon. It had to do with the government's strategy to 
help combat the violence that is going on in Mexico.
    Mr. Burton. Did it have anything to do with the weapons 
that were going down there?
    Mr. McMahon. Absolutely.
    Mr. Burton. Okay. So it did have something do with what we 
are talking about.
    Mr. McMahon. Yes, it did.
    Mr. Burton. Okay. And his name is what?
    Mr. McMahon. I believe it was David Ogden, but I am not 
positive.
    Mr. Burton. Okay. But you also said earlier in testimony 
that there were a number of other agencies that were involved 
in this whole investigation process. You mentioned IRS, 
Customs, DEA, FBI, and so forth. You remember that? What were 
the names of the people that were involved in that?
    Mr. McMahon. Again, I think Bill Newell answered those 
questions regarding this case being conducted out of----
    Mr. Burton. What I want is the names of the people that 
were involved in the investigation from each agency.
    Mr. McMahon. I don't know the names.
    Mr. Burton. Somebody does. Do you know, Mr. Newell?
    Mr. Newell. I know a couple of the names, yes, sir.
    Mr. Burton. Okay. We want those names. The reason why we 
want those names is I am going to ask the chairman to talk to 
them about continuing this investigation to find out how 
involved everybody was, and why it went on as long as it did 
when we knew in 2009 that this kind of thing was going on. And 
if there were IRS agents, FBI agents, DEA agents, Customs, or 
others, we want to know who was involved so we can question 
them as well. So I want their names. Do you have any of their 
names right now?
    Mr. Newell. No, sir, I don't.
    Mr. Burton. And you don't remember any of their names?
    Mr. Newell. I remember one of their names.
    Mr. Burton. What's his name.
    Mr. Newell. I believe that the ICE agent assigned to the 
case was a young man by the name of Lane France.
    Mr. Burton. Lankford?
    Mr. Newell. Lane France.
    Mr. Burton. Lane French?
    Mr. Newell. France, sir.
    Mr. Burton. Okay, you got that. How about the other 
agencies? Do you remember any of the names? Were there other 
people involved?
    Mr. Newell. Yes, sir, but I don't know their names, sir.
    Mr. Burton. Can you find their names for us?
    Mr. Newell. Yes, sir.
    Mr. Burton. Can you get those names for us?
    Mr. Newell. Absolutely, sir.
    Mr. Burton. Okay. Will you get those names for us?
    Mr. Newell. Absolutely.
    Mr. Burton. Okay. And every single one of those names from 
those various agencies that were involved in the whole thing. 
We would like to have their names and their titles and the 
agencies they work for.
    Mr. Newell. Okay. Yes, sir.
    Mr. Burton. And you will get those for us?
    Mr. Newell. I will do my best, yes, sir.
    Mr. Burton. No, no, no, no. I don't want you to do your 
best. I want the names. Can you get us the names?
    Mr. Newell. Yes, sir, I will.
    Mr. Burton. And you do know who they are and you know how 
to get their names?
    Mr. Newell. I will find out who they are, and I will get 
their names, yes, sir.
    Mr. Burton. Okay.
    Chairman Issa. Would the gentleman yield?
    Mr. Burton. I would be happy to yield.
    Chairman Issa. Would you also include the dates that they 
were read into this program with sufficient specificity that 
they would understand the details of how the gun following that 
you say is not gun walking occurred? In other words, we don't 
want to just have names of people on lists; we want to have the 
names of people who were read into the program.
    Mr. Burton. And the dates that they were involved.
    Mr. Newell. Yes, sir. And if I can clarify a point, sir.
    Mr. Burton. But before you go clarifying, I want to make 
sure I get all this.
    Mr. Chairman, I want to make absolutely sure we have their 
names, dates, times, places that they were involved in this 
investigation so that we can trace it all the way back to its 
origin and see where we went, see who was involved, and how all 
these weapons, 2,000 weapons got down in there into Mexico, and 
whether or not somebody higher up in the Justice Department or 
the food chain might have been involved. And the only way we 
can get that information is from you two, or the other people 
who were involved in the investigation from these other 
agencies. So I just want to say one more time, this is very 
important that you understand that you are telling us right now 
that you will get us this information, you can get us the 
names, times, dates and places that we need. And you will do 
that.
    Mr. Newell. Yes, sir.
    Mr. Burton. Okay. Very good. I just want to make sure 
you're under oath and you understand that. I yield to the 
chairman.
    Chairman Issa. I thank the gentleman. We now go to the 
gentleman from Cleveland, Mr. Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman.
    Mr. Newell, on June 15, 2011, three agents under your 
command testified before this committee. And they outlined the 
very serious allegations that prompted this investigation. The 
line agents told us that as part of Operation Fast and Furious, 
one, they were instructed to cut off surveillance of suspected 
straw purchasers; two, they were ordered to forego arrests of 
straw purchasers; and three, they were prohibited from seizing 
or interdicting weapons from straw purchasers on several 
occasions when they believed they had the lawful authority to 
do so.
    Mr. Newell, these are very serious allegations. But in your 
transcribed interview with the committee, you said you never 
heard these complaints before they became public in February of 
this year. Is that right?
    Mr. Newell. Yes, sir.
    Mr. Kucinich. Here is what you said. You said, To the best 
of my recollection, I don't remember any time ever being 
advised that there was some discourse amongst the agents. I 
became aware of that when some of the documents were released 
that I saw, and I want to say it was probably February, early 
February, something like that of this year. Isn't that 
information you would have expected to have received earlier?
    Mr. Newell. I would have hoped to have received that 
earlier, yes, sir.
    Mr. Kucinich. Who would have been responsible for bringing 
these agents' concerns to your attention?
    Mr. Newell. Well, if they followed the chain of command, I 
would hope that that information had gotten to me, yes, sir.
    Mr. Kucinich. But who specifically would have been 
responsible? I mean, there are people in your chain of command. 
Can you----
    Mr. Newell. If they had voiced those specific concerns to 
their supervisor, I would hope that--and they did not get a 
response that they felt appropriate from their supervisor, then 
obviously--they obviously have the right to go over his or her 
head, in this case his head, and go to the second line, and so 
on from there.
    Mr. Kucinich. Well, obviously, the committee has the names 
of the people who were in those various lines of command. So 
Special Agent McMahon, in your interview, you said the same 
thing, that you didn't hear about these allegations until they 
were reported in the press. Isn't that right?
    Mr. McMahon. That's correct.
    Mr. Kucinich. And is that information you would have 
expected to receive sooner? Did you feel you should have 
received it sooner?
    Mr. McMahon. I would have hoped to. If the concerns that 
were expressed this late on were expressed earlier on, I would 
hope that if there was so much urgency, it should have been 
brought to our attention earlier.
    Mr. Kucinich. The line agents testified that they made 
their concerns known to their group supervisor, David Voth. Yet 
he, too, told the committee that he knew nothing about their 
allegations. He said this, ``I don't recall people coming to me 
with those concerns.'' Now, Mr. McMahon, as the line agents' 
immediate supervisor, should Mr. Voth have known about the 
allegations?
    Mr. McMahon. I am assuming if they were expressed to him, 
he should have known about them, yes.
    Mr. Kucinich. The committee has apparently identified a 
conflict in the testimony. Either the line agents are having 
difficulty being able to communicate the truth or their 
supervisor is having that difficulty. Now, what steps, Mr. 
McMahon, did the ATF's management take to ensure that line 
agents can make headquarters aware of their concerns if their 
direct supervisor is not responsive? And can they do that 
without in effect bringing upon themselves some kind of 
sanctions for going other the head of a line supervisor?
    Mr. McMahon. I believe they can. I think the processes that 
we have set up in ATF headquarters allow that. We have an 
ombudsman program. We have obviously the chain of command 
anywhere in there. I think our director, every time he has 
actually been out to visit offices, he has told people about 
his open door line of communication. He receives emails from 
line agents. I have tried do the same thing on my visits to the 
field divisions that I oversee. You know, you try to make 
yourself as open as possible to everyone within the Bureau.
    Mr. Kucinich. I thank the gentleman. And I just want to say 
we all appreciate the very difficult and challenging work that 
everyone at the agency has to carry out, so I'm sure you can 
understand the questions that have been raised about the 
conduct of this particular operation, that things don't fit, 
and when they don't fit, it makes it difficult for Members of 
Congress to be able to defend the kind of support that they 
want to maintain for the Bureau. So I want to thank you for 
being here.
    I yield back.
    Mr. Meehan [presiding]. I want to thank the gentleman from 
Ohio. At this point in time I will give myself 5 minutes for 
further questioning.
    Mr. Leadmon, when we last left, you were talking about law 
enforcement partners providing you information in December 2009 
that had given you concern about guns that had actually showed 
up in Mexico; isn't that correct?
    Mr. Leadmon. They didn't provide it to me, they provided it 
to the Phoenix agents, and it was routed to me.
    Mr. Meehan. So when you say ``other law enforcement 
partners,'' is this partners outside of ATF?
    Mr. Leadmon. Correct.
    Mr. Meehan. Can you identify what other partners at this 
point in time in December 2009 were part of this investigation?
    Mr. Leadmon. They weren't part, to my knowledge, but they 
were running a parallel, and it was DEA. I don't want to get 
into their investigation, even though they wrapped up that 
investigation I want to say February or so of 2010, but they 
were----
    Mr. Meehan. February 2010, but they became part of the 
OCDETF case; isn't that right, Mr. Newell, DEA?
    Mr. Newell. There were several investigations involving 
DEA. But what Mr. Leadmon is talking about is I believe the 
information on that seizure came from DEA to us, and then it 
was routed to Mr. Leadmon.
    Mr. Meehan. Came to you.
    Mr. Gil, at point in time--or, Mr. Canino, while you were 
in the field doing this, were you aware of any other agencies 
that had information pertinent to this that you believed was 
not being shared with you?
    Mr. Gil. The only other agency that we worked with while in 
Mexico would have been ICE, and we actually used them to a 
certain extent to conduct interviews either with us or on our 
behalf regarding arms trafficking.
    Mr. Meehan. Mr. Leadmon.
    Mr. Leadmon. A clarification. That investigation was not 
originating out of Mexico. That was a U.S. investigation that 
DEA was doing out of the Phoenix area.
    Mr. Meehan. Okay. Thank you.
    Special Agent McMahon, you just responded partially to a 
question, and unfortunately you weren't allowed to give a full 
answer, but I was intrigued by what you were beginning to say 
when, again, there was a once more question about the genesis 
of the case, and you began to talk about agents in the field. 
You know, the agents were the ones that begin to make these 
cases. Can you explain to me what you mean by that?
    Mr. McMahon. Well, the way ATF works is our agents are the 
ones that conduct the investigations, they're the ones that 
generate investigations. Obviously they should get approval 
from their first-line supervisor of which investigations to 
open or not.
    Mr. Meehan. So those agents, what were they investigating, 
just straw purchasing in general?
    Mr. McMahon. When you have a division group, the division 
usually breaks down those groups into specific types of cases. 
You might have an arson explosives group, you might have a gang 
group, you might have a firearms trafficking group. If you're 
out in the field----
    Mr. Meehan. The agents working on this case.
    Mr. McMahon. The agents were assigned to a gunrunner group 
that was specifically assigned to investigate firearms 
trafficking to Mexico.
    Mr. Meehan. At what point did the gunrunner group take it 
up higher to the chain as part of this? Did they include the 
assistant U.S. attorney? Was there an assistant U.S. attorney 
appointed to that group?
    Mr. McMahon. I'm not sure if it was appointed to that 
group, but I know we usually try to get an assistant U.S. 
attorney onto the case as early as possible.
    Mr. Meehan. How early do you think, Mr. Newell, do you 
recollect, that an assistant U.S. attorney was assigned to this 
case?
    Mr. Newell. From the very beginning.
    Mr. Meehan. From the very beginning?
    Mr. Newell. Yes.
    Mr. Meehan. Okay. Did the assistant U.S. attorney to you 
knowledge communicate with the U.S. attorney about this case?
    Mr. Newell. To my knowledge, I don't know, sir.
    Mr. Meehan. You don't know the answer. But this case began 
somewhere in November 2009, and we have testimony that by 
December 2009, there was already concern about scores of 
weapons that were being recovered in Mexico. But what was the 
response of the assistant U.S. attorney to that revelation?
    Mr. Newell. Well, as outlined in the January 8th briefing 
paper, they felt that there was not enough evidence at that 
time to secure anymore--or to secure for prosecution, so to 
continue monitoring the sales.
    Mr. Meehan. They continued monitoring the sales, but were 
they aware and did they believe that guns, ultimately 
thousands, were continued to be trafficked with the approval of 
the assistant U.S. attorney?
    Mr. Newell. I'm not sure exactly what they were aware of, 
sir, but I know they were informed.
    Mr. Meehan. Mr. Gil, at any point in time, did you get a 
visit from anybody? And who was the highest person that visited 
you from the Department of Justice with respect to this matter?
    Mr. Gil. To a certain extent it would have been a DOJ 
contingent to business, I believe, during the summer or spring, 
and I believe it was Kevin Carlisle. Lanny Breuer visited.
    Mr. Meehan. Lanny Breuer is the head of the Criminal 
Division; is that not right?
    Mr. Gil. At that time. I don't know where he is today.
    Mr. Meehan. When did Mr. Breuer visit you in Mexico with 
respect to this case?
    Mr. Gil. I would have to check.
    Mr. Meehan. What's your recollection?
    Mr. Gil. I think it was the summer of----
    Mr. Meehan. The summer. That would be after we already know 
that thousands of guns had been trafficked?
    Mr. Gil. Yes.
    Mr. Meehan. Was that communicated to him?
    Mr. Gil. By me, no.
    Mr. Meehan. By anybody, to your awareness?
    Mr. Gil. No, sir.
    Mr. Meehan. My time has passed.
    At this point in time the chair would recognize the 
gentlelady Mrs. Maloney.
    Mrs. Maloney. Well, I thank you for recognizing me. And I 
am deeply concerned that while I was on the floor voting, that 
the chairman, for whom I have tremendous respect, made 
derogatory remarks about Ms. Norton and myself. And as I hear, 
I would like to quote what he said: Mrs. Maloney and Ms. 
Norton, they are radically against the Second Amendment. They 
absolutely positively do not want anyone having any guns. 
They're pretty straightforward about it. They'll say they 
respect the Second Amendment, but they've never seen a gun 
limitation they do not like.
    I would like to say that I support the Second Amendment, 
and I support legal guns for sportsmen, for law defense, for 
hunters, for self-defense. Just recently one of our colleagues, 
Leonard Boswell, literally someone broke into his home, and he 
thought his life was in danger. His grandson took a legal 
registered gun and got the intruder out of the home. I respect 
the right to own legal guns for self-defense, for other 
reasons, but I do not support illegal guns that are fueling 
drug wars and putting lives at risk.
    In testimony before this committee it was told that 40,000 
people have died in the last 5 years on the border of Mexico. 
What we have put forward is a simple statute that would 
prohibit gun trafficking in illegal guns to people who want to 
use them for illegal purposes. I think that is respecting law 
enforcement, helping law enforcement, and protecting lives on 
both sides of the border. And I must also say that the ATF 
agents who testified and were called by the majority to 
testify, they indicated that this would help them do their job 
and help them to protect innocent people in Mexico and in the 
United States of America.
    And I just really wanted to clarify that since I feel that 
Ms. Norton and myself were attacked unfairly. And I do not 
think that legitimate debate or ideas or legislation should be 
attacked in this unfair way. So I just would like to clarify 
that.
    Chairman Issa [presiding]. Would the gentlelady yield?
    Mrs. Maloney. Absolutely.
    Chairman Issa. Well, I stand corrected if, in fact, you're 
for the Second Amendment. And I will not consider the same with 
Ms. Norton, who said that my entire side of the aisle was owned 
by the NRA in some of hers, or somebody in the District of 
Columbia continues to support basically this being a gun-free 
zone in violation of the Second Amendment. But I take you at 
your word, and I'm sorry that I exaggerated to include you.
    Mr. Cummings. Will the gentlelady yield very briefly?
    Mrs. Maloney. Absolutely.
    Mr. Cummings. I want to thank the chairman for his apology, 
but I can attest to the fact, Mr. Chairman, that when the 
gentlelady and I introduced our recent bill, she basically said 
what she just said, that she had no problem. And I think the 
confusion comes in those of us who have seen over and over 
again the result of gun violence, those of us who go to the 
funerals, those of us who listen to the ATF agents who beg to 
make sure that we help them because they're fighting weapons of 
war. And that's what we are concerned about. We didn't debate 
it. The ATF agents came in here and said it. Some of them have 
said it today.
    So I yield back to the gentlelady, and I want to thank the 
chairman.
    Mrs. Maloney. I just want to also add that I think we both 
agree on both sides of the aisle that mistakes were made in the 
handling of Operation Fast and Furious, and we are legitimately 
trying to get answers and to look at this. But the larger issue 
that I feel is in danger of possibly being overlooked is the 
flow of illegal weapons. And we're not talking about regular 
guns. In the testimony from the agents, they called them 
military-style weapons. They were AK-47s, very special deadly 
rifles. So these aren't normal guns, these are our military 
guns. And this is an even larger issue than Fast and Furious 
is, to stop the flow of illegal guns. And I believe that on 
both sides of the aisle we can agree that illegal guns flowing 
into America or Mexico is something we need to address and stop 
as quickly as possible.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Texas Mr. Farenthold for 
his round.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    I'm going to kind of bring it more back to where we were 
going, I think, with the investigating Operation Fast and 
Furious as opposed to discussing the merits of any proposed new 
gun regulations or gun laws. Let me ask some of the gentlemen 
from ATF, if you remembered the lessons we learned from 9/11, 
we found that we probably would have had a much better chance 
of stopping the attacks on the World Trade Center had the 
various organizations within our government been communicating 
with each other better. We've spent millions of dollars on 
fusion centers for information sharing among agencies. And then 
I'm troubled to find here that you're basically running an 
investigation covering some of the same suspects, basically 
parallel investigations, with the Drug Enforcement 
Administration, and there was an unwillingness to or a failure 
to coordinate among those agencies. Would that be a fair 
assessment of what happened: There were multiple 
investigations, and the DEA didn't know what you were up to, 
and vice versa?
    Mr. McMahon. Sir, as far as I'm concerned, that is the 
complete opposite of that. I think when we received funding to 
get our gunrunner groups up and running, one of the first 
things we did was assign them to strike force groups so they 
could work hand in hand with the other agencies. And I think 
this case is an example of how that was one of the positive 
things out of this case. DEA had some information that they 
shared with us that helped us in our investigation and actually 
helped foster it even more so.
    Mr. Farenthold. Then why weren't you all coordinating, and 
there were two different investigations going on? At the very 
least that seems wasteful of the taxpayers' money.
    Mr. McMahon. I don't think from what I've seen that there 
were two different investigations. It was two parallel 
investigations. DEA obviously is going to focus on the 
narcotics. We focus on the firearms.
    Mr. Farenthold. I've got a couple other questions. I ran 
out of time last time going off on things that just struck me 
as odd.
    Mr. McMahon, during the pendency of the Operation Fast and 
Furious, did you ever get the chance to go down to Mexico and 
visit with any of our folks down in Mexico?
    Mr. McMahon. I did. Yes.
    Mr. Farenthold. Did you speak to Mr. Canino?
    Mr. McMahon. I did.
    Mr. Farenthold. And did he raise any concerns about some of 
the guns tracing back to Phoenix?
    Mr. McMahon. Not that I recall, no.
    Mr. Farenthold. Mr. Canino, did you all discuss that, do 
you recall?
    Mr. Canino. Yeah. It wasn't anything specific, it was in 
passing. Like I said earlier, you know, when--and Mr. McMahon 
has been very supportive of our office in Mexico and me 
personally. But like I stated earlier, when this case was going 
on, and when Darren asked me, what do you think is going on, 
like I stated earlier, I thought the U.S. Attorney's Office in 
Phoenix is reluctant to let our guys make any arrests. Our guys 
have stumbled onto a drug trafficking--I mean, a gun-
trafficking ring, they're doing their due diligence, and that's 
why so many guns have turned up in the suspect gun data base so 
quickly. And three, I thought that our guys were just losing 
them on surveillance, not being able to get to the gun store in 
time. That's what I thought at that time. You know, I didn't 
know that we had cooperators in a couple of the gun stores. So 
my--our concern, and I just said, hey, how come there's so many 
guns turning up so quickly?
    Mr. Farenthold. And he didn't share with you what was going 
on?
    Mr. Canino. Well, like I say, we have a drug-trafficking 
case in Phoenix, and, you know, all the guys are doing a good 
job.
    Mr. Farenthold. All right. Mr. McMahon, did Mr. Gil ever 
raise concerns over the number of weapons that were being 
recovered in crime scenes in Mexico?
    Mr. McMahon. Congressman, I think it's important to realize 
that guns were being recovered in Mexico for quite a while, and 
we were all concerned about that. Guns were coming from 
Phoenix, they were coming from Texas, they were coming from--I 
mean, that's what we did, that was our main focus in Mexico and 
obviously along the southwest border. For the past 4 years, 
that's where all of our resources, our new resources, have 
gone. Guns being recovered in crime scenes in Mexico from the 
United States is something that ATF has been putting everything 
we have into for the past quite a few years, as long as I've 
been in headquarters.
    Mr. Farenthold. All right. Well, I see I once again have 
run out of time, and I realize we are getting late, so I yield 
back. Thank you very much.
    Chairman Issa. I thank the gentleman.
    Mr. Cummings. You know, as we wind this hearing down, I was 
just sitting here and I was just thinking, you know, this 
agency is very important, and we've heard now from two sets of 
agents, all of whom seem to be, I know, very dedicated to their 
jobs. And I think one of my greatest concerns as we go forward, 
Special Agent Newell and McMahon, since you're in supervisory-
type positions, you know, I just hope this does not hurt the 
morale of the organization.
    When I look at the emotions of Special Agent Canino and 
others, I mean, in some kind of way we've got to make sure that 
we get back on track. I just think it's so important because 
the job that you do is--what, there's only 1,800 of you all? 
It's not many.
    Mr. McMahon. That's correct, sir.
    Mr. Cummings. It's a small agency. And we can't afford to 
have division in this kind of agency. Would you agree, Special 
Agent McMahon?
    Mr. McMahon. I totally agree, sir. That's the highest 
priority for us right now is to get our people back on track. 
Not a lot of us can have or show the passion that Carlos has, 
but I guarantee you we all have that. We might keep it inside a 
little bit more than Carlos does, but this is a passionate 
thing for all of us.
    We talk about the Second Amendment, and I believe that we, 
ATF, are the defenders of the Second Amendment. And we have to 
follow a very fine line of what's part of the legal commerce 
and what's part of the illegal commerce, and that's part of the 
challenge, a challenge that we fully accept. And that's 
something that we were--drilled into us from early on while in 
the academy. It's something we fully accept, and it's something 
that we do every day. And as I said in my statement, I am very 
proud of the people that are out there now and have been out 
there in the past and the work that they're doing.
    Mr. Cummings. I'm going to go back to a July 12, 2011, 
letter to the Attorney General. Chairman Issa and Senator 
Grassley wrote these words. They said, there has been public 
speculation that gun control politics may have been a 
motivating factor behind approving the risky strategy used in 
Operation Fast and Furious. In other words, by allowing straw 
purchasers to continue to operate, and by encouraging gun 
dealers to go through with what were obviously suspicious 
sales, the ATF helped create a big case in order to justify 
additional regulatory authority. The letter notes that the 
committee has seen no evidence to support this speculation, but 
goes on to ask the Department of Justice to respond anyway.
    Mr. Newell, you were the special agent in charge who 
oversaw this operation and the agents who worked it for the 
last year. What is your reaction to this speculation when you 
were engaged in Operation Fast and Furious? I ask you for the 
record, were you deliberately attempting or do you know others 
that were deliberately attempting to send guns to Mexico to 
justify additional firearms regulations?
    Mr. Newell. In response to your question, sir, I don't 
recall saying that.
    Mr. Cummings. I didn't say you did. I'm just saying do you 
believe that----
    Mr. Newell. No, I don't.
    Mr. Cummings [continuing]. Based on everything you know?
    Mr. Newell. No, sir, I don't.
    Mr. Cummings. Okay. Mr. McMahon.
    Mr. McMahon. Absolutely not, sir.
    Mr. Cummings. And did you see any evidence that your line 
agents acted out of anything but a sincere desire to combat a 
major trafficking network in this case? Mr. McMahon.
    Mr. McMahon. Not at all, sir.
    Mr. Newell. Not at all, sir. That was their goal, and that 
was--they are very dedicated agents out in the field who are 
doing that every day in this case and many other cases.
    Mr. Cummings. While it's fair to question the judgment used 
in the case, and I certainly question it, and again we are 
trying to get to the bottom of all of this, suggesting a 
conspiracy to harm others goes beyond the pale. And I think 
that--you know, I just--I just want to make sure that the 
American people are clear that we have an ATF which is 
operating and doing what it is supposed to do. Obviously some 
mistakes have been made, very unfortunate mistakes. And I think 
the one thing we have to do is we have to learn from those 
mistakes and not let them happen again, because they can have 
very, very, very tragic consequences.
    And so with that, Mr. Chairman, I yield back.
    Chairman Issa. Thank you. And I'll try to be brief in a 
couple of last questions.
    First of all, I ask to include some additional documents 
that were shared and partially redacted with Justice so that we 
can keep them in the record and potentially ask you questions 
afterwards. Would all of you be willing to answer additional 
questions based on what's in the record afterwards if we have 
follow-ups? Okay. Thank you.
    Mr. Newell, on January 8, 2010 you produced a memo that in 
line 13 said, currently our strategy is to allow the transfer 
of firearms to continue to take place, albeit at a much slower 
pace, in order to further the investigation and allow the 
identification of additional coconspirators who would continue 
to operate illegally trafficking firearms to Mexico DTOs.
    Now, if I read that correctly, in addition to later where 
it says, DEA has specifically requested that the ASAC and SAC 
level at the ATF continue the investigation, if I read this 
memo of yours correctly, at least by January 10th or January 8, 
2010, you knew that these weapons were going to--specifically 
weapons that you were allowing to be sold were going to the 
drug cartels in Mexico, and that you lobbied for in this memo 
the continuation partially because of DEA's request? Is there 
anything in plain English that I don't understand here?
    Mr. Newell. Yes, sir. As I stated earlier in the testimony, 
I think that sentence about who would--that part of the 
sentence ``who would'' is--``who would continue'' is based on 
the fact that we believe that if we didn't take the necessary 
steps to disrupt the whole organization, this group would 
continue to traffic in large quantities of firearms to Mexico.
    Chairman Issa. Agent, we're not disagreeing that these are 
determined, incredibly rich, billions-of-dollars-of-drug-money 
groups that have the power to corrupt the Mexican Government, 
at times corrupt U.S. officials, to buy anything they want 
anywhere in the world in vast quantities. Certainly I don't 
think anyone on the dais fails to understand that we have a 
narcostate almost being formed in Mexico the way we had in 
Colombia, and that they and we are fighting to push back on a 
terrible tragedy that has occurred in Mexico.
    But the question here is as of January 8th, I find this 
document to be irrefutable evidence that you knew that weapons 
you continued to sell, quote, albeit at a slower pace--although 
actually the evidence is it didn't slow down right away, but 
eventually it did--were, in fact, going to Mexico. You knew it. 
You knew that when you sold to particularly some of the 
specific individuals whose weapons had already been found, you 
knew that the straw buyer was buying it, you knew who they were 
transporting it to, who was paying for it and where it was 
ending up. Isn't that true as of January 2010?
    Mr. Newell. Well, we didn't sell the firearms, sir.
    Chairman Issa. Well, you came pretty close. You told the 
firearm dealer to go ahead and sell it. You knew who the buyer 
was. You knew there was a repeat buyer. You knew who the 
intermediary was that was the supplier of money, and you knew 
where they were ending up. Isn't that all true?
    Mr. Newell. We believed that obviously we were working a 
firearms-trafficking organization that----
    Chairman Issa. Wait a second. Look, we're not talking about 
what you had to prove to a jury of 12. I'll go over these 
agents, and they're going to make you look like a fool here if 
you don't answer this honestly. You knew that A was going to B, 
and B was going to the cartels. You knew that outright. So did 
the DEA as of January 8th--and that's what this briefing says, 
doesn't it? Answer me honestly just once, clearly and simply.
    Mr. Newell. Sir, with all due respect, when it comes to the 
DEA portion of that, it was the fact that DEA had an ongoing 
investigation from which we gathered the information which led 
to the initiation of our case. So that sentence there discusses 
the fact that DEA said, hey, whatever you do, don't do anything 
to compromise our case, which we respected.
    In response to your other question is absolutely, the group 
that we were working, we knew that that was their intention to 
funnel guns to Mexico.
    Chairman Issa. Wait a second. Intention. Not intention. It 
was a pattern of success that had occurred for a year; isn't 
that true? You had watched straw buyers, repeated straw buyers, 
make purchases, deliver them, and those weapons had shown 
consistently in the hands of specific cartels, and, as you 
know, you knew who was paying for them. Isn't that all true?
    Mr. Newell. Well, you said a year, sir. When that memo was 
written in January, we were probably, I would say, 2 months 
into the investigation at that point.
    Chairman Issa. Three months earlier, I apologize. The 
previous year.
    Mr. Newell. Three months.
    Chairman Issa. Okay. So 3 months into this program, about 
1,000 weapons or less in, you knew that the weapons you were 
telling gun dealers to go ahead and sell to the same straw 
buyers again and again--you already had 20, the number 20 is 
here. So I'm kind of going, well, you've indicted 20, 19 of 
whom were the straw buyers, so you knew the straw buyers and 
the repeats kept coming after you knew starting point, bag man 
or money man, and end point; isn't that true?
    Mr. Newell. Sir, what we believed and what we suspected is 
far short of what we could prove.
    Chairman Issa. Okay. Finally you've given me the answer I 
wanted. You knew everything you needed to know to understand 
everything that led to the charges. What you didn't have was 
enough to make a case, so you went on month after month for 
1,500 more weapons while you were trying to make a case; isn't 
that correct?
    Mr. Newell. Sir, in January we didn't know all 20 at that 
point. The 20 that we indicted, we had a large group of straw 
purchasers, and we were continuing to build a case throughout. 
But we still--in full conjunction with the U.S. Attorney's 
Office, we still needed the evidence to be able to prove that 
these individuals were, in fact----
    Chairman Issa. Who at the U.S. Attorney's Office wanted 
this investigation to go on past January 8, 2010?
    Mr. Newell. When?
    Chairman Issa. Who? Did Lanny Breuer--was he briefed by 
January 8, 2010?
    Mr. Newell. I don't know if he was, sir.
    Chairman Issa. But his office approved the wiretaps under 
his authority. You said you didn't read the wiretaps. I guess 
neither one of you read the requirements. But somebody had to 
be briefed who signed it on his behalf, on his authority. Did 
either of you ever brief Lanny Breuer or anyone else that could 
sign on his behalf?
    Mr. Newell. I did not, no, sir.
    Mr. McMahon. I did not, no.
    Chairman Issa. Okay. So I guess we're just going to figure 
that you knew on January 8th that you had the same people 
buying weapons repeatedly, leading to the same cartel, and you 
didn't quit because you hadn't made your case, so we continued 
selling until we had a dead Federal agent and a scandal? That's 
pretty much what I've heard here today. Any of the agents that 
work in the field, did any of you see something different then? 
This thing kept going after everything was known, except maybe 
if we keep doing it long enough, we'll get better cases for the 
U.S. attorney; and then it began falling apart after Brian 
Terry was murdered? Does anyone in the first four see anything 
different? Correct me if I've missed something.
    Mr. Gil. Chairman, I'm still sitting here listening to the 
conversation, and it's still unbelievable to me, and to be 
quite honest with you, I still don't know what to believe, why 
this investigation was initiated, and why it continued for so 
long. I can't. I know you look speechless. I'm speechless. I 
just don't know.
    Chairman Issa. Well, words escape me to try to do any 
better than you don't know why and I don't know why either.
    The gentlelady from New York for an additional round.
    Mrs. Maloney. Thank you.
    I would like to follow up on the line of questioning of 
Congressman Farenthold when he was talking about the lack of 
communication, which after 9/11 we had many commissions, we had 
many studies. And what came out of these commissions was that 
our intelligence wasn't working, and we weren't communicating. 
And we then overhauled our government, the most major overhaul 
of our intelligence since 1948. And it seems to be a little bit 
of the same thing of what I am hearing about these hearings, 
because people are saying they didn't know anything, and people 
are saying they told people and it's not getting through, so 
the communication is not taking place.
    When you mention 9/11, the mayor of New York, and we are 
about to come upon the 10th anniversary of that tragic day, has 
been airing TV ads in New York where they use the words of an 
al-Qa'ida leader who is talking to his followers and saying, go 
to America. It's so easy to get a gun. Go to America, get all 
the guns you need in our fight for the al-Qa'ida. So this is an 
ad about how illegal people who want to hurt Americans are 
being instructed literally to come to America and get guns in 
order to combat democracies. And so I think this hearing is 
very, very serious about the flow of illegal guns.
    Earlier we had a hearing and we had several agents who 
seemed very brave, very frustrated and very courageous. And 
they testified that they were concerned about the sale of the 
guns to straw agents; they were concerned about not having 
arrests, about being ordered not to make arrests and not to 
conduct surveillance. And I understand that you were asked, Mr. 
Newell and Mr. McMahon, and you did not hear any of their 
frustrations. They testified that they reported this to their 
supervisors, and nothing happened, and that's why they were so 
frustrated.
    So I think we've got to figure out what happens when 
someone reports something they feel is illegal, wrong, 
dangerous or harmful to life. And I'm not just talking about 
what happened in Fast and Furious, I'm talking about going 
forward. Agents on the ground who think that someone should be 
arrested, and they're being told not to make an arrest, or when 
they're being told not to make a surveillance, and a supervisor 
says don't do it, and they're saying we should do it, and 
they're complaining to someone else, that information has to go 
up the line in order to have proper law enforcement and proper 
protection for our citizens.
    So I ask anyone on the panel to comment, but I see this as 
a very serious, a very serious blockade or a very serious 
problem. If people who feel something wrong and harmful to the 
safety of Americans or Mexicans is taking place, then someone 
should be listening. And if a chain of command is not 
listening, maybe there should be an alternative chain of 
command put in place or something, because this type of concern 
has to get to the proper authorities in order to make proper 
decisions to make arrests, continue the surveillance and do the 
proper things to stop illegal activity.
    So I just would ask any of you to comment on what we've 
been hearing. People say they asked for help, and other people 
say they never heard anything, so what's going on? Is there 
some, you know, black hole that complaints fall into? What is 
the chain of command? Why did not the complaints or concerns of 
the on-the-line defenders of justice, why didn't their concerns 
about what they thought was illegal and dangerous get to the 
proper authorities?
    Mr. McMahon. I can take that, if I could. That is a 
concern, a major concern. ATF is my family, and obviously when 
I heard agents criticize things that were happening on the 
street and obviously there's a communication breakdown, that's 
very concerning to me.
    One of the things I wrote down here, the things that I 
would like to improve on, is my access to people in the field, 
maybe even just sitting down, hey, what can you tell me, what's 
going on, that sort of thing. I'm actually going to be going 
into a new position soon that's going to be talking about--I'll 
be overseeing the review of our office and the effectiveness 
andefficiency.
    Mrs. Maloney. Well, what happened now? Are you conducting 
an investigation to find out why the information from the 
agents on the street didn't get to the proper authorities?
    Mr. McMahon. Well, I believe the inspector general is 
conducting that investigation, and we look forward to the 
results of that.
    Mrs. Maloney. And when do you expect that to come back?
    Mr. McMahon. I don't know.
    Mrs. Maloney. Thank you.
    Chairman Issa. I thank the gentlelady.
    I will recognize myself for another round. I'm going to go 
down the row as we often do here and just pose a single 
question for each of you to answer. Special Agent Newell 
answered it already. If it was January 9th, you had just 
written that briefing; you knew what Special Agent Newell and 
Special Agent McMahon knew about what had happened, what was 
happening; you knew about the DEA's request; but you also knew 
about where these guns were ending up. Mr. Gil, start with you. 
If we put you in charge of the Phoenix field office on that 
day, what would you do?
    Mr. Gil. Mr. Chairman, that investigation would have been 
closed, come to a conclusion.
    Chairman Issa. In 30, 60, 90 days?
    Mr. Gil. No, sir, immediately. That part of an 
investigation on a trafficking is not--you have the trafficker, 
you have him there, you have the probable cause, you have the 
intelligence, you have everything you need to make the arrest; 
and as the discussion occurred earlier, the other tools in the 
toolbox are there, interviews, phone records, interviews of 
cohorts and so forth. The investigation with these guns, 
they're not a disposable product. These weapons, they're going 
to be out there for years, decades, and they're a durable good, 
they're a marketable item. And that's why historically ATF, my 
career, my training officer educated us on this, as I trained 
my young agents on, it's just--it's inconceivable that you 
would let weapons walk.
    Chairman Issa. Agent Wall.
    Mr. Wall. The same thing, Chairman. Letting one gun walk is 
a huge risk. Again, a gun can last 10, 20, 30 years. A gun in 
the hands of criminals, virtually it's a loaded weapon that's 
out there that's uncontrollable. We in ATF typically--I just--
I'm dumbfounded by just the number of weapons and how it got to 
that point, and really just supporting what Mr. Gil said.
    Chairman Issa. Agent Canino.
    Mr. Canino. Thank you, Mr. Chairman.
    As you know, we've met now a couple of times. You can see 
I'm kind of passionate about what I do. I don't want to give 
you the impression, or the ranking member, or the committee the 
impression that I never made mistakes. I was a street agent for 
15 years, very active street agent. Anybody who knows me knows 
my reputation. They know I've made mistakes.
    You know, I respect Gil and Bill. I consider them friends. 
I know it's not easy for them to be here today. But hopefully 
this won't happen again. And hopefully when the committee 
finally issues their report, our agency will be the better for 
it, and we can move on down the line.
    I agree. I think the first order of business for our agency 
right now is to build the morale, close ranks and move forward 
and support each other.
    Chairman Issa. Thank you.
    Mr. Leadmon.
    Mr. Leadmon. Yes, sir. I would like to expand and say that 
I think Congressman Maloney kind of touched on what the 
underlying problem is for our agency in these major 
investigations. She talked about 9/11, the lessons we've 
learned, the lack of sharing of information, the intel. Well, 
from my perspective, in my law enforcement career involved in 
major case investigations in the District of Columbia, I 
learned some things with my task forcing with other agencies, 
FBI, DEA and ATF. And one of the things that I see in ATF that 
we're lacking, we're lacking on the intel-led investigative 
side of the house. Our intel structure within the ATF is very 
limited. Our field FIGs need resources. Our headquarters 
entities need resources also.
    Now, to put this in perspective, ATF now, with the battle 
that Calderon is waging against the drug cartels in Mexico, we 
need to meet that challenge. And that challenge is they're 
going out and they're taking off these guns in these seizure 
events. We have to stop the flow because they can't win if they 
keep getting replenished. So with that in mind, we have to 
start taking some of the best practices of our other agencies. 
And, i.e., under an intel-led investigation, I'm not just 
talking about single investigations. In ATF we have silo 
systems. We have divisions that work out of their divisions. 
Everything comes out of the division. This has to stop. There 
has to be headquarters; not oversight, ``get all in their 
business'' type thing. But it has to do like our other agencies 
are that exchanges the information freely, partners up with 
outside agencies at all levels, not just in the divisions, but 
all the way up into headquarters. And to do that we have to 
build a structure, an intelligence structure, to support not 
only our agents in the field, but our partners in Mexico and 
our other Federal agencies.
    Chairman Issa. I'm going to cut you off only because of 
time limitations. We have a subcommittee coming in in a short 
time.
    But first of all you're singing, I think, on a bipartisan 
basis to what we need to do. And we probably will have you back 
as we get into the corrective phase, the reorganization, if 
appropriate.
    Let me just ask one closing question. Jaime Avila, Panino--
Patino, I'm sorry, Chambers and Stewart, they're all on the 
street today. They have not been convicted of a crime as straw 
buyers. If they walked into a gun shop today, just because 
they've been arrested, does that mean they can't buy? Would 
they be able to buy a weapon today?
    Mr. McMahon. They wouldn't be able to buy the weapon 
because they're under indictment. But I'm not sure if the NICS 
system in Phoenix would capture that if they did attempt to buy 
a weapon.
    Chairman Issa. So today you know that they shouldn't be 
able to buy, they shouldn't be on the street, but 20 straw 
buyers are on the street, and you're not sure if all 20 are, in 
fact, presently in the system where any federally licensed gun 
store would stop them immediately; is that correct?
    Mr. McMahon. Well, that's not our system, sir. The NICS 
system is run by another agency.
    Chairman Issa. No, I understand that. But right now you 
don't have full confidence that these people are not out doing 
straw purchases again?
    Mr. McMahon. No, sir. They were granted bail, as everyone 
is entitled to.
    Chairman Issa. They were also granted a speedy trial that I 
understand is delayed at least until February of next year, so 
they continue to be out there?
    Mr. McMahon. That's correct. The trial was scheduled for 
June, and then it's been postponed until February.
    Chairman Issa. Okay. With that I'm afraid we have to 
adjourn. I thank you all.
    Ms. Norton. Mr. Chairman, a point of personal privilege.
    Chairman Issa. Yes, a point of personal privilege.
    Ms. Norton. Since my position was mischaracterized in this 
hearing, I have come back to state my true position, and I 
wonder if I may be given a few minutes to do that.
    Chairman Issa. If you want to state your true position, 
bearing in mind that you told us that all of us on this side of 
the aisle were owned by the NRA----
    Ms. Norton. If I could be heard from you, if I could state 
my position. I was here for some time, Mr. Chairman, and I note 
that I didn't hear anyone speak up then. I can understand 
that----
    Chairman Issa. Actually the gentlelady left before----
    Ms. Norton. I was here for about 15 or 20 minutes. But it's 
the right of any Member to speak up. And I can only be 
grateful, Mr. Chairman, that you didn't say that I was vile or 
words of a kind that were uttered when another Member was 
outraged that in his absence his position was characterized.
    Yes, as I heard pontificating before law enforcement 
officers who risked their lives, I was moved to indicate that 
we had not given ATF agents the tools that they deserve. Indeed 
I indicated that the issues spread even into our cities.
    As for the District of Columbia laws, which apparently were 
raised, the District of Columbia barred guns in light of 
carnage over the decades. Those laws had been found to be 
constitutional, and for decades every appellate court had so 
found for the District's laws and for the laws of other States 
until an activist and much more conservative Supreme Court 
overturned the findings of prior Supreme Courts for the first 
time.
    The District of Columbia proceeded to obey the new law and 
enacted a set of gun laws, which have since been found 
constitutional, and yet Members of this body have filed bills 
seeking to overturn the laws of a local jurisdiction not their 
own simply because they disagree with the way they approach gun 
control. You can approach gun control any way you like in 
Arizona or California, but you are not at liberty to tell the 
people of the District of Columbia who have to live with the 
carnage how to approach it, particularly when the laws have 
been declared constitutional.
    Yes, I stand by the notion that the reason that the ATF 
agents don't have the laws they need is because the Republicans 
have over and over again introduced laws that would, in fact, 
keep them from getting those laws and have stood in the way of 
their acquiring those laws. And I have been bipartisan because 
there have been some in my own party who have stood with them.
    Mr. Chairman, having taken the agents to the woodshed, it 
does seem to me then the Congress--they're entitled to 
something from us. So I would like to ask you, in light of the 
fact that they have all testified that they need more tools in 
order to do their job, whether you would cosponsor the bill 
that has been introduced that would, in fact, give them a 
trafficking tool so that this would not happen again to them or 
to us, and would you be willing to sponsor that bill, Mr. 
Chairman?
    Chairman Issa. No, ma'am.
    Ms. Norton. Enough said.
    Chairman Issa. And with that, gentlemen, you bear witness 
to the other side of the aisle at work.
    With that, we stand adjourned.
    [Whereupon, at 3:05 p.m., the committee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T2802.007

[GRAPHIC] [TIFF OMITTED] T2802.008

[GRAPHIC] [TIFF OMITTED] T2802.009

[GRAPHIC] [TIFF OMITTED] T2802.010

[GRAPHIC] [TIFF OMITTED] T2802.011

[GRAPHIC] [TIFF OMITTED] T2802.012

[GRAPHIC] [TIFF OMITTED] T2802.013

[GRAPHIC] [TIFF OMITTED] T2802.014

[GRAPHIC] [TIFF OMITTED] T2802.015

[GRAPHIC] [TIFF OMITTED] T2802.016

[GRAPHIC] [TIFF OMITTED] T2802.017

[GRAPHIC] [TIFF OMITTED] T2802.018

[GRAPHIC] [TIFF OMITTED] T2802.019

[GRAPHIC] [TIFF OMITTED] T2802.020

[GRAPHIC] [TIFF OMITTED] T2802.021

[GRAPHIC] [TIFF OMITTED] T2802.022

[GRAPHIC] [TIFF OMITTED] T2802.023

[GRAPHIC] [TIFF OMITTED] T2802.024

[GRAPHIC] [TIFF OMITTED] T2802.025

[GRAPHIC] [TIFF OMITTED] T2802.026

[GRAPHIC] [TIFF OMITTED] T2802.027

[GRAPHIC] [TIFF OMITTED] T2802.028

[GRAPHIC] [TIFF OMITTED] T2802.029

[GRAPHIC] [TIFF OMITTED] T2802.030

[GRAPHIC] [TIFF OMITTED] T2802.031

[GRAPHIC] [TIFF OMITTED] T2802.032

[GRAPHIC] [TIFF OMITTED] T2802.033

[GRAPHIC] [TIFF OMITTED] T2802.034

[GRAPHIC] [TIFF OMITTED] T2802.035

[GRAPHIC] [TIFF OMITTED] T2802.036

[GRAPHIC] [TIFF OMITTED] T2802.037

[GRAPHIC] [TIFF OMITTED] T2802.038

[GRAPHIC] [TIFF OMITTED] T2802.039

[GRAPHIC] [TIFF OMITTED] T2802.040

[GRAPHIC] [TIFF OMITTED] T2802.041

[GRAPHIC] [TIFF OMITTED] T2802.042

[GRAPHIC] [TIFF OMITTED] T2802.043

[GRAPHIC] [TIFF OMITTED] T2802.044

[GRAPHIC] [TIFF OMITTED] T2802.045

[GRAPHIC] [TIFF OMITTED] T2802.046

[GRAPHIC] [TIFF OMITTED] T2802.047

[GRAPHIC] [TIFF OMITTED] T2802.048

[GRAPHIC] [TIFF OMITTED] T2802.049

[GRAPHIC] [TIFF OMITTED] T2802.050

[GRAPHIC] [TIFF OMITTED] T2802.051

[GRAPHIC] [TIFF OMITTED] T2802.052

[GRAPHIC] [TIFF OMITTED] T2802.053

[GRAPHIC] [TIFF OMITTED] T2802.054

[GRAPHIC] [TIFF OMITTED] T2802.055

[GRAPHIC] [TIFF OMITTED] T2802.056

[GRAPHIC] [TIFF OMITTED] T2802.057

[GRAPHIC] [TIFF OMITTED] T2802.082

[GRAPHIC] [TIFF OMITTED] T2802.083

[GRAPHIC] [TIFF OMITTED] T2802.084

[GRAPHIC] [TIFF OMITTED] T2802.085

[GRAPHIC] [TIFF OMITTED] T2802.086

[GRAPHIC] [TIFF OMITTED] T2802.087

[GRAPHIC] [TIFF OMITTED] T2802.088

[GRAPHIC] [TIFF OMITTED] T2802.089

[GRAPHIC] [TIFF OMITTED] T2802.090

[GRAPHIC] [TIFF OMITTED] T2802.091

[GRAPHIC] [TIFF OMITTED] T2802.092

[GRAPHIC] [TIFF OMITTED] T2802.093

[GRAPHIC] [TIFF OMITTED] T2802.094

[GRAPHIC] [TIFF OMITTED] T2802.095

[GRAPHIC] [TIFF OMITTED] T2802.096

[GRAPHIC] [TIFF OMITTED] T2802.097

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
